<html>
<title> - EQUITY FOR FILIPINO VETERANS</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]



 
                      EQUITY FOR FILIPINO VETERANS

=======================================================================


                                HEARING

                               before the

                     COMMITTEE ON VETERANS' AFFAIRS
                     U.S. HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                           FEBRUARY 15, 2007

                               __________

                            Serial No. 110-3

                               __________

       Printed for the use of the Committee on Veterans' Affairs


                              -------

                     U.S. GOVERNMENT PRINTING OFFICE

34-305 PDF                 WASHINGTON DC:  2007
---------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing
Office  Internet: bookstore.gpo.gov Phone: toll free (866)512-1800
DC area (202)512-1800  Fax: (202) 512-2250 Mail Stop SSOP, 
Washington, DC 20402-0001


                     COMMITTEE ON VETERANS' AFFAIRS

                    BOB FILNER, California, Chairman

CORRINE BROWN, Florida               STEVE BUYER, Indiana, Ranking
VIC SNYDER, Arkansas                 CLIFF STEARNS, Florida
MICHAEL H. MICHAUD, Maine            DAN BURTON, Indiana
STEPHANIE HERSETH, South Dakota      JERRY MORAN, Kansas
HARRY E. MITCHELL, Arizona           RICHARD H. BAKER, Louisiana
JOHN J. HALL, New York               HENRY E. BROWN, JR., South 
PHIL HARE, Illinois                  Carolina
MICHAEL F. DOYLE, Pennsylvania       JEFF MILLER, Florida
SHELLEY BERKLEY, Nevada              JOHN BOOZMAN, Arkansas
JOHN T. SALAZAR, Colorado            GINNY BROWN-WAITE, Florida
CIRO D. RODRIGUEZ, Texas             MICHAEL R. TURNER, Ohio
JOE DONNELLY, Indiana                BRIAN P. BILBRAY, California
JERRY McNERNEY, California           DOUG LAMBORN, Colorado
ZACHARY T. SPACE, Ohio               GUS M. BILIRAKIS, Florida
TIMOTHY J. WALZ, Minnesota

                   Malcom A. Shorter, Staff Director

Pursuant to clause 2(e)(4) of Rule XI of the Rules of the House, public 
hearing records of the Committee on Veterans' Affairs are also 
published in electronic form. The printed hearing record remains the 
official version. Because electronic submissions are used to prepare 
both printed and electronic versions of the hearing record, the process 
of converting between various electronic formats may introduce 
unintentional errors or omissions. Such occurrences are inherent in the 
current publication process and should diminish as the process is 
further refined.

                            C O N T E N T S

                               __________

                           February 15, 2007

                                                                   Page
Equity for Filipino Veterans.....................................     1

                           OPENING STATEMENTS

Hon. Bob Filner, Chairman, Full Committee on Veterans' Affairs...     1
    Prepared statement of Chairman Bob Filner....................    37
Hon. Cliff Stearns...............................................     2
    Prepared statement of Congressman Cliff Stearns..............    38
Hon. John Boozman, prepared statement of.........................    38
Hon. Doug Lamborn, prepared statement of.........................    38

                               WITNESSES

U.S. Department of Veterans Affairs, Ronald R. Aument, Deputy 
  Under Secretary for Benefits, Veterans Benefits Administration.     5
    Prepared statement of Mr. Aument.............................    42

                                 ______

American Coalition for Filipino Veterans, Inc., Franco Arcebal, 
  Vice President for Membership..................................    28
    Prepared statement of Mr. Arcebal............................    51
American Legion, Alec Petkoff, Assistant Director, Veterans 
  Affairs and Rehabilitation Commission..........................    34
    Prepared statement of Mr. Petkoff............................    56
Bordallo, Hon. Madeleine Z., a Representative in Congress from 
  the Territory of Guam..........................................    17
    Prepared statement of Congresswoman Bordallo.................    44
Filipino American Service Group, Inc., Susan Espiritu Dilkes, 
  Executive Director, and Member, National Alliance for Filipino 
  Equity.........................................................    30
    Prepared statement of Ms. Dilkes.............................    54
Filipino World War II Veterans Federation of San Diego County, 
  Vista, CA, Col. Romeo M. Monteyro, PA (Ret.), Advisor..........    24
    Prepared statement of Col. Monteyro..........................    48
Hirono, Hon. Mazie K., a Representative in Congress from the 
  State of Hawaii................................................    19
    Prepared statement of Congresswoman Hirono...................    45
Honda, Hon. Michael M., a Representative in Congress from the 
  State of California............................................    14
    Prepared statement of Congressman Honda......................    46
National Federation of Filipino American Associations, Alma Q. 
  Kerns, National Chair..........................................    31
    Prepared statement of Ms. Kerns..............................    55
National Network for Veterans Equity, Lourdes Santos Tancinco, 
  Esq., Co-Chair, and Chair, San Francisco Veterans Equity Center    27
    Prepared statement of Mr. Tancinco...........................    49
Philippines, Republic of, Carlos D. Sorreta, Charge d'Affaires, 
  Embassy of the Philippines.....................................     7
    Prepared statement of Mr. Sorreta............................    40
Ramsey, Lt. Col. Edwin Price, AUS (Ret.), Los Angeles, CA........    22
    Prepared statement of Lt. Col. Ramsey........................    47
Vietnam Veterans of America, Richard F. Weidman, Executive 
  Director for Policy and Government Affairs.....................    35
    Prepared statement of Mr. Weidman............................    56

                       SUBMISSIONS FOR THE RECORD

Abercrombie, Hon. Neil, a Representative in Congress from the 
  State of Hawaii, statement.....................................    58
American Coalition for Filipino Veterans, Jacksonville, FL, 
  Patrick G. Ganio, Sr., National President, statement and 
  attachment.....................................................    52
Batongmalaque, Jenny L., M.D., Executive Director, Filipino 
  Veterans Foundation, Los Angeles, CA, statement................    62
Bautista, Teresita Cataag, Filipino Civil Rights Advocates, 
  Oakland, CA, statement.........................................    61
Braga, Manuel, Spring Valley, CA, statement......................    58
Buyer, Hon. Steve, Ranking Republican Member, Full Committee on 
  Veterans' Affairs, and a Representative in Congress from the 
  State of Indiana, statement....................................    39
Filipino Civil Rights Advocates, Chicago, IL, Chapter, Vanessa 
  B.M. Vergara, Esq., Co-Chair, statement and attachment.........    59
Filipino Civil Rights Advocates, Oakland, CA, Teresita Cataag 
  Bautista, statement............................................    61
Filipinos for Affirmative Action, Oakland, CA, Lillian Galedo, 
  Executive Director, joint statement............................    68
Filipino Veterans Foundation, Los Angeles, CA, Jenny L. 
  Batongmalaque, M.D., Executive Director, statement.............    62
Galedo, Lillian, Co-Chair, National Alliance for Filipino 
  Veterans Equity, and Executive Director, Filipinos for 
  Affirmative Action, Oakland, CA, joint statement...............    68
Ganio, Patrick G., Sr., National President, American Coalition 
  for Filipino Veterans, Jacksonville, FL, statement and 
  attachment.....................................................    52
Inouye, Hon. Daniel K., a United States Senator from the State of 
  Hawaii, statement..............................................    64
Issa, Hon. Darrell, a Representative in Congress from the State 
  of California, statement.......................................    65
Lantos, Hon. Tom, a Representative in Congress from the State of 
  California, statement..........................................    66
Millender-McDonald, Hon. Juanita, a Representative in Congress 
  from the State of California, statement........................    66
Nanadiego, Brig. Gen. Tagumpay, AFP (Ret.), Orange, CA, statement 
  and attachment.................................................    67
National Alliance for Filipino Veterans Equity, Oakland, CA, 
  Lillian Galedo, Co-Chair, joint statement......................    68
National Federation of Filipino American Associations, Region IV, 
  Pembroke Pines, FL, Ernesto G. Ramos, Chair, statement.........    69
Sagisi, Jaymee Faith, Student Action for Veterans Equity, San 
  Francisco, CA, statement.......................................    72
Scott, Hon. Robert ``Bobby'' C., a Representative in Congress 
  from the State of Virginia, statement..........................    71
Student Action for Veterans Equity, San Francisco, CA, Jaymee 
  Faith Sagisi, statement........................................    72
Vergara, Vanessa B.M., Esq., Co-Chair, Filipino Civil Rights 
  Advocates, Chicago, IL, Chapter, statement and attachment......    59
Zulueta, Gil P., Virginia Beach, VA, statement...................    73

                   MATERIAL SUBMITTED FOR THE RECORD

Post-Hearing Questions and Responses for the Record:
    Chairman Bob Filner to VA Secretary Nicholson, letter dated 
      February 21, 2007..........................................    75
    Hon. Steve Buyer to VA Secretary Nicholson, letter dated May 
      1, 2007....................................................    77
    Hon. Steve Buyer to Mr. Carlos D. Sorreta, Embassy of the 
      Philippines, letter dated May 1, 2007, and response from 
      His Excellency Willy C. Gaa, Ambassador, Embassy of the 
      Philippines, letter dated May 29, 2007.....................    78


                      EQUITY FOR FILIPINO VETERANS

                              ----------                              


                      THURSDAY, FEBRUARY 15, 2007

                     U.S. House of Representatives,
                            Committee on Veterans' Affairs,
                                                    Washington, DC.

    The Committee met, pursuant to notice, at 10:05 a.m., in 
Room 334, Cannon House Office Building, Hon. Bob Filner 
[Chairman of the Committee] presiding.
    Present: 
Representatives Filner, Michaud, Hare, McNerney, Walz, Berkley, 
Rodriguez, Stearns, Lamborn, Moran, Boozman, Brown-Waite.

              OPENING STATEMENT OF CHAIRMAN FILNER

    The Chairman. This hearing of the Committee on Veterans' 
Affairs will be in order. We have a full morning ahead of us. I 
thank everybody for being here. Good morning to all of you. I 
am very happy to be able to hold this hearing.
    Many of you know that since I was first elected to Congress 
14 years ago I have been involved in this issue. And, in fact, 
this year marks the tenth anniversary of a protest that took 
place with some of the people in this room in front of the 
White House demanding equitable treatment in which a bunch of 
us were arrested. But we were able to give a lot of publicity 
to the issue and, in fact, made some gains.
    I am hoping that with the change of leadership in the 
Congress, we can get past these demonstrations and protest 
marches and get on to the legislative path to correct an 
injustice inflicted on Filipino veterans more than 60 years 
ago.
    As most of you know, Filipino servicemembers played a 
critical role in the United States victory in the Pacific 
during World War II. These brave Filipino soldiers, drafted 
into our Armed Forces by President Franklin Roosevelt, 
exhibited great courage in the epic battles of Bataan and 
Corregidor.
    In addition, these soldiers, while putting themselves and 
their families at great risk, participated in many guerrilla 
actions in the Philippines which prevented enemy forces from 
leaving and prosecuting the war in other areas.
    The schedule of the Japanese was held up many, many months 
because of the heroic action of the Filipino guerrillas.
    But despite these gallant efforts during the war, Congress 
in 1946 broke a promise and denied these veterans their 
benefits with the passage of the so-called ``Rescission Acts.'' 
Particularly unfortunate was the language that said that 
service in the Philippine forces was not to be considered 
active military service for the purpose of veterans' benefits.
    This language took away not only rightfully-earned 
benefits, but also the honor and respect due these veterans who 
served under the direct command of General Douglas MacArthur. 
The ``Rescission Acts'' shocked the thousands of Filipinos who 
fought side by side with Americans and suffered brutality 
during the Bataan Death March and as prisoners of war.
    When President Truman signed the ``Rescission Acts,'' which 
included various other appropriations matters, he stated that a 
great injustice was being done. I quote President Truman: 
``Filipino Army veterans are nationals of the United States. 
They fought with gallantry and courage under the most difficult 
conditions during the recent conflict. Their officers were 
commissioned by us. Their official organization, the Army of 
the Philippine Commonwealth, was taken into the Armed Forces of 
the United States by Executive Order of President Roosevelt. 
That order has never been revoked or amended. I consider it a 
moral obligation of the United States to look after the welfare 
of the Filipino Army veteran.''
    That is what President Truman said in 1946, and that moral 
obligation remains with us 60 years later. A wrong has existed 
that must be righted. I urge everyone here to think of the 
morality, of the dignity, of the honor of these brave men.
    There is scarcely a Filipino family today in either the 
United States or the Philippines that does not include a World 
War II veteran or a son or daughter of veterans. Sixty years of 
injustice burns in the hearts of these veterans. Now in their 
eighties and nineties, their last wish is the restoration of 
the honor and dignity that is due them.
    It is time that our Nation adequately recognizes their 
contributions to the successful outcome of World War II, 
recognize the injustice visited upon them, and act to correct 
this injustice.
    To those who ask if we can afford to redeem this debt, I 
answer we cannot afford not to. The historical record remains 
blotted until we recognize these veterans.
    There is a precedent, of course, providing veterans' 
benefits to noncitizen soldiers. Previously in 1976, we 
provided such benefits to citizens of both Poland and of 
Czechoslovakia.
    I look forward to hearing the testimony of those who served 
during World War II. In addition, I am interested in learning 
more about the efforts of organizations and individuals across 
the country to educate the public about the injustice done.
    I would yield to Mr. Stearns, Ranking Member, for an 
opening statement.
    [The prepared statement of Chairman Filner appears on p. 
37.]

            OPENING STATEMENT OF HON. CLIFF STEARNS

    Mr. Stearns. Thank you, Mr. Chairman.
    And I am acting as the Ranking Member for my colleague, the 
actual Ranking Member, Mr. Buyer, of the Committee. Mr. Buyer 
is absent in order to attend a funeral for our good friend, 
Congressman Charlie Norwood, but he sends his greetings. And he 
has asked me to help him out as the Ranking Member, Acting 
Ranking Member.
    So I am delighted to support him and to be here. And I 
obviously want to welcome all the witnesses this morning and 
thank them for their testimony.
    I also thank you, Mr. Chairman, for holding this important 
hearing. You have been a strong advocate for many years as I 
served on the Veterans' Committee and know of your strong 
feelings on this matter.
    But I think this side, we just have a question that we have 
for you. There is some confusion on our side of the aisle over 
the type of hearing we are having today. Based on most of the 
prepared testimony that we have seen and our staff, the 
witnesses are here to endorse House Resolution 760.
    Our side is under the impression that this is not a 
legislative hearing and that if you choose to bring that bill 
before the Committee, you obviously do it using the regular 
order, a legislative hearing followed by obviously a markup. 
And I just wanted to confirm that that is our understanding and 
perhaps is yours.
    The Chairman. Would you like to give me an official 
definition of a legislative hearing versus what we are 
supposedly doing today?
    Mr. Stearns. Well, a legislative hearing is that perhaps 
after this, you would suddenly take this bill, not suddenly, 
but you would take the bill, start marking it up, and it would 
be not an opportunity to have a normal order of going through 
the Subcommittees. We are now in a full Committee.
    But as you know, lots of times in Congress, they bring 
bills on the floor without going through the regular order, 
which is the Subcommittee has a hearing. The Chairman and the 
Ranking Member on both sides have an opportunity to discuss it. 
It goes to the full Committee for discussion and we have the 
process which gives equal opportunity for all to speak on it.
    So we are just hoping that that is ultimately what you 
intend and that what we have here is what we have often is just 
a hearing to hear witnesses and to gather information so 
ultimately we can all better understand the issue because, as 
you know, we have a lot of new Members who perhaps do not 
understand your long advocacy for this group and cannot respect 
the amount of hard work you have done and testimony and the 
bills that you have advocated when you were in the minority.
    So I think my question is just a fair one for our side just 
to clarify.
    The Chairman. If the gentleman would yield.
    Mr. Stearns. Absolutely, yes.
    The Chairman. I thought because of the number of new 
Members here we would have, in fact, a legislative hearing in 
front of the full Committee so everybody would have the 
advantage of that, and I would intend to move to a markup at 
some point within the next few weeks of this bill at the full 
Committee.
    Mr. Stearns. Okay. So could I ask you then, Mr. Chairman, 
would it go through the Subcommittee of jurisdiction first?
    The Chairman. No. We are the Committee of jurisdiction in 
this case, so we will----
    Mr. Stearns. So we will skip the Subcommittee and----
    The Chairman. We have had many hearings on this over the 
last decade, so----
    Mr. Stearns. Okay. Well, I think we are just trying to 
clarify. And I think what you are saying this morning is we are 
listening to witnesses, but we are not marking up the bill 
today.
    The Chairman. Exactly.
    Mr. Stearns. Okay. Well, I think you have confirmed what we 
in this side believe was the case.
    And if I can continue, we are here today to discuss the 
question of equity. Specifically what is the equity for 
Filipino veterans who fought alongside our veterans to defeat 
the empire of Japan in World War II and free their country.
    In this discussion, myself and other Members were here to 
listen to all sides of the issue. I understand, and I certainly 
appreciate the valor and courage of Filipinos in combat 60 
years ago.
    House Resolution 622 which passed last session recognized 
and honored those veterans for their defense of Democratic 
ideals and their important contributions to the outcome of 
World War II. No doubt about it.
    The history of the issue, however, is mixed. There have 
been claims that Filipino veterans were promised full benefits 
by General Douglas MacArthur. While there are no records 
supporting such claim and the General would not have been 
empowered by the United States law to make such promises, we 
do, my colleagues, know that Filipino men, many of them in 
their teens, fought and died for freedom.
    For the benefit of all of us in this discussion, at a 
Veterans' Committee hearing on this issue in 1998, now retired 
congressional research analyst, Dennis Nook, said, ``Filipino 
soldiers apparently believe that their service was a basis for 
becoming entitled to whatever benefit might be given to the 
United States military personnel.''
    He said further, ``In part, this belief could have been 
based on ill-advised promises made by United States officers. 
No U.S. official was authorized to make such promises, and no 
evidence has been uncovered which suggests that such promises 
were made, whether or not such authority existed to make 
them.''
    [The referenced hearing before the full Committee on 
Veterans' Affairs on July 22, 1998, entitled, ``Benefits for 
Filipino Veterans,'' Serial 105-44, can be accessed at http://
commdocs.house.gov/committees/vets/hvr072298.000/
hvr072298_0f.htm. The Committee no longer has printed copies of 
this hearing, but hard copies may be viewed at any GPO 
Depository Library. Locations of GPO Depository Libraries are 
listed at the following web address http://www.gpoaccess.gov/
libraries.html.]
    Now, my colleagues, Dr. Clayton Lorie, a historian with the 
United States Army Center for Military History, said 
essentially the same thing in that hearing. So there is 
something less than full clarity on what the United States 
intended in those days.
    But we do know, as the Chairman just mentioned, that 
President Harry Truman supported these benefits. We also know 
that since then, Americans have supported additional benefits 
in recognition of the valor and contribution of Filipino 
warriors.
    With that, Mr. Buyer, who is the Ranking Member, and my 
colleagues on this side, we are open, receptive to ideas and 
discussion that would help identify what is fair, what is 
equitable for all veterans, those here in the United States, 
those abroad, and the American taxpayers who ultimately pay for 
this solution.
    So I look forward to today's hearing. I want to thank our 
witnesses for coming. And I regret that Mr. Buyer, who is down 
in Georgia, he is at the funeral of our good friend, 
Congressman Charlie Norwood, but he sends his greetings and 
solicitations, and he also looks forward to reading the 
testimony of this hearing.
    And with that, Mr. Chairman, I yield back.
    [The prepared statement of Congressman Stearns appears on 
p. 38.]
    The Chairman. Thank you, Mr. Stearns.
    And we will get right to the first panel since they have 
other obligations. We have here with us Deputy Under Secretary 
for Benefits from the Department of Veterans Affairs, Mr. Ron 
Aument. And we have the Charge d'Affaires from the Embassy of 
the Philippines, Carlos Sorreta, who I think will be joining us 
shortly.
    Thank you for being here. And I guess you will announce it, 
but I want to thank the Secretary who called me yesterday and 
said that he was prepared to continue what had been a practice 
under the previous Secretary of making a $500,000 grant to the 
veterans hospital in Manila to help make sure that veterans in 
the Philippines would have access to higher quality healthcare, 
and we thank the Secretary for his commitment there.
    Please.

STATEMENTS OF CARLOS D. SORRETA, CHARGE d'AFFAIRES, EMBASSY OF 
 THE PHILIPPINES; AND RONALD R. AUMENT, DEPUTY UNDER SECRETARY 
FOR BENEFITS, VETERANS BENEFITS ADMINISTRATION, U.S. DEPARTMENT 
 OF VETERANS AFFAIRS; ACCOMPANIED BY ROBERT WEIBE, DIRECTOR OF 
            VETERANS INTEGRATED SERVICE, NETWORK 21

                 STATEMENT OF RONALD R. AUMENT

    Mr. Aument. Thank you, sir.
    Mr. Chairman, Members of the Committee, it is my pleasure 
to be here today to discuss the benefits that the Department of 
Veterans Affairs provides to World War II Filipino veterans. I 
am pleased to be accompanied by Dr. Robert Weibe, Director of 
Veterans Integrated Service, Network 21.
    For purposes of VA benefits and services, members of the 
Filipino Armed Forces can be recognized as having served in one 
of four groups, Regular Philippine Scouts, Commonwealth Army of 
the Philippines, recognized guerrilla units, and New Philippine 
Scouts.
    Veterans who served in the Regular Philippine Scouts have 
always qualified for the full range of VA benefits and services 
as veterans of the United States Armed Forces.
    Ms. Berkley. Mr. Chairman, could you ask our witness to 
speak into the mike. Some of our guests are not able to hear 
him so very clearly.
    Mr. Aument. Pardon me.
    Ms. Berkley. I am sorry. Thank you.
    The Chairman. Thank you, Ms. Berkley.
    Mr. Aument. Congress limited the rates of disability and 
death compensation to the equivalent of 50 cents on the U.S. 
dollar and did not authorize eligibility for VA need-based 
pension, healthcare, or readjustment benefits for veterans of 
the Commonwealth Army, recognized guerrilla units, and New 
Philippine Scouts.
    Legislative history indicates that the benefits were 
limited to 50 cents on the dollar in recognition of the 
different standards of living in the United States and the 
Philippines.
    Congress also anticipated that the newly-independent 
Republic of the Philippines would rightfully assume additional 
responsibilities for its veterans.
    Under legislation enacted over the past 6 years, veterans 
of the Commonwealth Army, recognized guerrilla forces, and New 
Philippine Scouts who lawfully reside in the United States and 
are United States citizens or aliens lawfully admitted for 
permanent residency in the United States now qualify for 
disability compensation at the full U.S. dollar rate. They also 
have eligibility for VA healthcare and burial benefits similar 
to other veterans of the United States Armed Forces.
    The survivors of veterans who served in the Commonwealth 
Army, recognized guerrilla forces, or New Philippine Scouts who 
reside in the United States and are U.S. citizens or legally-
admitted alien residents qualify for dependency and indemnity 
compensation benefits at the full dollar rate.
    If the veteran or survivor does not meet the above 
residency requirements, VA pays disability compensation, DIC, 
and burial benefits based on the half-dollar rate.
    Service-connected World War II Filipino veterans residing 
in the United States can obtain hospital and outpatient medical 
services for any condition on the same basis as veterans of the 
United States Armed Forces.
    The United States also provides assistance to the 
Philippines in a number of different ways to facilitate the 
provision of medical care to World War II Filipino veterans. VA 
has historically provided grants in the form of monetary 
support or equipment to the Veterans Memorial Medical Center in 
Manila.
    Since 2002, VA has contributed over $3.5 million to the 
VMMC and VA provided the funding under its authority to assist 
the Philippine government in fulfilling its obligations to 
provide medical care for Filipino veterans who fought with the 
United States Armed Forces in World War II.
    And we are pleased, Mr. Chairman, that the Secretary was 
able to share with you his decision to continue that grant 
again this year based upon the Senate's passage of the House 
approved continuing resolution for 2007.
    The Manila Regional Office administers a wide range of 
benefits and services for veterans, their families, and their 
survivors residing in the Philippines, including compensation, 
pension, DIC, education benefits, and vocational rehabilitation 
and employment services.
    The Manila Regional Office has jurisdiction over all cases 
involving veterans of the Commonwealth Army, recognized 
guerrilla units, and New Philippine Scouts no matter where they 
reside.
    As of January 2007, the Manila Regional Office provides 
disability compensation, pension, and DIC to approximately 
17,000 veterans and survivors. This includes 6,400 veterans who 
receive disability compensation of which 3,500 are World War II 
Filipino veterans and the remainder of the United States Armed 
Forces veterans from all periods of service.
    The Manila Regional Office also provides DIC benefits to 
approximately 6,700 survivors which includes 5,100 survivors of 
World War II Filipino veterans. Nearly 15,000 of the 17,000 
beneficiaries paid by the Manila Regional Office reside in the 
Philippines.
    Our records indicate that about 690 Filipino veterans and 
430 survivors of Filipino veterans currently receive benefits 
at the full dollar rate based upon their residence in the 
United States.
    We are very pleased that Congress has in recent years 
improved the benefits for those Filipino veterans and survivors 
facing living expenses comparable to the United States 
veterans. We believe these improvements were extremely 
important as they allowed VA to maintain parity in the 
provision of veterans' benefits among similarly situated 
Filipino beneficiaries.
    Mr. Chairman, this concludes my testimony, and I greatly 
appreciate being here today and look forward to answering your 
questions.
    [The prepared statement of Mr. Aument appears on p. 42.]
    The Chairman. Thank you, sir.
    Is there a representative from the Filipino Embassy here 
that--would you like to introduce yourself and give us your 
testimony?
    I think the Charge d'Affaires has just arrived. If you want 
to introduce him.
    General Lorenzana. The Charge d'Affaires is already here.
    The Chairman. Good timing, sir.
    Thank you, General, for your willingness to step in. Mr. 
Charge d'Affaires.

                 STATEMENT OF CARLOS D. SORRETA

    Mr. Sorreta. Thank you very much, Mr. Chairman. And I 
apologize for my tardiness.
    The Chairman. If you would introduce yourself for the 
record, please.
    Mr. Sorreta. Yes. Good morning, Mr. Chairman and all 
Members. My name is Carlos Sorreta. I am the Deputy Chief of 
Mission and Charge d'Affaires. The Ambassador is currently out 
of town and offers his deep apologies for being unable to 
attend this very important meeting.
    Mr. Chairman, may I proceed?
    The Chairman. Please.
    Mr. Sorreta. Thank you, sir.
    Mr. Chairman, all Members of the Committee, thank you very 
much for inviting us to appear before you and to speak on an 
issue of great importance to my country and to my people.
    Mr. Chairman, when the war ended in the Pacific, Filipino 
soldiers set their weapons aside, buried and laid to rest their 
fallen comrades, and collected the shattered pieces of their 
lives. For them, the end of the war came peace and with peace, 
they believed they had hope.
    Little did they know that although the carnage and 
destruction of war had ended, they would once more be entering 
into another battle, one that would rage and drag on for 
decades.
    Mr. Chairman, this new battle would be a fight that would 
once more call upon the courage, perseverance, and sacrifice 
that our veterans had unselfishly shown in the bloodied 
foxholes of Bataan and Corregidor and the steaming jungles of 
Luzon, Visayas, and Mindanao, and the death camps of Capas, 
Fort Santiago, and Muntinlupa.
    This would be another tragic battle that would make them 
stand witness once more and watch as their comrades would fall 
one by one, not by the bullets of an enemy nor their bayonets, 
but by their averages of time and the pain of equity.
    Today few of these living symbols of the very freedoms and 
liberties that we now enjoy remain. By month's end, there will 
be fewer still, but the Gods of war have not totally abandoned 
them. For in this new battle, they did not stand alone.
    There have been many in the Congress of the United States 
who have stood by our brave soldiers, possessed with a profound 
sense of history and a great appreciation of the common values 
that both our countries stand for and share and have fought 
for.
    Many in this and past Congresses have waged their own 
battle on behalf of our veterans for justice and equity. On 
behalf of my government and the Filipino people, let me express 
our deep gratitude to our friends and partners in the U.S. 
Congress for their continued support for the Filipino World War 
II veteran.
    Mr. Chairman, in this battle, our veterans have also 
marched on side by side with many Filipino-American 
organizations and individuals whose resolve and commitment have 
given all of us renewed strength to forge on.
    Many of these groups and individuals are with us here 
today, and we thank them for their invaluable and tireless work 
and for their unqualified dedication.
    Mr. Chairman, the Philippine government and the Filipino 
people continue to maintain that Filipino soldiers who served 
in the United States Army, particularly in the period between 
July 1941 and October 1945, are veterans under existing U.S. 
laws and are, therefore, entitled to all benefits that accrued 
to U.S. veterans.
    We, therefore, welcome the filing and urge the passage of 
House Resolution 760 and its companion bill in the Senate to 
restore the veterans' benefits that were removed by Public Law 
79-301.
    Mr. Chairman, we make this call based on assertions that 
are clearly based on facts and historical record. And I will 
not dwell on this because it is clearly on the record, but I 
would just like to attach to my statement a reiteration of the 
arguments and respectfully request that it be made part of the 
hearing record.
    The Chairman. It will be made part of the record.
    Mr. Sorreta. Mr. Chairman, Filipino World War II veterans 
were treated unfairly in 1946. At the critical juncture in both 
our countries' history, they heeded the call of President 
Franklin Delano Roosevelt. They left their families. They left 
their homes for an unsure fait. They fought bravely, valiantly, 
and with uncommon courage. They fought against great odds and 
they fought without the support that they had been promised.
    Of the 470,000 Filipino veterans supported by the U.S. 
Veterans' Administration in 1946, barely 20,000 remain, 13,000 
in the Philippines and 7,000 here in the United States. Those 
who remain, they have very little time left. Many are sick. 
Many are infirmed.
    Mr. Chairman, honorable Members of the Committee, as an 
official and representative of the Philippine government, I ask 
on behalf of a nation that has stood by yours in the name of 
liberty, freedom, and democracy in World War II and the decades 
of uncertainty after and in facing today's new and grave 
challenges to please finally allow these brave soldiers to 
leave the battlefield with their dignity intact, with the honor 
that they truly deserve, and, finally, with a victory that has 
alluded them for far too long.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Sorreta appears on p. 40.]
    The Chairman. Thank you.
    And Members may ask this panel questions. I want to 
recognize Mr. Hare, whose predecessor from his district, Lane 
Evans, was a strong supporter of this legislation the whole 
time he was in Congress, and I hope you will pass on, 
Congressman, our deep gratitude to Congressman Evans.
    Mr. Hare. Thank you, Mr. Chairman. I will.
    Let me just say that, you know, I am the new kid around, I 
suppose, but that was the most compelling testimony I have 
heard in a long time. And I want you to know, and I 
congratulate the Chairman for this bill, I fully support it. I 
cannot for the life of me understand why it has taken so many 
years to do what is basically and fundamentally the right thing 
to do.
    Whether somebody told somebody and did not have the right 
to tell them that, I do not know. But it seems to me that, you 
know, a veteran is a veteran and the Filipino veterans have 
been discriminated against. And it is my hope that this 
legislation will come out of this Committee quickly and that we 
will have a vote on it and then we can right a wrong. And we 
have the opportunity to do that.
    So I guess the only question that I have for you is, and 
perhaps, you know--I do not know if you have the answer, but, 
you know, you are fighting this battle, and for the Filipino 
veterans, I am assuming they have a great sense of feeling that 
somehow they have been let down by this country for what they 
have been able to do.
    Mr. Sorreta. Thank you, Mr. Chair.
    Sir, the Filipino veterans can speak most eloquently for 
themselves. But if I may have the honor to speak for them, they 
have shown the same patience over the decades that they have 
shown when they were facing the enemy, when they were in the 
jungles with barely anything. It is the same feeling. Low on 
ammunition, low on support, feeling abandoned, but they did not 
lose hope, sir, and they fight on.
    Thank you, sir.
    Mr. Hare. Well, it has never been easy. And let me just 
close by saying that, as I said before, I commend the Chairman 
for his strong support of this piece of legislation.
    I will do everything I can, Mr. Chairman, to help get this 
wrong rectified, and we can get this bill passed and signed 
into law. It is long overdue.
    Thank you very much. I yield back.
    The Chairman. Thank you, Mr. Hare.
    Mr. Stearns.
    Mr. Stearns. Thank you, Mr. Chairman.
    Let me also echo my colleague's comment about the eloquent 
speech that you just gave, Mr. Sorreta. My father fought in Iwo 
Jima, and I am well aware of the sacrifice the Filipinos made. 
And so I think everybody in this Committee is sympathetic, 
empathetic.
    There are some questions that as sort of the bouncer for 
the taxpayers, we just have to understand what it is going to 
cost, and I think some of the fair questions, if you do not 
mind, we will ask Mr. Aument, you also.
    What would this cost based upon your analysis of this bill 
over, let's say, a ten-year period? What would it cost?
    Mr. Aument. Congressman, no bill has yet been referred to 
us.
    Mr. Stearns. I think you have to put your mike on.
    Mr. Aument. Excuse me.
    Mr. Stearns. That is all right.
    Mr. Aument. I said the Committee has not yet referred us 
this bill for the Department and Administration's views, so we 
have really taken no action to cost this legislation at this 
time.
    I know in previous bills that had been introduced, you 
know, some time back, I believe the projected cost of 
legislation that had been introduced in, I believe, the 109th 
Congress showed a 10-year cost of around $2.7 billion. But, 
again, that was less than a formal estimate. And should the 
Committee refer us this legislation for our views, we will very 
carefully cost it out. So right now----
    The Chairman. If the gentleman would yield for a second.
    Mr. Aument. Absolutely, sure.
    The Chairman. Before the markup comes, we will have both a 
VA and a CBO official scoring. The CBO gave us an initial 
estimate, but we believe their assumptions were not necessarily 
sound.
    So we are working with them. They came up with an estimate 
recently about half of what was just mentioned. But, again, the 
numbers of veterans and their longevity, I think, were 
assumptions that were not fully, I think----
    Mr. Stearns. Well, I think, Mr. Chairman, regardless of how 
we all feel, we should know what it is going to cost. You have 
given an estimate of $1.2 billion. Our staff shows that CBO 
shows it would cost just under a billion.
    The Chairman has indicated some of the assumptions were 
wrong, and I think we all have an opportunity to find out what 
the real cost would be.
    I ask the staff to go back and look at historically when 
the bill was drawn up in fiscal year 2006. The Ranking Member, 
Lane Evans, suggested an appropriation of $22 million. That 
would be used to give each qualifying Filipino veteran about 
$200 a month.
    Chairman Filner in 2006 supported this plan which estimated 
that the cost to the U.S. Government would be around $22.6 
million. So that is for 1 year and that was for 2008.
    So we have some varying proposals from 2006 fiscal year and 
we have now estimates as high as $1.2 billion over the 10 
years. And I guess after you see the cost and knowing how all 
of us have seen these dollars are so important, the question 
would be, you know, can we afford it. If we cannot, what can we 
afford.
    Maybe the original numbers that Mr. Filner, Chairman Filner 
has brought to our attention at $22.6 million is more 
appropriate to what we should do instead of $1.2 billion over 
10 years.
    Then the next question is, what is the Filipino Government 
doing for its veterans, because if the United States Government 
gives support to the Filipino veterans and the Filipino 
Government gives support, how does that play out?
    According to our Census Bureau, the average per capita 
income in the Philippines is about $1,400. So if we took what 
we see in this bill--and, Mr. Aument, you can help me out on 
this--it is our understanding that if this bill was made into 
law, every Filipino would receive compensation at the full 
rates and an old-age pension that would make his or her income 
a minimum of $10,579.
    Is that what your understanding is also, that that would be 
the average income of a Filipino in the Philippines? The 
Filipino would have from the United States Government $10,600, 
he would make every year living in the Philippines when the 
average per capita income is around $1,400? Are my figures 
correct?
    Mr. Aument. Well, the pension program, Congressman, 
typically makes up the difference between whatever is 
determined to be the poverty level for pension purposes and the 
income that that veteran already makes. It would bring pension-
eligible veterans up to that $10,500 figure you just mentioned, 
but it may be paying each individual something less than that--
--
    Mr. Stearns. No, but----
    Mr. Aument [continuing]. Than the income that they 
already----
    Mr. Stearns [continuing]. We could have that maximum.
    Mr. Aument. Uh-huh.
    Mr. Stearns. And I would just conclude by saying that that 
would probably be higher than many veterans in the United 
States are making. Is that a true statement proportionately?
    Mr. Aument. The purchasing power of that income certainly 
would favor the Filipino national, yes.
    Mr. Stearns. Okay. Well, my time is expired. Thank you, Mr. 
Chairman.
    The Chairman. Thank you, Mr. Stearns.
    Ms. Berkley, any comment?
    Ms. Berkley. Thank you very much, Mr. Chairman. I 
unfortunately have battling Committee assignments today, so I 
am leaving. And I appreciate your courtesy.
    I have been a cosponsor of this legislation every time it 
comes up before Congress, and I am appalled that we have not 
rectified a 61-year wrong.
    With the amount of money that the United States Government 
wastes on a daily basis does not even begin to compensate the 
Filipino veterans who helped the United States of America win 
the war, win World War II. And we are all better and safer for 
their efforts on our behalf.
    I would hope that this Committee and the U.S. Congress move 
with all deliberate speed to rectify this injustice as quickly 
as we possibly can.
    And it would give me great pleasure to be able to introduce 
to you, Mr. Chairman, somebody from my congressional district 
who was here, Rosita Lee. She was Vice Chairman of the 
Association. She came all the way here from Nevada to add her 
voice. And I have heard what she has to say and I fully support 
it.
    And I yield back my time.
    The Chairman. Thank you, Ms. Berkley.
    Mr. Lamborn, comment or questions?
    Mr. Lamborn. I yield back, Mr. Chairman.
    The Chairman. Okay. Thank you.
    Mr. Walz. No.
    The Chairman. Mr. Moran.
    Mr. Moran. Thank you. I, too, have supported your efforts 
and I commend you on your leadership on trying to rectify the 
apparent injustice that has occurred in regard to Filipino 
veterans.
    And I also associate with the remarks of Mr. Stearns in 
regard to trying to find the appropriate solution to this 
problem, but it is one that should be resolved much more 
quickly than we have been able to do.
    My only question is of the Charge d'Affaires, Mr. Sorreta. 
Can you give us an estimate of how many eligible World War II 
veterans are now still living in the Philippines.
    Mr. Sorreta. Mr. Chairman, thank you, sir.
    Sir, our estimates are, at the end of the war, there were 
470,000. These are the numbers counted by the U.S. Veterans 
Administration. As of today, there are 20,000 left, sir, 20,000 
in the Philippines.
    Mr. Moran. That are living in the Philippines?
    Mr. Sorreta. That are living in the Philippines.
    Mr. Moran. And their average age?
    Mr. Sorreta. Their average age, they are close to about 70 
to 80, sir.
    Mr. Moran. Thank you, Mr. Chairman.
    Thank you, sir.
    The Chairman. Thank you.
    Mr. Boozman.
    Mr. Boozman. Thank you, Mr. Chairman.
    And, again, I appreciate your hard work over many, many 
years in trying to rectify the situation that we find ourselves 
in. And we appreciate all the veterans being here. Certainly 
your presence here makes a statement in itself.
    A question I have, if we were able--again, we have this 
problem. We have got problems with our atomic veterans. We have 
all kinds of things that we are going to be trying to work 
through in the next 2 years and, in fact, in the next several 
years.
    But if we are able to reach a compromise, my understanding 
is that if we strike a deal with $200 a month or whatever, that 
under current law in the Philippines, that the pension that is 
being given there now would no longer continue by the 
government. Is that true? So they do not help us with the 
amount that they are getting now. But if we increase that by 
$200, would they no longer receive their pension under current 
law?
    Mr. Sorreta. Mr. Chair, sir.
    Thank you for that question. The funds that the government 
has dedicated to the veterans form part of a larger group of 
funds for all retirees in the Philippine government. It forms 
part of the funds for benefits, retirement, and all these funds 
that go to Government employees when they retire.
    To be fair to all the others, if one group receives more 
than what has been allocated to them, then those funds that 
were given to them would go back to the pool. So it could help 
out others who are also in dire need.
    We are talking about retired nurses and Government 
employees. It is part of a bigger fund. We wish we could have 
devoted a very specific fund to the veterans, but the resources 
are just not that much.
    What I would just like to add, sir, is that it does not 
reflect on our desire not to help the veterans if they get this 
additional funding. They are getting support of medical, 
burial. All the other support that goes to a veteran would go 
to them except for the pension portion, which actually is also 
quite small. That money would not go into it. It would go back 
to the fund that helps other Government retirees.
    I would just like to add, sir, that after the war, the 
United States would have spent close to $4 billion. For 6 
decades, we have carried the burden for the veteran. I am not 
going to quibble over where we will not be giving them any more 
if they are given the equity. But I would just like to 
reiterate, sir, that we do support their quest for equity.
    Thank you, sir.
    Mr. Boozman. And I understand that. I guess what we are 
trying to do in the process of this is figuring out how much 
better off the veteran would be once we participated. So right 
now do they get $50 a month or $100 a month or----
    Mr. Sorreta. Mr. Chairman, it amounts to about $100.
    Mr. Boozman. Okay. So if we passed legislation here giving 
them $200 a month, they would lose the $100?
    Mr. Sorreta. Yes, they would lose that $100, but their net 
would be $200, sir, or $100.
    Mr. Boozman. Okay. The other thing, too, is you mentioned--
and, again, maybe you all can help me with the history, but 
after the war, did we not contribute several hundred million 
dollars to set up a fund to be helpful in this regard?
    Mr. Sorreta. Right after the war, sir, the U.S. Government 
gave an amount of $200 million. We were very thankful for that. 
But recovering from the ravages of war, sir, that $200 million 
went to very good causes, but did not last too long.
    Mr. Boozman. Okay.
    Mr. Sorreta. It just did not, sir, compared to, for 
example, to what was given to Europe or to Japan to recover 
from the war. I am not going to compare devastations between 
all these victims of war, but we were thankful. But, sir, it 
was just not enough. And we are fighting for equity.
    Mr. Boozman. The gentleman here, did you have a comment 
that you wanted to make?
    General Lorenzana. I am General Lorenzana. I am the head of 
the Veterans' Affairs Office at the Philippine Embassy.
    Going back to the question of Mr. Boozman about this $100 
being taken away if and when the Filipino war veterans are 
given a pension from the United States, yes, sir, it is true. 
It will be taken away from them because of a law that was 
passed in 1990.
    But there is an effort now to amend that law to remove the 
effect of that, so that even if the Filipino war veterans get 
the pension from the United States, they will continue 
receiving $100 worth of Philippine money.
    Mr. Boozman. Thank you, Mr. Chairman.
    The Chairman. Thank you, Mr. Boozman.
    Mr. Rodriguez, did you want to say anything before we move 
on?
    Mr. Rodriguez. Mr. Chairman, first of all, let me 
congratulate you because I served 8 years on this Committee 
before I left for a while, and I know that you brought this 
issue before us not once, not twice, but every time you have 
had an opportunity. And I know I have listened to the data 
through the years, and I just feel it is, you know, about time 
that we do the right thing.
    And I just personally want to thank each and every one of 
you for what you have done not only in terms of defending your 
own country but also being there for us. And so I want to thank 
you for that. And hopefully we eventually will do the right 
thing on this issue.
    And just thank you, Mr. Chairman, for bringing forth your 
tenacity on this issue. Thank you.
    The Chairman. Thank you, Mr. Rodriguez.
    We thank your panel for being here. We will get that 
request to the VA. Our regards to the Ambassador. One of 
General D. Lorenzana's predecessors, General Nanadiego, who we 
wish would be here, called me yesterday and said he was ill and 
also had to take care of his wife. And if you also would give 
him my regards.
    Thank you very much.
    We have a panel of Members of Congress who are here with us 
today. If they will join us, and then we will hear from them 
before we hear from some veterans from World War II.
    Mr. Honda, you have been a tenacious supporter of this 
legislation and as Chair of the Asian Pacific Americans in the 
Congress, we thank you for being here. And you may proceed with 
your testimony.

   STATEMENTS OF HON. MICHAEL M. HONDA, A REPRESENTATIVE IN 
            CONGRESS FROM THE STATE OF CALIFORNIA; 
 HON. MADELEINE Z. BORDALLO, A REPRESENTATIVE IN CONGRESS FROM 
    THE U.S. TERRITORY OF GUAM; AND HON. MAZIE K. HIRONO, A 
      REPRESENTATIVE IN CONGRESS FROM THE STATE OF HAWAII

               STATEMENT OF HON. MICHAEL M. HONDA

    Mr. Honda. Thank you, Mr. Chairman and Members of the 
Committee.
    Ranking Member Buyer, Chairman Filner, we really appreciate 
you holding this critically important hearing concerning the 
injustices done to some of the bravest men to have fought on 
behalf of the United States, the Filipino World War II 
veterans.
    Mr. Chairman, I also commend you for your tireless 
leadership on efforts to rectify the situation and for 
reintroducing House Resolution 760, the ``Filipino Veterans 
Equity Act.''
    As Members of the Committee know, I have been a vocal 
advocate for the equitable treatment of Filipino World War II 
veterans. I consider the recision of U.S. military status from 
approximately 250,000 Filipino World War II veterans who fought 
under the U.S. command and our flag as one of the greatest 
injustices ever perpetrated by this Congress.
    After six decades of our disgrace, we have the 
responsibility--and this is not a partisan issue--we have a 
responsibility to correct this injustice and honor their 
service and sacrifice, and our window of opportunity to make 
these brave veterans whole is rapidly closing.
    In 1934, when the Philippine Islands were a U.S. territory, 
Congress enacted Public Law 73-127 requiring the Commonwealth 
Army of the Philippines to respond to the call of the U.S. 
President.
    On July 26, 1941, with the Nation facing the threat of 
Japanese aggression in the Pacific, that call to arms came when 
President Franklin Roosevelt signed a military order for the 
Commonwealth Army to serve with the U.S. Army Forces--Far East 
(USAFFE) under the command of the U.S. military leaders. These 
Filipino soldiers bravely fought alongside their American 
brothers in arms until the end of World War II.
    With the enactment of Public Law 79-190 in 1945, Congress 
recruited an additional 50,000 Filipino soldiers, known as the 
New Philippine Scouts, in anticipation of needing occupation 
forces for captured enemy territories. At the time of 
recruitment, the U.S. Government promised that all that 
responded to the call would be treated as U.S. veterans for the 
purposes of their benefits.
    As a sidebar, I want us to remember part of the history of 
our U.S. Army when MacArthur had to leave under orders that the 
Filipino veterans were still there with our prisoners of war 
under the Japanese Imperial Army.
    We all remember the Bataan Death March. These Filipinos 
stayed by their side, harassed the Imperial Army in order to 
make sure that the maximum number of our POWs survived the 
Bataan Death March. Through the loss of their limbs and through 
the loss of their lives, they had dared to help the POWs to 
survive that Bataan Death March.
    In 1946, just after the conclusion of the war, Congress 
rescinded this promise, turning their backs only on the brave 
Filipino veterans. I say only. When passing the first and 
second ``Supplemental Surplus Appropriation Rescission Acts,'' 
commonly referred to as the ``Rescission Acts,'' Congress 
sought to reduce the amount of previously appropriated funds 
devoted to the war effort.
    Within these bills, however, contained the specific 
provisions that declared that service by the members of the 
Commonwealth Army and the New Philippine Scouts should not be 
deemed to have been service in the United States military, 
effectively stripping the Filipino soldiers of their U.S. 
veteran status.
    You might want to ask yourself, if you had read the 
``Rescission Act,'' that it was precisely written to only 
affect and impact one group of veterans. And you must ask 
yourself how many other non-U.S. veterans that fought under our 
flag with us who were not U.S. citizens but were granted U.S. 
veterans benefits? How many of those non-U.S. veterans had 
fought under the U.S. flag and how much did they receive and 
how many countries did they represent while they fought on our 
behalf?
    Although President Harry Truman signed the ``Rescission 
Acts'' into law, he recognized the heroic contributions of the 
Filipino soldiers and requested that efforts be made to correct 
the injustice. And I quote, ``The passage and approval of this 
legislation do not release the United States from its moral 
obligation to provide for the heroic Philippine veterans who 
sacrificed so much for the common cause during the war.''
    Since 1946, piecemeal benefits have been hard won by the 
Filipino World War II veterans. However, full veteran benefits 
are still denied. To correct the injustice, I have been a 
steadfast supporter of the ``Filipino Veterans Equity Act,'' 
which would provide the full benefits promised to all Filipino 
veterans who fought under the U.S. Command during World War II.
    I am encouraged by the Chairman's dedication to facilitate 
a quick passage of this legislation and the large number of 
Members participating in this hearing.
    As Chairman of the Congressional Asian Pacific American 
Caucus (CAPAC), I can also voice the Caucus's united support on 
this concern. We have prioritized the plight of the Filipino 
World War II veterans as a top legislative goal. CAPAC will 
continue to work to educate and recruit support from our 
colleagues and the public.
    Other Members may cite the cost of the ``Filipino Veterans 
Equity Act'' as an obstacle, but who among us can refute the 
injustice that has been done? Congress must return the promised 
veteran status to the courageous World War II Filipino 
soldiers.
    During the war, there were nearly 250,000 Filipino soldiers 
who had served under the U.S. Command. At this point, only an 
estimated 22,000 are still living.
    To put things in perspective, the funding necessary to 
provide these remaining Filipino veterans with full equity of 
benefits is roughly equal to what we are currently spending in 
1 or 2 days in Iraq. Must we wait for more of these deserved 
Filipinos to pass away to justify the cost? Is this how we 
should repay our courageous veterans? I think not.
    Mr. Chairman, these World War II heroes are in the twilight 
of their lives, and time is running out for Congress to 
recognize their service. A promise made should be a promise 
kept, especially when it comes to veterans.
    Bolstered by our country's sense of moral values and honor, 
we say that our word is our bond. If we are to be a legislative 
body dedicated to the ideals of justice and dignity, then it is 
imperative we honor the promise made to our Filipino veterans 
and restore their benefits.
    Mr. Chairman, I wish to close with a roll call of Filipino 
veterans of World War II from my home in northern California, 
Bay area that passed away last Congress.
    I call this a roll call: Boayes, Guillermo, he died at the 
age of 87; Carino, Demetrio died at age 91; Duenos, Magdaleno 
died age 91; Fabricante, Salomon died age 81; Galang, Dioniso 
died age 81; Gomez, Godofredo died age 83; Pelaez, Ariston died 
age 75. There were many more before this congressional session. 
There are very few left.
    We talk about the cost of this. What is the cost of our 
honor? What is the cost of their dignity? And the cost 
diminishes every year as each one of these veterans pass away.
    So it is my hope and desire that the Congress of WWII is 
still the Congress of this country of 2007. We are an esteemed 
body. We are the same institution with the same promises that 
need to be kept.
    Congress must not wait any longer to correct the dishonor 
that our disgraceful actions has imposed upon our Filipino 
veterans of World War II. We can do no less than keep our word.
    I appreciate the time.
    [The prepared statement of Congressman Honda appears on p. 
46.]
    The Chairman. Thank you, Mr. Honda.
    The distinguished delegate from Guam, Ms. Bordallo, please.

            STATEMENT OF HON. MADELEINE Z. BORDALLO

    Ms. Bordallo. Thank you, Mr. Chairman. Thank you for the 
invitation to appear before this Committee today.
    I represent the U.S. territory of Guam, closest neighbor to 
the Philippines, in the U.S. Congress. Forty percent of our 
population in Guam is made up of Filipinos, including a number 
of the Philippine Scouts who reside there today, and many have 
died in recent years.
    I have submitted my full statement for the record, but wish 
to offer a few words of support, Mr. Chairman, and 
encouragement for our Filipino veterans.
    At the very heart of this hearing today and central to the 
issue before us is the question of equity. The national effort 
to fully restore the rights, privileges, and benefits of 
veteran status to surviving World War II veterans of the 
Commonwealth Army of the Philippines, to all of the Philippine 
Scouts, and to those individuals from the Philippines who 
served in the United States Armed Forces organized resistant 
units is an effort in the name of justice.
    These soldiers, as we have been so reminded this morning, 
served shoulder to shoulder with American servicemen under the 
command of General Douglas MacArthur who resisted the Imperial 
Japanese forces in their homeland in the greatest conflict of 
the 20th century.
    They were seen and treated as equals in the line of duty 
and in the battle to secure freedom and democracy against the 
perils of the second World War. There was no inequity on the 
frontlines of the war, no distinction between the sacrifices of 
our soldiers both Filipino and American alike, and no 
differences in their calls to duty as servicemembers under the 
United States Armed Forces.
    Yet, we have an existing and lingering inequity in our 
government's treatment of our World War II veterans today. This 
is the inequity which compels us as Members of Congress to come 
here today to testify on behalf of bringing justice to our 
Filipino veterans.
    The values, Mr. Chairman, of freedom, Democratic 
governance, and the rule of law were cherished and sought by 
the people of the Philippines in the early part of the 20th 
century. The extent to which these values were inherent in the 
character of the people of the Philippines was evidenced by the 
service and sacrifices of the approximately 250,000 of their 
countrymen that upon order of our President, Franklin Delano 
Roosevelt, were inducted into the United States Armed Forces.
    The campaign to liberate the Philippines reportedly 
included some of the bloodiest fighting of the second World 
War. We all know the heroic stories of the intense fighting at 
Bataan and Corregidor. The capture of soldiers by the Imperial 
Japanese forces during these battles knew no bounds. Filipino 
and American soldiers were captured together and sacrificed 
together in the cause of freedom.
    The United States Congress, however, withheld benefits from 
our Filipino veterans with the passage of the ``Rescission 
Acts'' of 1946. The continued withholding of these benefits 
strikes against the very principles of justice and fairness 
that these soldiers so valiantly fought to defend.
    Mr. Chairman, Filipinos are the only national group singled 
out for denial of full U.S. veteran status while the soldiers 
of more than 66 other U.S. allied countries who were similarly 
inducted into the service of the Armed Forces of the United 
States during World War II were granted full U.S. veteran 
status. You ask yourself how could this have happened.
    Today there are fewer and fewer surviving Filipino veterans 
of the second World War with each passing year. The need for 
Congress to honor their service by enacting legislation to 
fully restore veteran benefits for them is now more important 
than ever before.
    As a Member of the Congressional Asian-Pacific American 
Caucus under the chairmanship of Mr. Mike Honda, I strongly 
support and have supported in the past House Resolution 760, 
the ``Filipino Veterans Equity Act'' of 2007.
    If signed into law, House Resolution 760 would fulfill our 
country's long overdue commitment to these loyal and honorable 
veterans. We must act now, Mr. Chairman, to fulfill the United 
States Government's responsibilities to those who served 
willingly and ably in the defense of freedom.
    Filipino veterans deserve no less than our best commitment 
to bring them equity and justice in the name of good faith of 
the United States Government.
    I urge this Committee to favorably report your legislation, 
Mr. Chairman, to the full House as soon as possible. And I 
thank the Members of the Veterans' Committee who are here 
today.
    I thank especially, Mr. Chairman, the Filipino leaders in 
this room today that are participating in this hearing who 
continue all these years, 61 years, to pursue this course in 
the name of the veterans.
    Thank you.
    [The prepared statement of Congresswoman Bordallo appears 
on p. 44.]
    The Chairman. Thank you very much.
    From Hawaii, we have a new Member from Congress, and we 
welcome her and we welcome her testimony, Congresswoman Mazie 
Hirono.

               STATEMENT OF HON. MAZIE K. HIRONO

    Ms. Hirono. Thank you, Mr. Chairman and Members of the 
Committee. I am honored to sit here to testify with my very 
eloquent colleagues, Mr. Honda and Ms. Bordello.
    Thank you very much for the opportunity today to testify on 
a matter of equity for Filipino veterans of World War II. This 
is an important issue for me and for the rest of the 
congressional delegation from Hawaii and for the many families 
in Hawaii.
    Hawaii last year celebrated the 100th anniversary of the 
first Filipino immigrants to Hawaii. It is long past due for us 
to pass this legislation and to do the right thing.
    As you know, Filipino veterans are those that honorably 
answered the call of President Franklin D. Roosevelt and served 
alongside our Armed Forces during World War II. They fought 
shoulder to shoulder with American servicemen. They sacrificed 
for the same just cause.
    We made a promise to provide full veterans' benefits to 
those who served with our troops. And while we have made 
appreciable progress toward fulfilling that promise, we have 
not yet achieved the full equity that Filipino veterans 
deserve.
    I am proud to be an original cosponsor of House Resolution 
760, the ``Filipino Veterans Equity Act'' of 2007, which was 
introduced by the Chairman to provide the necessary 
reclassification of the service of Filipino veterans to make 
them eligible for all the veterans benefits programs 
administered by the U.S. Department of Veterans Affairs.
    In essence, House Resolution 760 makes good on the promise 
our government made to these brave men over 60 years ago. 
Today, out of the 250,000 veterans, only about 22,000 remain 
and of that number, approximately 2,000 reside in my home State 
of Hawaii.
    As Filipino veterans are entering the sunset years of their 
lives, Congress is running out of time to fulfill our 
obligations to them.
    I would also like to take this time to discuss very briefly 
an effort that I am jointly working on with Senator Daniel 
Akaka to provide for the expedited reunification of the 
families of our Filipino veterans.
    Prospective family-based immigration applicants from the 
Philippines face substantially, often decade-long waits for 
Visas. It is our aim to introduce a bill that would further the 
recognition of the service of Filipino veterans by granting 
their children a special immigration status that would allow 
them to immigrate to the United States and be unified with 
their aging parents.
    Mr. Chairman, Members of the Committee, I thank you again 
for the opportunity to speak today on the need to fulfill our 
obligations to our Filipino World War II veterans. And I know 
that our congressional delegation consisting of Representative 
Neal Abercrombie and Senators Daniel Akaka and Daniel Inouye 
would lend their strong voices as they have for many years in 
support of this measure.
    Thank you very much.
    [The prepared statement of Congresswoman Hirono appears on 
p. 45.]
    The Chairman. Thank you. We thank all of you for taking the 
time to be here. We will enter into the record the statements 
of almost a dozen other congressional colleagues who wanted to 
be heard on this in the record.
    Are there any questions from Mr. Hare?
    Mr. Hare. Not a question, Mr. Chairman. But I was doing 
some math as my colleague, Mr. Honda, was testifying. And I 
hope we can all put this in perspective because I think it 
drives home what you have worked so hard on.
    We are spending $11 million an hour, as you mentioned, on 
Iraq. And if my math is correct, if this legislation passed and 
it cost $1.1 billion, that would be the equivalent of four and 
one-half days of what we are spending, number one.
    Number two, this is 61 years, not four and one-half days, 
and 228,000 people who fought alongside our troops to keep them 
safe and gave their lives for this country. And the question 
is, from my perspective, Mr. Chairman, is not can we afford to 
do this. The question is, can we certainly afford not to do 
this.
    So I just again want to go back and say to my colleagues, I 
am proud to be a cosponsor of this bill. And it just seems to 
me that regardless of what a person makes living in the 
Philippines per month, they served, they served admirably, 
courageously, and for $200 a month, when you look at what this 
government throws out the window every single day, were this 
not so tragic, it would almost be silly to even be talking 
about the cost of this legislation.
    I yield back.
    The Chairman. Thank you.
    Mr. Stearns, any comments?
    Mr. Stearns. No, Mr. Chairman. I appreciate the testimony.
    The Chairman. Okay. Mr. McNerney.
    Mr. McNerney. Thank you, Mr. Chairman.
    And I want to thank this panel for their heartfelt 
testimony and the previous speaker as well.
    I reflect the pride that I feel many in our district, and 
there is a strong Filipino community in the City of Stockton, 
share for the service that the Filipinos did and gave of their 
lives in World War II. And we all feel eternal gratitude for 
their service.
    I see many Filipino veterans in the audience, and I 
personally thank you for the service that you gave to the 
United States and to the Philippines during this period.
    My father served in the Philippine Islands in World War II, 
and he often spoke of the valor and the industry of the people 
that he worked with. It was a matter of pride. He brought back 
many mementoes that he showed us throughout the years of his 
life that I looked on with pleasure and with pride.
    And I want to say that I feel there is an urgent need to 
undo an injustice and to move forward with this legislation. 
And so I stand up in strong support, and I urge my colleagues 
to do the same.
    Thank you.
    The Chairman. Mr. Boozman.
    Mr. Boozman. Thank you all for coming to testify. I enjoyed 
your testimony.
    And first of all, I want to go on record as saying that, I 
feel at this point, Mr. Filner, we will come up with something 
that I very definitely will support as far as legislation.
    But we have had a lot of different numbers bandied around. 
In the bill, it talks about $10,000. Mr. Hare mentioned $200 
which would really only mean $100 to the individual because 
they are going to take away their pension. So we have got some 
things we have got to get sorted out.
    What I do not want is for us to put a bill out, though, 
that has no chance of going anywhere. As you all know, the 
budget constraints that we have got now going are, a billion 
dollars is going to be tough to find.
    In a little bit, I am going to go over and visit--we are 
going to have a press conference with the GI Bill. Myself and 
several others are trying to push the inequity in the GI Bill 
for the Reservists.
    The comments being made about Iraq, this has been going on 
for 4 years. The question is, why hadn't we done this 56 years 
prior to that.
    So, the problem has been that Congress has just not seen 
this as a priority. And, I do not know that without Iraq, they 
would have seen it as a priority as they did for the previous 
56 years.
    So, again, I appreciate your testimony. I agree with you. 
What I want, I know is what you all want, is something that we 
can get before the Budget Committee, get before the 
appropriators, well, the Budget Committee.
    In reality, we are talking about mandatory spending and to 
get something passed that will make a difference for the 
individuals that have survived and did such a tremendous job in 
service to our country many years ago.
    Thank you.
    The Chairman. Thank you, Mr. Boozman.
    And, Mr. Honda.
    Mr. Honda. If I may.
    The Chairman. Please.
    Mr. Honda. I have a possible model of cost that I would 
like to submit to the Chair for his perusal and share with the 
Members of the Committee. That was put together by Colonel 
Romeo Monteyro. You probably know him. And I think that it 
bears some study as to the possible model that you may want to 
look at.
    Thank you.
    The Chairman. Thank you.
    Mr. Boozman, the figures will be clarified before the 
markup. We will need to have those. And the billion, by the 
way, that is referred is over 10 years. It is not a 1-year 
cost. So we will have all those figures and try to have some 
recommendations on how we can meet those needs because I agree 
with you. There is no sense doing something that is not going 
to be passed.
    So thank you again for your concern.
    Mr. Rodriguez?
    Mr. Rodriguez. Once again, Mr. Chairman, I want to 
personally thank you for bringing forth this piece of 
legislation, and I know you have worked really hard on that.
    And I would just also want to thank each one of the 
presenters, and I know that somehow we always argue about and 
discuss whether there are resources or not. Six years ago, we 
had the largest surplus in recorded history and we did not do 
anything.
    And so I think it just a matter of doing the right thing 
and moving forward. When the priority is there, we find the 
money to do that. And we just seem not to be able to, even for 
some of our American veterans, to be able to provide some of 
the needs that they have.
    And I am still thinking of our National Guard that were 
brought back from Iraq and we had to provide resources for them 
to be able to fly home, which is ridiculous, you know. And so I 
think we have just got to do the right thing and indicate that 
it is an important priority that we have to uphold.
    You have been there for us when we needed you. We need to 
be there for you. And I know it is a little bit late, but, you 
know, we need to do the right thing and move forward and know 
the resources are never going to be there. We have just got to 
prioritize and move forward.
    The Chairman. Thank you.
    Thank you, our colleagues. Mr. Honda, your honor roll was 
particularly compelling, and we will continually think of those 
brave men.
    If panel three will come forward. I hope any Members can 
stay. We have some living history coming before us. And Colonel 
Edwin Ramsey, who is a legendary figure in the Pacific, and we 
thank him for being here, joined by Colonel Romeo Monteyro, who 
is with the Filipino World War II Veterans Federation.
    And, Colonel, thank you for your constant support and 
pressure on this.
    Colonel Ramsey, you have the floor.
    Mr. Boozman. Mr. Chairman, can I just make a comment----
    The Chairman. Yes.
    Mr. Boozman [continuing]. With your permission? Again, I 
apologize. We have a lot of Members missing today. Charlie 
Norwood, the gentleman that was a Member of Congress from 
Georgia, passed away earlier this week and his funeral is going 
on this afternoon. And many Members, they are taking a 
congressional plane to that funeral. So we have many Members 
that are attending the funeral. So I just wanted to make the 
audience aware of that.
    The Chairman. Thank you, Mr. Boozman.
    Colonel.

    STATEMENTS OF LT. COL. EDWIN PRICE RAMSEY, AUS (RET.), 
    LOS ANGELES, CA; AND COL. ROMEO M. MONTEYRO, PA (RET.), 
ADVISOR, FILIPINO WORLD WAR II VETERANS FEDERATION OF SAN DIEGO 
                       COUNTY, VISTA, CA

            STATEMENT OF LT. COL. EDWIN PRICE RAMSEY

    Colonel Ramsey. Thank you, Mr. Chairman and gentlemen of 
the Committee.
    I would first like to say, the previous speakers, I would 
like to say amen because they have already stolen much of what 
I was going to say.
    My name is Edwin Ramsey. I came from Los Angeles to attend 
this hearing, and I thank you for the opportunity to appear 
before you here today.
    Having appeared before the same Committee on November the 
5th of 1993, again on July the 2nd of 1998, and since I will 
turn 90 on May the 9th of this year, I will never have another 
chance to contribute in some small way to correcting a 
longstanding gross injustice to the Filipino veterans of World 
War II.
    It is important that you be aware of why I had a unique 
position during that period of time. In 1941, I was a 
Lieutenant in the 26th Calvary of Philippine Scouts with whom I 
fought from the Japanese landing in Lingayen Gulf through the 
Battle of Bataan.
    After Bataan surrendered on April the 9th of 1942, my troop 
commander, Captain Joseph Barker, II, and myself escaped and 
made our way to Pampanga Province in central Luzon where we 
meet Colonel Claude Thorp who General MacArthur had sent out of 
Bataan to establish resistance behind enemy lines.
    We joined Colonel Thorp and began the guerrilla forces in 
central Luzon designated by Colonel Thorp to be the east-
central Luzon guerrilla area under the Luzon guerrilla Army 
forces of Thorp.
    After capture of both Thorp and Barker and their later 
execution, in early January of 1943, I became the commander of 
the east-central Luzon guerrilla area or ECLG for short. By the 
liberation of central Luzon, it had grown to approximately 
45,000 guerrilla troops.
    With that background, I would like to address the question, 
the status of Filipino veterans and their treatment, especially 
in respect to the ``Rescission Act'' of 1946.
    In July of 1941, President Roosevelt authorized through the 
War Department the formation of the United States Army Forces 
in the Far East or USAFFE under the command of General Douglas 
MacArthur. And he ordered the induction of the military forces 
of the Commonwealth of the Philippines as part of the USAFFE.
    It is impossible to see how these Filipino troops could be 
federalized into the USAFFE and not be part of the United 
States Army.
    Further, when we inducted the Filipinos into the guerrilla 
forces, we required that they all swear allegiance to the 
United States of America and the Commonwealth of the 
Philippines. Therefore, all those guerrillas that were 
recognized after the liberation would have the same status.
    And in that connection, I question why there was a 
difference in the treatment accorded to the 65,000 or so 
Commonwealth of Puerto Rico troops and those from Hawaii and 
elsewhere who served in the U.S. Army and were later treated 
the same as American veterans.
    The USAFFE forces fought courageously, delaying the 
Japanese time table for several months instead of the 6 weeks 
that General Homma had been given by the Japanese high command 
to conquer Bataan.
    Also, remember that only the Filipinos remained loyal to 
their former colonial masters while the Indo-Chinese turned on 
the French, the Indonesians on the Dutch, and Malaya and Burma 
turned on the British. It was just unbelievable loyalty that 
provided the environment necessary to build the massive 
guerrilla forces that made it impossible for the Japanese to 
defend in any serious way against the liberation, the allied 
forces, and ultimately save thousands of American and allied 
lives.
    General MacArthur personally confirmed this to me in a 
meeting I had with him in Tokyo in March 1947. And at that 
time, he gave me an autographed photo signed ``To Ramsey with 
the admiration and affection of his old comrade in arms, 
Douglas MacArthur.'' That is my prized memento.
    For the sake of brevity, since we have so little time 
today, for more detail, please refer to the previous testimony 
that I submitted in the earlier hearings in 1993 and again in 
1998, and they were incorporated into the hearing records.
    I would especially call your attention to a paragraph on 
page four of that letter of July the 22nd, 1998, my letter in 
the hearing, referring to President Roosevelt's message to 
Congress on October 6th, 1943, calling for our government to 
provide full rehabilitation of the Philippines at the 
conclusion of the war.
    And I have a copy with me of that letter from General 
MacArthur forwarding this to us by submarine in the Philippines 
and the guerrilla forces indicating the recommendation that 
President Roosevelt had made to Congress at that time.
    I thank you, gentlemen, and I would be happy after the 
meeting is over if you would like to speak to me, I would be 
available.
    The Chairman. Thank you, Colonel.
    Colonel Ramsey. Thank you.
    [The prepared statement of Lt. Col. Ramsey appears on p. 
47.]
    The Chairman. Colonel Monteyro.

              STATEMENT OF COL. ROMEO M. MONTEYRO

    Colonel Monteyro. I am Colonel Romeo Monteyro, Army, 
retired, and the advisor to the Filipino War Veterans of San 
Diego County.
    Thank you, Mr. Chairman, for inviting me here today. In the 
next 5 minutes, allow me to dwell on the particular subject, 
the loyalty of the Filipinos to America before, during, and 
beyond World War II.
    Private Tomas Claudio, a Filipino, was a member of the 
American Expeditionary Forces to France. And their footnote in 
history, he is not known to Americans, but U.S. Army records 
place him as the first Filipino to die for America. He was a 
farm worker in California when America entered the first World 
War. He need not enlist, but he did out of patriotism and love 
for his adopted country.
    Then there was Jose Abad Santos, Chief Justice of the 
Supreme Court of Philippine Commonwealth. He became the 
caretaker of the Commonwealth government after President Manuel 
Quezon was ordered out by President Roosevelt.
    The enemy caught up with him in Lanao and was told to 
publicly renounce his allegiance to America and pledge loyalty 
to the Japanese government. When he refused, he was tried by a 
kangaroo court and was sentenced to die by firing squad.
    On the eve of his execution, he told his son do not cry, my 
son. Show these people that you are brave. Not everyone is 
given the chance to die for his country. The loyal and brave 
Chief Justice chose to die for America.
    In the movie, the ``Great Raid,'' the loyalty of the 
Filipinos to America was depicted factually. Filipinos in 
billions risked their lives by smuggling food, medicine, and 
money to starving and sick American prisoners of war.
    Resistance fighters blocked a stronger Japanese force and 
prevented it from reinforcing the prison guards at Cabanatuan 
City, paving the way of the successful rescue of more than 500 
American POWs by a battalion of U.S. Army Rangers.
    President Harry S. Truman said as he reluctantly signed the 
``Rescission Act'' of 1946, ``This does not absolve America of 
its moral obligation to the Filipino veterans.''
    President Bill Clinton commented during the award ceremony 
for World War II Congressional Medal of Honor winners of 
Japanese and Filipino descents 59 years later, ``Rarely has a 
country been so well-served by a people it has so ill treated. 
They risked their lives above and beyond the call of duty. And 
in so doing, they did more than defend America. In the face of 
painful prejudice, they helped define America at its best.''
    In Bataan, soldier Lieutenant Henry G. Lee wrote this poem 
after he watched a haggard group of Filipino Commonwealth Army 
troops.
    Obsolete rifle without a sling and a bolo tied with a piece 
of string. Coconut hat and canvas shoes and shoddy, dust white, 
denim blues. These are the men who fought and fled and fought 
again and left their dead, who fought and died as the white man 
planned and never quite learn to understand. Poorly officered, 
underfed, often driven but never led. Lied to and cheated and 
sent to die for a foreign flag in their native sky.
    Lieutenant Lee survived Bataan and even the POW camp, but 
was ironically killed by American bombs dropped on the ship 
transporting him to Japan. Owed a moral obligation. Served well 
though ill-treated, subjected to painful prejudice, lied to and 
cheated, and sent to die for a foreign flag in their native 
sky. Yet, they remained steadfastly loyal.
    Ladies and gentlemen of this Committee, isn't it high time 
the Filipino soldiers who fought for America in World War II be 
invited if only for their loyalty. I know it will probably be a 
question of money again.
    Former Congressman Stump, who headed this Committee during 
his time in Congress, once asked, and where do you suggest we 
get the money to pay the Filipino veterans. My answer to that 
is from the same source that funds the Iraq War.
    The Iraqis have not done anything to defend America. In 
fact, most of them hate us and even as we speak are trying 
their best to kill American soldiers. On the other hand, the 
Filipino veterans fought for America and their shabby treatment 
notwithstanding have remained loyal and ever ready to stand by 
America.
    How loyal were the Filipino soldiers to America? Ask 
General Ramsey. The living testimony to their loyalty. If he 
had been in another country in World War II, they would have 
sent him over to the enemy or, worse, kill him and collect the 
prize money on his head. Yet, today, General Ramsey is here 
with us because the Filipinos remained loyal to the United 
States.
    Thank you, Mr. Chairman and Members of this Committee. That 
concludes my testimony today.
    [The statement of Col. Monteyro appears on p. 48.]
    The Chairman. Thank you both for moving and educating us.
    Mr. Hare, any questions, comment?
    Mr. Hare. Well, I just want to again thank you for your 
testimony. And let me just again reiterate, and I hate to sound 
like a broken record, but you are absolutely right. We are 
spending money as we speak and, yet, we cannot seem to find the 
money. We will find it. We are going to work very hard to find 
it. It is not just the right thing to do. It is more than that. 
It is a moral obligation, I believe. And this Chairman, I 
think, does not get the credit that he deserves for continuing 
to push this issue. It would be easy to forget because a lot of 
people have, but we will not forget. This is a new Congress. 
This is a new Chair, a new Committee.
    And, you know, I will do everything I can, Mr. Chairman, 
and talk to as many of my colleagues as I can. We have 41 new 
Members on our side. And when I leave this hearing today, I am 
going to bring this topic up at our caucus. It is high time 
that we do something, and I can assure you 61 years, hopefully 
we will not have to wait 61 more days.
    And with that, I yield back.
    The Chairman. Again, thank you, Mr. Hare.
    Mr. Boozman, anything further?
    Mr. Boozman. I really do not have any questions.
    I appreciate your testimony. It was very helpful. And I 
appreciate your service to our country. And I need to visit 
with you after this is over and you tell me what you have been 
doing all these years to stay in such good health. And so thank 
you very much for being here.
    Colonel Ramsey. You are quite welcome.
    The Chairman. We thank both of you. You have both come a 
long way and both have spent a lot of time over many years 
fighting for this. You have educated a lot of us. You continue 
to do so, and we will not let you down. So thank you very much. 
Thank you, both of you.
    Panel four is made up of representatives from various 
organizations that have been working on this issue, and we 
welcome you. Many of you also have come a long way, and we 
thank you.
    Lourdes Santos Tancinco is the Co-Chair of the National 
Network for Veterans Equity and Chair of the San Francisco 
Veterans Equity Center. Thank you for joining us, Ms. Tancinco, 
and your testimony is next.

         STATEMENTS OF LOURDES SANTOS TANCINCO, ESQ., 
CO-CHAIR, NATIONAL NETWORK FOR VETERANS EQUITY, AND CHAIR, SAN 
               FRANCISCO VETERANS EQUITY CENTER; 
    FRANCO ARCEBAL, VICE PRESIDENT FOR MEMBERSHIP, AMERICAN 
 COALITION FOR FILIPINO VETERANS, INC.; SUSAN ESPIRITU DILKES, 
EXECUTIVE DIRECTOR, FILIPINO AMERICAN SERVICE GROUP, INC., AND 
  MEMBER, NATIONAL ALLIANCE FOR FILIPINO EQUITY; AND ALMA Q. 
KERNS, NATIONAL CHAIR, NATIONAL FEDERATION OF FILIPINO AMERICAN 
                          ASSOCIATIONS

              STATEMENT OF LOURDES SANTOS TANCINCO

    Ms. Tancinco. Thank you.
    Mr. Chairman and distinguished Members of this Committee, 
my name is Lourdes Santos Tancinco. I speak on behalf of the 
National Network for Veterans Equity and the San Francisco 
Veterans Equity Center.
    The Veterans Equity Center is one of the pioneer agencies 
providing services to Filipino World War II veterans. As of 
today, we have served more than 1,000 veterans in the Bay area.
    The National Network for Veterans Equity is a loose 
coalition of different national and local organizations 
advocating justice and equity for our Filipino veterans.
    Gentlemen of this Committee, as advocates, our mission is a 
consistent commitment to attain full recognition and 
restoration of equal benefits to all our veterans.
    We face different challenges in pursuit of full equity, but 
we shall never give up. Time is a critical element for the 
passage of this bill. It is public knowledge that this greatest 
generation is diminishing at an accelerated rate. There is a 
small percentage of surviving veterans still waiting for 
receipt of their well-deserved benefits.
    A decade ago, as an immigration law attorney, I led the 
establishment of a legal clinic and was afforded an opportunity 
to meet face to face our veterans. Through the years, we have 
seen thousands of veterans, have heard their stories, and they 
always want to see full equity passed into law.
    For us and for these veterans, it is a matter of honor and 
dignity that they be granted recognition for their services and 
be treated equally as U.S. veterans. Most of those who passed 
away had a dying wish unfulfilled, questioning why they were 
treated inequitably. It is very disheartening, but there is 
still time for the few survivors.
    On our part, we are engaging an extensive public education 
campaign about the bill ensuring that there is an accurate 
presentation of the peculiar history and relationship between 
the U.S. and the Philippines during World War II. This campaign 
resulted in increased awareness and gathered support from 
various individuals, organizations, state and local governments 
in support of the equity bill.
    One of the major challenges we are forced to face is the 
issue of cost. The rate that these veterans die is faster than 
projected. Veterans Equity Center is witnessing a faster rate 
of dying veterans than as reported in the 2000 VA study. Hence, 
if there is indeed a cost, it is a diminishing cost.
    The majority of the veterans also residing in the U.S. are 
SSA recipients. Hence, there will be transfer of budget from 
SSA from this agency to the VA should the equity bill be 
passed. If indeed cost is an issue, then answer our two 
questions. When is the cost of freedom ever free? How can the 
United States ever have a short memory of the sacrifices of our 
veterans?
    Benefit improvement bills that enhance certain benefits for 
certain veterans are not responsive to this issue. Creating 
disparity for those who fought equally and those who risked 
their lives together is a greater injustice to those who are 
excluded. We are only for full equity, nothing more, nothing 
less.
    The plight of the Filipino veterans is no longer a Filipino 
issue of injustice, but an American issue of injustice that has 
been clamoring for final resolution. For us who believe in the 
cost of freedom and democracy, for us who believe in fairness 
to those that fought for us, we are challenged to do what is 
right and advocate for what our veterans deserve.
    We take on the fight for them. Our generation believes in 
our Democratic idealism and have faith that this country shall 
not ignore the sacrifices, courage, blood and tears of our 
veterans. There is no better time to correct this historical 
error than now. War veterans should be treated right. They 
deserve no less than equity.
    Mr. Magdaleno Duenos, who died at the age of 91, staved 
then U.S. soldiers from captivity and waited all his life for 
full recognition which he never received. Instead, he lived a 
life of poverty in San Francisco, a standard of living not 
fitting for a war hero, but he never lost hope until his last 
breath waiting for the equity bill to pass.
    Major Demetrio Carino, a World War II veteran, passed at 
the age of 91. Major Carino demonstrated heroism during the 
war. He inspired all of us by his undying commitment to seek 
justice for his colleagues.
    During his last years, he was battling no longer with arms, 
but with his pen writing each and every Member of Congress to 
support passage of this bill. Like thousands of his colleagues, 
Major Carino ran out of time. He died fighting for justice.
    We thank representatives Mike Honda, Bob Filner, and 
Speaker Pelosi for their untiring support to this bill, and we 
strongly urge this Committee to do the same.
    I thank you for the opportunity to speak.
    [The prepared statement of Mr. Tancinco appears on p. 49]
    The Chairman. Thank you.
    Next we will hear from a Filipino World War II veteran, Mr. 
Franco Arcebal, who represents the American Coalition for 
Filipino Veterans.

                  STATEMENT OF FRANCO ARCEBAL

    Mr. Arcebal. Honorable Chairman and Members of the House 
Committee on Veterans' Affairs, good morning, and Happy 
Valentine's Day.
    Thank you for including me in this panel today. My name is 
Franco Arcebal, a Filipino World War II veteran, and the Vice 
President of Membership of the American Coalition for Filipino 
Veterans, Incorporated.
    Our nonprofit, nonpartisan advocacy organization has more 
than 4,000 individual members in the United States. I am now 83 
years old and a retired sales executive. I reside in Los 
Angeles.
    Thank you for holding this early hearing on the equity 
bill, House Resolution 760 for Filipino World War II veterans. 
Never in the history of our long quest for recognition has this 
hearing been scheduled within 2 weeks after it was introduced. 
We owe this to the Honorable Bob Filner, our undaunted and 
tireless champion.
    May we have an applause for him.
    [Applause.]
    The Chairman. You are all out of order.
    [Laughter.]
    Mr. Arcebal. With twelve of my comrades for this 
allegiance, when we chained ourselves in front of the White 
House in July 1997--that is almost 10 years ago--sadly, we were 
unable to convince the Clinton Administration to support our 
bill.
    I am honored to present the appeal of my comrades today. 
Like all of us, we have personal stories to tell about the war, 
and I want to give you a brief one.
    During the second World War, I was a guerrilla intelligence 
officer. I was caught and severely tortured by the Japanese 
soldier as a spy. I was sentenced by decapitation. Lucky for 
me, during the rainstorm at night, I was able to escape and 
fought again in the liberation of the Philippines against 
General Lee Amashita for seven continuous months in north Luzon 
until he surrendered in September 1945.
    In 1997, I became a new U.S. permanent resident. At that 
time, I had a painful dental problem. I sought treatment at the 
Los Angeles VA clinic. I was terribly shocked when I was told 
my service in the U.S. Army forces was by law deemed not active 
service for the purposes of VA benefits.
    I concluded that the United States whom I served loyally 
and risked my life did me injustice. I felt discriminated 
against. The denial of my benefit was a result of the 
``Rescission Act'' of February 18, 1946, 60 years today this 
month. This law was enacted over the objection of President 
Truman. Before this law, Filipino veterans were recognized as 
American veterans and entitled to all benefits.
    And today I expect many credible witnesses to present 
testimonies in favor of our bill. And I join this Colonel 
because it is my duty to speak on behalf of my comrades who are 
now elderly, disabled, and poor.
    Over the past decades, our coalition mission was to restore 
full U.S. Government recognition and win equitable VA benefits. 
We believe that by passing the ``Filipino Equity Act'' or the 
realistic bill of our sponsors, we can finally overcome the 
discriminatory effects of the ``Rescission Act.''
    We estimate that about 4,000 Filipino veterans in the 
United States and about 10,000 in the Philippines may benefit 
if this bill is approved.
    Mr. Chairman, there are three requests I would like to make 
today from this Committee. First, pass an authorizing language 
of the equity bill, House Resolution 760, with a strong 
bipartisan support from this Committee.
    Second, obtain an estimated budget of no less than $18 
million from the Appropriations Committee with the support of 
President Bush and the support of our VA Secretary Nicholson 
that would provide an equitable VA benefit monthly in the 
amount of $200 per month for us low-income veterans.
    Third, and this is very crucial to us, create a task force 
of representatives of the House Veterans' Affairs Committee, 
representative of the Secretary of the Veterans' 
Administration, a representative of the Philippine government, 
Philippine Embassy, and the leaders of key groups.
    This task force should determine within 45 days the 
accurate number of living World War II Filipino veterans in the 
United States and in the Philippines, assess their economic and 
health needs, actual needs, and recommend a realistic budget. 
We must solve this national travesty now.
    Let me close by quoting President Truman on February 20, 
1946, when he objected to the ``Rescission Act.'' And he said, 
I quote, ``I consider it a moral obligation of the United 
States to look after the welfare of the Filipino veterans.''
    Thank you. I will answer some replies if you have some for 
me.
    [The prepared statement of Mr. Arcebal appears on p. 51.]
    The Chairman. Thank you very much.
    Susan Dilkes from the Filipino-American Service Group.

               STATEMENT OF SUSAN ESPIRITU DILKES

    Ms. Dilkes. Good morning. First of all, I would like to 
thank Congressman Bob Filner, the Members of the Committee, and 
Congressman Bob Filner's staff for giving me an opportunity to 
testify on behalf of the Filipino-American World War II 
veterans.
    My name is Susan Dilkes. I am a daughter of a Filipino 
World War II veteran, a member of the Steering Committee of the 
National Alliance of Filipino Veterans Equity, and a founding 
member of the American Coalition of Filipino Veterans.
    I am also the Executive Director of Filipino-American 
Service Group, FASGI, a community-based social service agency 
in Los Angeles County, which was started in October of 1981 
when a homeless Filipino World War II veteran was found 
sleeping in the garage of our founding member, Remedios Geaga.
    Since then, FASGI has assisted thousands of Filipino-
American World War II veterans with temporary shelter, health 
and mental health issues, food distribution and others. FASGI 
operates a transitional housing shelter for independent living 
for more than 400 World War II veterans.
    In 1996, with the help of Filipino World War II veteran 
volunteers, FASGI launched FILVOTE, the Filipino-American 
Voters Mobilization, and has registered more than 13,000 
Filipino-American voters in Los Angeles County.
    Last year, 2006, FASGI obtained a grant from the State of 
California, Department of Community Services and developed a 
service block grant to outreach Filipino-American veterans who 
are still alive and living in the Los Angeles area.
    The goal of the outreach is to reduce the risk of poor 
health resulting from inadequate housing and to refer homeless 
Filipino World War II veterans to our shelter, to our Healthy 
Active Lifestyle Program, and to assist and to advocate for the 
Filipino World War II veterans for the benefits that were 
promised to them by the government of the United States in 1942 
by President Delano Roosevelt.
    For the past twelve months, FASGI has worked at this 
outreach program, but has referred only six Filipino-American 
veterans to our transitional shelter because there are few of 
them left.
    These men are now in their eighties and many are in very 
poor health. If Congress doesn't act soon, there will be no one 
left. This is your last chance to correct a wrong which is now 
more than a half century old. I believe you are men and women 
of good intention and now it is time for those intentions to be 
converted into law.
    Indeed there are benefits beyond those that are visible on 
the face of this legislation. First, the passing of House 
Resolution 760 granting full equity benefits for the Filipino-
American World War II veterans provides the United States with 
an opportunity to rescue its reputation as a fair, honest and 
reputable country that honors its commitment by helping the 
remaining 5,000 to 7,000 Filipino-American World War II 
veterans currently living in the United States. Our country can 
take a long step toward rescuing its honor.
    Second, passing House Resolution 760 improves the foreign 
relation between the Philippines and the United States. It 
reduces the political irritation of unfulfilled commitment for 
13,000 Filipino-American World War II veterans who are living 
in the Philippines.
    And to the extent payments are made, it will improve the 
flow of cash to the Philippines, a poor country, in dire needs 
of foreign support and liquidity.
    Earlier someone asked a question how much this bill will 
cost. It does not occur to me to think about the cost. I have a 
son who called me and he said to me, ``Mom, I am here in 
Afghanistan.'' For Mother's Day, he called me and said, ``Happy 
Mother's Day Mom, I love you. I am here in Iraq.'' And it never 
occurred to me that you would ask this question, ``How much 
will it cost?'' I said, ``Son, I am proud of you. Fight for the 
United States. I love you.'' I did not ask the cost of the life 
of my son to defend our country and neither should you.
    Thank you.
    [The prepared statement of Ms. Dilkes appears on p. 54.]
    The Chairman. Thank you and we wish your family the best.
    Alma Kerns, who is the National Chair of the National 
Federation of Filipino-American Associations.

                    STATEMENT OF ALMA KERNS

    Ms. Kerns. Good morning. I thank you, Congressman Filner, 
and all the Members of the House Veterans' Affairs Committee 
for holding this historic hearing on the ``Filipino Veterans 
Act'' of 2007.
    My name is Alma Kerns from Seattle, Washington, and I am 
Chair of the National Federation of Filipino-American 
Associations, better known by its acronym, NAFFAA.
    I am deeply honored to speak on behalf of the National 
Federation of Filipino-American Associations and the National 
Alliance for Filipino Veterans Equity, which represent many 
veterans' advocates, service providers, community activists, 
and national Filipino-American organizations.
    Founded ten years ago, NAFFAA aims to empower the nearly 
three million Filipinos in America to become active 
participants and leaders in all aspects of U.S. society.
    The Filipino population is among the fastest growing ethnic 
groups in the country today with one of the highest 
naturalization rates and a 76 percent voter turnout nationwide.
    We have significant concentrations of Filipino-Americans in 
almost every congressional district throughout the nation. I do 
not exaggerate when I say that there is a Filipino in every 
town and city in the United States today, each one making a 
meaningful contribution to the political, cultural, commercial, 
and social life of this country.
    I am here before you today primarily as the daughter of a 
World War II veteran. My father and four uncles survived the 
brutalities of the war, the Bataan Death March, the 
concentration camp, and life-threatening diseases like malaria, 
typhoid, and dysentery. They have now passed on, but their 
bravery and their pride as soldiers have not been forgotten by 
us, their children and grandchildren.
    I owe it to them and all their comrades, the valiant 
Filipinos who risked their lives for the sake of freedom and 
democracy, to speak before you today and appeal to you, our 
honorable legislators, to correct a tragic error of omission 
and give the Filipino veterans the dignity and recognition they 
deserve.
    The second reason I am here today is due to a pledge I made 
as NAFFAA's National Chair to continue to fight for the passage 
of the veteran equity bill. It was our rallying cry when more 
than 2,000 community leaders and veterans gathered in 
Washington, D.C. in the summer of 1997. It is indeed time for 
America to honor its promise to our ailing and aging veterans. 
They only have a few more years to live.
    Over the years, NAFFAA has worked closely with Filipino 
veterans' groups, civil rights organizations, and community 
advocate groups to press Congress to rectify a grievous error 
in judgment, a betrayal that was shamefully enacted by the 1946 
``Rescission Act.'' It has been 61 years, but Congress to this 
day has yet to act and do the right thing.
    These are the sentiments of the millions of Filipino-
Americans who believe that this is an American justice issue, 
that this is a matter of honor and dignity not just for 
Filipinos but for all Americans.
    In Seattle where I live, it pains me to see our aging 
veterans living in substandard conditions, suffering in 
loneliness, separated from their children and grandchildren, 
waiting patiently for the equity bill to pass so they can go 
home.
    For example, Benito Valdez, 83 years old, and Julian 
Nicolas, 85 years old, two of the last three remaining 
Filipinos who helped in the Great Raid that rescued 600 
American and Canadian prisoners of war from the Cabanatuan 
Garrison Camp, live in my beloved State of Washington. These 
two gallant warriors, silent in their anguish and 
disappointment, cannot understand why the U.S. Congress is 
taking so long to fulfill its broken promise.
    Together with members of the National Alliance for Filipino 
Veterans Equity formed solely to secure the passage of the 
equity bill, I am urging you, our legislators, to search deep 
into your hearts and conscience and once and for all give 
justice to our veterans who have remained loyal to this country 
and whose love for freedom and democracy will never fade.
    NAFFAA and its partners in the National Alliance will not 
give up this fight to restore our veterans' rightful status as 
American veterans. We want to assure our children and 
grandchildren that our generation has remained steadfast and 
strong in our resolve to see that justice is done.
    We will never be at peace with ourselves if we do not tell 
the story of a broken promise. We will do it because we believe 
that this great country called America is still the fountain of 
fairness and justice and a beacon of hope for all mankind. The 
time is here now to show the whole world that this country does 
not forget the courage and bravery of those who fought for its 
freedom.
    To the esteemed Members of the Veterans' Affairs Committee, 
we implore you to act honorably on our message, that the 
Filipino World War II veterans have been treated unfairly by 
the United States during the past 61 years.
    We also urge the American people to stand with us and 
support our veterans' cause as this is an issue that cries out 
for American justice and a matter of honor not just for our 
generation but for generations to come.
    I now appeal to you, our national legislators, to pass the 
Filipino veterans equity bill without delay. Thank you very 
much.
    The Chairman. Thank you all for your very eloquent 
testimony. I think the comment is right that this is our last 
chance, and we thank you for making that so clear to us.
    Ms. Kerns. Thank you.
    [The prepared statement of Ms. Kerns appears on p. 55.]
    The Chairman. Ms. Brown-Waite, do you have any comments, 
questions?
    Mrs. Brown-Waite. No questions. I certainly want to thank 
the witnesses also. I apologize. I was not here earlier. I have 
three Committee meetings going on simultaneously.
    I have a large number of Filipino-Americans living in my 
district. Many of them have such a zest for life, people who 
served in the 1950s in the Korean war all the way down to those 
who served in the Vietnam War.
    I just want to tell you that very often I say to them I 
want to know what they drink because they nowhere near look 
their age and they have such a love of life, and they truly are 
a segment of the military that we could not have done without.
    And the pension bill obviously is one that has been around 
and one that I know Mr. Filner feels very, very passionately 
about as do many Members of the Committee.
    And I thank you all for being here.
    The Chairman. Thank you.
    We do have a final panel, representatives from the American 
Legion and the Vietnam Veterans of America. If they will come 
forward.
    Alec Petkoff, who represents the Veterans Affairs 
Rehabilitation Commission of the American Legion, thank you for 
joining us today.

        STATEMENTS OF ALEC PETKOFF, ASSISTANT DIRECTOR, 
        VETERANS AFFAIRS AND REHABILITATION COMMISSION, 
AMERICAN LEGION; AND RICHARD F. WEIDMAN, EXECUTIVE DIRECTOR FOR 
   POLICY AND GOVERNMENT AFFAIRS, VIETNAM VETERANS OF AMERICA

                   STATEMENT OF ALEC PETKOFF

    Mr. Petkoff. Thank you, Mr. Chairman.
    Mr. Chairman, Members of the Committee, I would like to 
submit my written testimony for the record.
    The Chairman. It will be entered. Thanks.
    Mr. Petkoff. And I would certainly like to thank you for 
the opportunity to testify before you on rectifying the 
injustice that Filipino veterans are currently enduring.
    The American Legion applauds the Chairman's leadership in 
addressing this issue by introducing House Resolution 760, the 
``Filipino Veterans Equity Act'' of 2007.
    I would like to also recognize those legionnaires who are 
here today supporting this important legislation.
    The American Legion by adoption of a national resolution to 
support legislation to grant Filipino World War II veterans 
equal VA benefits supports full recognition and benefits to 
Filipino veterans who were part of the defense of the 
Philippine Islands during World War II.
    While Filipino veterans have recently been somewhat 
successful in incrementally increasing benefits to parity with 
other U.S. veterans, it is time to finally undo the wrong 
resulting from the enactment of the ``Rescission Acts,'' which 
legally revoked their status as U.S. veterans and subsequently 
denied them the benefits they earned through their service.
    The passing of House Resolution 760 will finally give these 
brave veterans, wherever they may live, the full VA benefits 
they have earned.
    With each passing day, the number of these heroes grows 
smaller. The American Legion urges Congress to quickly pass 
House Resolution 760 and end the shameful policy that Filipino 
veterans and their dependents have had to endure for the last 
60 years.
    Mr. Chairman, Members of the Committee, I appreciate the 
opportunity to present the American Legion's view on this bill 
and to be a voice in support of completely rectifying this 
national shame.
    I welcome any questions you might have.
    [The prepared statement of Mr. Petkoff appears on p. 56.]
    The Chairman. Thank you for your strong support.
    Mr. Weidman from the Vietnam Veterans of America.

                STATEMENT OF RICHARD F. WEIDMAN

    Mr. Weidman. Mr. Chairman, thank you for the opportunity 
for Vietnam Veterans of America to present our views here today 
and ask that our written statement be submitted into the 
record.
    As you know, Vietnam veterans know more than a little bit 
about being treated as second-class citizens when we came home. 
It is not an accident that the founding principle of Vietnam 
Veterans of America is never again shall one generation of 
American veterans abandon another generation of American 
veterans.
    That includes our fathers' generation as well as our sons 
and daughters and nieces and nephews serving today in the 
Persian Gulf and elsewhere in the world in the Global War on 
Terrorism.
    So for that reason, Vietnam Veterans of America supports 
House Resolution 760 and equity. Redress for those who have 
already passed on will never happen, and it is truly a case of 
justice delayed is justice denied. But for the complete equity 
of those who, no matter where they live, to draw the same 
benefits as any other World War II veteran is something that we 
are deeply committed to.
    And whether that be through the vehicle of House Resolution 
760 or another vehicle, we think it is long overdue that the 
Congress take the steps in order to bring these fine 
individuals, who fought for America's freedom when we were 
truly indeed threatened, up to parity with every single other 
one.
    Some people will not say it flat out. We will say it flat 
out. The ``Rescission Act'' of 1946 was a racist move on the 
part of some people in the Congress. And, unfortunately, it 
prevailed.
    As you will recall the history of the GI Bill in 1944, 
there were some in the House of Representatives who were 
fighting that bill because they did not want any benefits to go 
to persons of color. And the key Committee vote prevailed by 
one vote only thanks to Eddie Rickenbacher, the World War I 
ace, flying a particular Congressman in that gave them a 
majority. If you look at the record, it is unanimous, but it 
was not unanimous.
    So that scar, if you will, on our Nation's history having 
to do with men and women and in this case men and Filipinos who 
fought bravely alongside American GIs needs to be rectified and 
rectified now.
    Thank you very much, Mr. Chairman, for allowing Vietnam 
Veterans of America to offer our views this morning.
    [The prepared statement of Mr. Weidman appears on p. 56.]
    The Chairman. Thank you. I think your two statements on 
behalf of justice show that the Filipino-Americans are not 
alone, that you bring with your organizations and others that 
support this the comradeship and the support of veterans all 
across our Nation. And I think it is very significant. The 
people in the audience who heard your statements are very much 
moved by that, and we certainly appreciate that.
    Ms. Brown-Waite, any----
    Mrs. Brown-Waite. Just a question for both members of the 
panel. How would you define pension equity for those World War 
II veterans still living in the Philippines?
    Mr. Petkoff. As far as the question of pension equity and 
describing it, the American Legion believes that these veterans 
are U.S. veterans and deserve the full benefits that any U.S. 
veteran should get and does get.
    As far as comparing what they would get if they were living 
in the Philippines or here is not the issue to use. The issue 
is that they are veterans and should be equally treated as 
such.
    Mr. Weidman. I think the point, Ms. Brown-Waite, if I may 
suggest it, that you were driving at is the cost of living in 
the Philippines is so much less than the cost of living in 
America.
    I would point out that the cost of living State to State in 
America varies dramatically. What is costs to live north of 
Cordilane is less than half, much less than half of what it 
costs to live in your district in Florida, ma'am. And so there 
already is a variance.
    I can tell you that I know Vietnam veterans who reside in 
Belize and Guatemala and Mexico and in Vietnam and other places 
because it will stretch their compensation and they are able to 
live a more decent life. We do not recommend that.
    But as long as there is not an adjustment in compensation 
or service-connected or in pension, based on the cost of living 
where one lives, we think it should be across the board. And 
equity in this case would mean parity, ma'am.
    Mrs. Brown-Waite. I would challenge the gentleman to come 
down to my district and listen to people complain about the 
very high cost of insurance, property and casualty insurance, 
and taxes. Unfortunately, Florida is no longer an inexpensive 
place to live.
    The Chairman. Again, as Mr. Weidman pointed out, there is 
no difference in cost of living anywhere that we apply, and we 
do not change things when people move from place to place. So 
it probably would be more of a waste of money to do that than 
just go by the book.
    We thank all of you who are here today. Many of you have 
come a long way. I think it is very important that you did 
come. The record will be clear about what you said and the 
impact that you have made.
    We intend to have a markup of this within several weeks. We 
will let you all know about that, and we will deal with these 
issues of cost and equity at that time.
    Thank you so much, everybody, for educating us today. This 
hearing is adjourned.
    [Applause.]
    [Whereupon, at 12:13 p.m., the Committee was adjourned.]



                            A P P E N D I X

                              ----------                              

                 Prepared Statement of Hon. Bob Filner
             Chairman, Full Committee on Veterans' Affairs
    Good Morning--Magandang umaga. Thank you all for coming. As you 
already know, I am very happy to be able to hold this hearing today. 
Ever since first being elected to Congress in 1992, I have been heavily 
involved in the Filipino veterans' equity issue. In fact, this year 
marks the 10-year anniversary of my protest, along with Filipino 
veterans, in front of the White House demanding equitable treatment. I 
am hoping that with the change of leadership here in Congress, we can 
get past the demonstrations and protest marches and get on the 
legislative path to correct the injustice inflicted on Filipino 
veterans over 60 years ago.
    As most know, Filipino service members played a critical role in 
the United States' victory in the Pacific during World War II. The 
brave Filipino soldiers, drafted into our Armed Forces by President 
Franklin D. Roosevelt, exhibited great courage in the epic battles of 
Bataan and Corregidor. In addition, these soldiers, while putting 
themselves and their families at risk, participated in many guerilla 
actions in the Philippines, which prevented enemy forces from leaving 
and prosecuting the war in other areas. Despite the gallant efforts of 
Filipino veterans during the war, Congress, in 1946, denied these 
veterans their benefits with the passage of the Rescission Acts.
    Particularly unfortunate was the language of the Rescission Acts 
which said that service in the Philippine forces was not to be 
considered active military service for the purposes of veterans' 
benefits. This language took away not only rightfully earned benefits, 
but also the honor and respect due these veterans who served under the 
direct command of General Douglas MacArthur. The Rescission Acts 
shocked the thousands of Filipinos who fought side-by-side with 
Americans and suffered brutality during the Bataan Death March and as 
prisoners of war.
    When President Harry S. Truman signed the Rescission Acts, which 
included various other appropriations matters, he stated that a great 
injustice was being done.

          ``Filipino Army veterans are nationals of the United States. 
        . . . They fought with gallantry and courage under the most 
        difficult conditions during the recent conflict. Their officers 
        were commissioned by us. Their official organization, the Army 
        of the Philippine Commonwealth, was taken into the Armed Forces 
        of the United States by Executive Order of President Roosevelt. 
        That order has never been revoked or amended. I consider it a 
        moral obligation of the United States to look after the welfare 
        of the Filipino Army veteran.''

    That was President Truman in 1946. That moral obligation remains wit
h us today.
    For more than sixty years, a wrong has existed that must be 
righted. I urge everyone here to think of morality, of dignity, of 
honor. There is scarcely a Filipino family today, in either the United 
States or in the Philippines, that does not include a World War II 
veteran or a son or daughter of a veteran. Sixty years of injustice 
burns in the hearts of these veterans. Now in their 80s and 90s, their 
last wish is the restoration of the honor and dignity due them.
    It is time that our nation adequately recognizes their 
contributions to the successful outcome of World War II, recognize the 
injustice visited upon them, and act to correct this injustice. To 
those who ask if we can afford to redeem this debt, I answer: ``We 
can't afford not to.'' The historical record remains blotted until we 
recognize these veterans.
    Also, I would like to point out that providing veterans' benefits 
to non-citizen soldiers is not without precedent. Previously, in 1976, 
Congress provided veterans' benefits to citizens of both Poland and 
Czechoslovakia.
    Finally, I look forward to hearing the testimony of those who 
served during World War II. In addition, I am interested in learning 
more about the efforts of organizations and individuals across the 
country to educate the public about the injustice done to Filipino 
veterans.
                Prepared Statement of Hon. Cliff Stearns
    Good Morning.
    I want to welcome all of the witnesses and thank them for their 
testimony. I also thank you, Mr. Chairman, for holding this important 
hearing.
    We are here today to discuss the question of equity; specifically 
what is equitable for Filipino veterans who fought alongside our forces 
to defeat the Empire of Japan in World War II and free their country. 
In this discussion, I am here to listen to all sides of the issue.
    I do appreciate and understand the valor and courage of Filipinos 
in combat sixty years ago. House Resolution 622, which passed last 
session, recognized and honored these veterans for their defense of 
democratic ideals and their important contribution to the outcome of 
World War II.
    There have been claims that Filipino veterans were promised full 
benefits by General Douglas MacArthur. While there are no records 
supporting such claims, and the general would not have been empowered 
by U.S. law to make such promises, we do know that Filipino men, many 
in their teen years, fought and died for freedom.
    For the benefit of us all in this discussion, at a Veterans' 
Committee hearing on this issued in 1998, now-retired Congressional 
Research Analyst Dennis Snook said, ``Many Filipino soldiers apparently 
believe that their service was a basis for becoming entitled to 
whatever benefits might be given to U.S. military personnel.''
    He said further, ``In part, this belief could have been based on 
ill-advised promises made by U.S officers. No U.S. official was 
authorized to make such promises, and no evidence has been uncovered 
which suggests that such promises were made whether or not such 
authority existed to make them.''
    Dr. Clayton Laurie, a historian with the U.S. Army's Center for 
Military History, said essentially the same thing in that hearing.
    So there is something less than full clarity on what the U.S. 
intended in those days. We know that President Truman supported 
benefits. We also know that since then, Americans have supported 
additional benefits in recognition of the valor and contributions of 
Filipino warriors.
    With that, I am open to ideas and discussion that would help 
identify what is equitable--for all veterans, those here in the U.S., 
those abroad, and the American taxpayers who will pay for our solution.
    I look forward to hearing today's testimony.
    Again, I want to once again thank our witnesses who have traveled 
far to testify on this important issue.
    Mr. Chairman, I yield back my time.

                                 <F-dash>
                Prepared Statement of Hon. John Boozman
    Mr. Chairman, I would note that in the past you have stated that 
your district has more Filipino veterans than any other district in the 
nation. So, I understand why this is an important issue to you.
    For those of us who do not have a large Filipino population, the 
issue of equity is less of a political issue than a larger moral one. I 
am sure that every Member here recognizes the noble service rendered by 
Filipino veterans to both the United States and their about-to-be 
independent nation of the Philippines.
    I assume that sometime in the near future, you will bring H.R. 760 
before the Committee and at that point, all of the Members will be 
presented with the larger equity issue of where to spend our scarce 
paygo funds among the myriad of needed program improvements.
    I yield back my time.

                                 <F-dash>
                Prepared Statement of Hon. Doug Lamborn
    Good Morning.
    Growing up, I read of the brave struggles that occurred in the 
early weeks of the war in the Pacific. Outnumbered American troops 
fought side-by-side with Filipino patriots in arms; many of them 
suffered years of captivity under the most brutal of conditions.
    Then and throughout World War II, Filipinos earned our respect and 
admiration in a heroic effort that helped the allies secure that 
hemisphere from the darkness of imperialism.
    Over the past six decades, beginning with U.S. aid to the newly 
independent Republic of the Philippines, our nation has demonstrated a 
steady resolve to treat Filipino veterans with equity.
    I am honored to be here today to continue the discussion of equity 
in the treatment of these brave veterans, and I look forward to hearing 
from our distinguished panelists.
    Mr. Chairman, I yield back my time.

                                 <F-dash>
                 Prepared Statement of Hon. Steve Buyer
     Ranking Republican Member, Full Committee on Veterans' Affairs
    Mr. Chairman as I have written you, I am absent from today's 
hearing to attend the funeral of Rep. Charlie Norwood. Congressman 
Norwood was a colleague, veteran friend, and a statesman dedicated to 
the Americans he served.
    I thank the witnesses here today for their testimony, and those 
who, under arms, served the American and Philippine people in World War 
II, I especially thank you for your service.
    I submit for the record an opinion piece that was published in The 
Washington Post on January 28, 1998. The article, entitled ``Filipino 
Vets and Fairness'' was written by the former Chairman of the Committee 
on Veterans' Affairs, Congressman Bob Stump.
    I associate myself with his remarks and I look forward to a 
continuation in the equity with which we have provided Filipino 
veterans of World War II with VA healthcare and benefits.

                               __________

                                                The Washington Post
                                                   January 28, 1998
                                                       By Bob Stump
                       Filipino Vets and Fairness
    Much has been made recently of the renewed demands by Filipino 
veterans of World War II for an increase in payments of U.S. veterans' 
benefits [``Under the American Flag,'' editorial, Dec. 13]. As a World 
War II Navy veteran of the Pacific theater and of the liberation of the 
Philippines, I respect the service rendered by Filipino veterans. But 
it is important to view current policy in its historical context. While 
Filipino forces certainly aided the U.S. war effort, in the end they 
fought for their own, soon-to-be independent Philippine nation. I do 
not believe that simply serving under U.S. command meets the test of 
swearing allegiance to the Constitution of the United States.
    Fairness is a concept often mentioned when discussing veterans' 
benefits for Filipinos. Fairness is certainly important. That is why I 
am disappointed that Filipino veterans look to the United States for 
increased benefits, since it was Philippine soil on which the U.S. and 
Philippine armies fought the Japanese. I strongly believe the 
government of the Philippines bears responsibility for its veterans. 
Yet the benefits provided by the United States far exceed those 
provided by the Philippines. I believe that is one measure of fairness. 
Should U.S. veterans ask for benefits from the Philippines or any other 
country they liberated in World War II?
    News accounts about promises of full U.S. veterans benefits being 
made to Filipino veterans during World War II appear to be 
unsubstantiated, despite our best-faith efforts to find such 
documentation. Using the experts at the Congressional Research Service, 
our investigations have determined five important points. First, the 
records of President Franklin Roosevelt, Gen. Douglas MacArthur and the 
War Department clearly show no intent to offer Filipinos full U.S. 
benefits. Second, most Filipinos who were under the command of the U.S. 
Armed Forces were considered members of the Philippine Army. Third, the 
original Philippine Scouts, who were part of the U.S. Army since 1900, 
are receiving full benefits. Fourth, at least two court cases have 
upheld the current benefit program. Finally, Filipinos are the only 
group of non-U.S. veterans receiving VA service-connected disability 
compensation and survivors' benefits. No other Allied nation's veterans 
receive such benefits from the United States. According to the 
Department of Veterans Affairs, in 1997, the United States paid nearly 
$50 million worldwide to Filipino veterans and their survivors. 
Additionally, the VA spent $3.2 million for contract medical care 
delivered to Filipino veterans in the Philippines.
    Two categories of Filipino veterans currently receive full U.S. 
benefits, while three categories receive benefits at the one-half rate. 
Even at the one-half rate, the compensation is generous. A 100 percent 
disabled Filipino veteran receives $962 per month--nearly 12 times the 
Philippine per capita income, while a veteran rated 20 percent disabled 
receives about $90 per month--roughly equal to their national per 
capita income. The Dependency and Indemnity Compensation (DIC) payment 
to survivors of Filipino veterans is $416 per month, or five times per 
capita income. I wish we could do that well for our own veterans. If a 
U.S. DIC recipient were to receive a payment equal to five times U.S. 
per capita income, it would be nearly $90,000 per year instead of the 
roughly $10,000 they now receive.
    We are not ignoring the concerns of the Filipino community and are 
treating it fairly. In 1997 I had the honor of meeting with several 
representatives of the Philippine American Heritage Federation, 
including retired Brig. Gen. Tagumpay Nanadiego of the Philippine 
Embassy and attorneys Joel Bander and Jon Melegrito. This was the third 
time I have met with various Filipino veterans in the last several 
months, including Antonio Ty, commander for the Philippine Department 
of the American Legion.
    It is clear to me, after meeting with Filipino veterans, that many 
do not understand the benefits for which they are now eligible. I have 
asked the VA to increase its outreach to the Filipino community in that 
regard. There also seems to be a misperception among the Filipinos that 
every American World War II veteran is receiving a VA pension. That is 
hardly the case. Of the roughly 7 million World War II veterans still 
living, only about 233,000 (3 percent) are receiving a VA nonservice-
connected disability pension. The Filipinos I met were also surprised 
to learn that I do not receive anything from the VA for my World War II 
service in the Philippines.
    These meetings with the Filipinos do not mark the end of our 
efforts. I have instructed my staff to work with the Philippine 
American Heritage Federation to arrive at a common understanding of the 
U.S. and Philippine benefit programs and their historical context.
    The United States continues to be generous to Filipino veterans, 
and I continue to believe that the basic structure of U.S. programs is 
appropriate. I believe we have been fair.
                                 ______
                                 

    The writer, a Republican representative from Arizona, is Chairman 
of the House Committee on Veterans' Affairs.

                                 <F-dash>
           Statement of Carlos D. Sorreta, Charge d'Affaires,
                       Embassy of the Philippines
    Mr. Chairman and Members of the House Veterans Committee.
    Thank you for inviting us to appear before this Committee and for 
the opportunity to speak on an issue of great importance to my 
government and to the Filipino people.
    When the war in the Pacific ended, Filipino soldiers set their 
weapons aside, buried their fallen comrades and started to collect the 
shattered remains of their lives.
    For them, with peace, had come hope.
    Little did they know that while the carnage and destruction of war 
had ended, they would be facing a new battle--one that would last for 
decades.
    This would be a fight that would once more call upon the courage, 
perseverance and sacrifice that they had unselfishly shown in the 
foxholes of Bataan and Corregidor, in the jungles of Luzon, Visayas and 
Mindanao, and in the prisons of Capas, Fort Santiago and Muntinlupa.
    This would be a battle that would once again force them to witness 
their comrades fall one by one, not by the bullets or bayonets of an 
enemy, but by the ravages of time and the pain of inequity.
    Today, few of these living symbols of the very freedoms and 
liberties that we now enjoy, remain. By the end of this month, a few 
more would have fallen.
    But they have not been alone in this battle.
    For there have been those in Congress who have stood boldly by our 
brave soldiers--those whose profound sense of history, and whose deep 
appreciation for the common values that both our countries share and 
have fought for, have made them wage their own battles in Congress for 
justice and equity.
    On behalf of my government and the Filipino people, let me express 
our thanks to the U.S. Congress for its continued support for the 
Filipino WWII veteran.
    In this battle, our veterans have also marched on side-by-side with 
many Filipino-American groups and individuals whose resolve and 
commitment have given all of us renewed strength and hope.
    Many of these groups and individuals are with us today, and we 
thank them for their invaluable and tireless work and for their 
unqualified dedication.
    Mr. Chairman, the Philippine Government and the Filipino people 
continue to maintain that the Filipino soldiers who fought and served 
under the U.S. Army during WWII, specifically during the period between 
July 1941-October 1945, are U.S. veterans under then existing U.S. laws 
and are entitled to all benefits due a U.S. veteran.
    We therefore welcome the filing and urge the passage of H.R. 760 
and its companion bill in the Senate, S. 57 into law, to restore 
veterans' benefits that were removed by P.L. 79-301.
    We make this call based on assertions that are supported by clear 
facts and historical records. I have attached to this statement a 
reiteration of our arguments and respectfully request that these be 
made part of the record.
    Mr. Chairman and Members of the Committee, the Filipino WWII 
veterans were treated unfairly by the 79<SUP>th</SUP> Congress and the 
U.S. Government in 1946.
    At a critical juncture in both our countries' history, they 
willingly responded to the urgent call of President Franklin Delano 
Roosevelt and left their families and homes for an uncertain fate.
    They fought valiantly, bravely and with uncommon courage, against 
great odds and lacking the support that they had been promised.
    Out of the 470,000 reported by the VA in 1946 less than 20,000 
remain--13,000 in the Philippines and 7,000 in the United States.
    Those who remain have very little time left. Many are sick and 
infirm.
    I ask, on behalf of a nation that has stood by yours in the name of 
freedom, liberty and democracy in World War II, in the uncertain 
decades after, and in facing today's new and grave challenges, to let 
these old soldiers finally leave the field of battle, with their 
dignity intact and with the honor that they so truly deserve.
    Thank you.
  Legal, Moral and Historical Basis for Filipino Veterans Full Equity
    We have based our arguments on the following facts verifiable from 
U.S. Congress archives:

1.  The Philippines Was Then a Colony of the U.S.--The Philippines was 
then a colony of the U.S. and the U.S. President, under the Tydings-
McDuffie Act of 1934 (also known as the Philippine Independence Act of 
1934) was vested with the authority to call the Philippine Commonwealth 
Army and other forces so organized to serve under the U.S. Army. This 
power was in fact exercised by President Franklin Roosevelt on July 26, 
1941 when U.S.-Japan war became imminent.
2.  The U.S. Assumed Command of All Forces--Shortly thereafter, General 
MacArthur, having been designated the Commander of the newly organized 
United States Army Forces in the Far East with Headquarters in Manila, 
issued an order assuming command of all U.S. Army Forces in the 
Philippines including the Commonwealth Army of the Philippines.
3.  Public Law 79-301 was Grossly Unfair--On February 18, 1946, barely 
5 months before the scheduled Independence of the Philippines, Public 
Law 79-301, now famously known as the Rescission Act of 1946, was 
enacted into law by the U.S. Government. Included in this rider was the 
appropriation of $200M to the Philippine Army with the proviso that 
``service in the organized military forces of the Government of the 
Commonwealth of the Philippines while such forces were in the service 
of the Armed Forces of the United States pursuant to the military order 
of the President of the United States dated July 26, 1941, shall not be 
deemed to be or to have been service in the military or naval forces of 
the U.S. or any component thereof for any law of the U.S. conferring 
rights, privileges or benefits upon any such person by reason of 
service of such person or any other person in the military or naval 
forces of the U.S. or any component thereof.''
4.  Key U.S. Officials Admitted Eligibility for Equity--During the 
hearing for Public Law 79-301 the head of the U.S. Veterans 
Administration was called to testify. His testimony included the 
following: there were 472,000 Filipino WWII veterans in 1946, they were 
eligible to VA benefits (THE SERVICE OF THE FILIPINO COMMONWEALTH ARMY 
INTO THE U.S. ARMED SERVICES DURING WWII HAVE MET THE STATUTORY 
DEFINITION OF A U.S. VETERAN), and it would cost the U.S. $3.2B: to 
cover Filipino WWII veterans on equal basis with their American 
counterparts.

  a.
     Statement of President Harry S. Truman Clearly Recognized that 
Filipino Veterans Deserved Equity--Before signing P.L. 79-301 into law, 
President Harry S. Truman stated:
  b.
     The effect of this rider is to bar Philippine Army veterans from 
all benefits under the GI Bill of Rights with the exception of 
disability and death benefits.
  c.
     The passage and approval of this legislation does not release the 
U.S. from its moral obligation to provide for the heroic Philippine 
veterans who sacrificed so much for the common cause during the war.
  d.
     Philippine Army veterans are nationals of the U.S. and will 
continue in that status until July 4, 1946. They fought as American 
nationals, under the American flag, and under the direction of our 
military leaders.
  e.
     It is a moral obligation of the United States to look after the 
welfare of the Philippine Army veterans.

                                 <F-dash>
  Statement of Ronald R. Aument, Deputy Under Secretary for Benefits,
                  U.S. Department of Veterans Affairs
    Mr. Chairman and Members of the Committee, it is my pleasure to be 
here today to discuss the benefits the Department of Veterans Affairs 
(VA) provides to World War II Filipino veterans. I am pleased to be 
accompanied by Dr. Robert Wiebe, Director of the Veterans Integrated 
Service Network 21.
Historical Background
    For purposes of VA benefits and services, members of the Philippine 
armed forces can be categorized as having served in one of four groups: 
Regular Philippine Scouts, Commonwealth Army of the Philippines, 
recognized guerrilla units, and New Philippine Scouts. These four 
categories of World War II Filipino veterans and their eligibility for 
VA benefits are best understood in a historical context.
    In 1901, the United States established the Regular Philippine 
Scouts, a force that Congress soon thereafter incorporated into the 
United States Army. Individuals who served in the Regular Philippine 
Scouts and their survivors have always been entitled to the same VA 
benefits as veterans of the United States Armed Forces.
    In 1934, Congress passed the Philippine Independence Act, which 
provided for the self-government of the Philippines after a period of 
10 years. Because of the Japanese invasion of the Philippines and World 
War II, independence was conferred on July 4, 1946. The Government of 
the Commonwealth of the Philippines established the Philippine Army in 
1935. Pursuant to the 1934 Act, the United States reserved the right to 
call into service any forces organized by the Philippine government. In 
July 1941, President Roosevelt exercised this authority by calling into 
service all organized military forces of the Government of the 
Commonwealth of the Philippines. These Commonwealth Army members began 
serving on or after July 26, 1941 and ended their service on or before 
June 30, 1946.
    After the May 7, 1942 surrender of the Philippine Islands to the 
Japanese, the residual elements of the United States military in the 
Philippines and members of the Philippine Army formed guerrilla units. 
Recognized guerrilla units fought alongside the United States military 
from April 20, 1942 until June 30, 1946. After the liberation of the 
Philippine Islands, individuals who fought in recognized guerrilla 
units were given membership status in the Commonwealth Army or the 
United States Armed Forces.
    Following the Japanese surrender in 1945, Congress authorized the 
Secretary of War to enlist Philippine citizens into the United States 
Armed Forces. The New Philippine Scouts participated in the occupation 
of Japan from October 6, 1945, until June 30, 1947.
    In 1946, Congress declared veterans of the Commonwealth Army and 
New Philippine Scouts and their survivors to be eligible for benefits 
under VA programs of National Service Life Insurance, disability 
compensation, and death compensation. Congress limited the rates of 
disability and death compensation to the equivalent of 50 cents on the 
U.S. dollar. Congress did not authorize eligibility for VA need-based 
pension, health care, or readjustment benefits. In 1958, Congress made 
former members of the organized guerrilla units eligible for VA 
benefits on the same basis as Commonwealth Army veterans.
    Legislative history indicates that benefits were limited to 50 
cents on the dollar in recognition of the different standards of living 
in the United States and the Philippines. Congress also anticipated 
that the newly independent Republic of the Philippines would rightfully 
assume additional responsibilities for its veterans. Within months of 
gaining independence, the Philippine government began developing a 
fairly extensive program of veterans' benefits including compensation 
for service-connected death and disability, education benefits, 
reemployment rights, preference in public employment, home loans, and 
hospitalization benefits.
VBA Benefits Currently Provided to World War II Filipino Veterans
    Veterans who served in the Regular Philippine Scouts qualify for 
the full range of VA benefits and services as veterans of the United 
States Armed Forces. Under legislation enacted over the past 6 years, 
veterans of the Commonwealth Army, recognized guerrilla forces, and New 
Philippine Scouts who lawfully reside in the United States and are U.S. 
citizens or aliens lawfully admitted for permanent residency in the 
United States now qualify for disability compensation at the full U.S. 
dollar rate. They also have eligibility for VA health care and burial 
benefits similar to other veterans of the United States Armed Forces. 
The survivors of veterans who served in the Commonwealth Army, 
recognized guerrilla forces, or New Philippine Scouts who reside in the 
United States and are U.S. citizens or legally admitted resident aliens 
qualify for dependency and indemnity compensation (DIC) benefits at the 
full-dollar rate. If the veteran or survivor does not meet the above 
residency requirements, VA pays disability compensation, DIC, and 
burial benefits based on the half-dollar rate.
Chronological Summary of Recent Legislative Changes
    In October 2000, Congress enacted legislation that expanded VA 
benefits for veterans of the Commonwealth Army and recognized guerrilla 
units. Veterans of the Commonwealth Army and recognized guerrilla units 
now qualify for disability compensation at the full-dollar rate, 
provided that the veteran is lawfully residing in the United States and 
is a United States citizen or an alien lawfully admitted for permanent 
residence in the United States. In addition, the bill extended VA 
hospital care, medical services, and nursing home care to veterans of 
the Commonwealth Army and recognized guerrilla units in cases where the 
veteran lawfully resides in the United States and is a United States 
citizen or an alien lawfully admitted for permanent residence in the 
United States and receiving VA compensation. Congress also authorized 
the Manila VA Outpatient Clinic to provide medical services to service-
connected veterans for their non-service-connected disabilities.
    In November 2000, Congress passed the Veterans Benefits and Health 
Care Improvement Act of 2000, expanding eligibility for interment in 
national cemeteries to veterans of the Commonwealth Army and recognized 
guerrilla forces if the veteran resided in the United States at the 
time of death and was a United States citizen or alien lawfully 
admitted for permanent residence in the United States. Congress also 
authorized VA to pay the full-dollar amount for burial benefits to 
veterans who met the above residency requirements and were also 
receiving VA disability compensation or would have met the disability 
and income requirements for VA pension.
    On December 6, 2003, Congress extended full VA health care 
eligibility to veterans of the New Philippine Scouts residing in the 
United States and removed the requirement that veterans of the 
Commonwealth Army and recognized guerrilla veterans, who are residing 
in the United States, must be in receipt of compensation in order to 
qualify for VA treatment of non-service-connected disabilities.
    On December 16, 2003, Congress enacted the Veterans Benefits Act of 
2003, which expanded compensation benefit payments and burial benefit 
payments to the full-dollar rate for New Philippine Scouts if they are 
either United States citizens or lawfully admitted permanent resident 
aliens, and made New Philippine Scouts eligible for other burial 
benefits including interment in national cemeteries. In addition, 
Congress expanded DIC benefits to the full-dollar rate for survivors of 
veterans who served in the New Philippine Scouts, the Philippine 
Commonwealth Army, or recognized guerrilla forces, provided that the 
survivor is residing in the United States and is either a United States 
citizen or a legally admitted alien. Congress also extended the 
authority to maintain a regional office in the Republic of the 
Philippines until December 2009.
    The result of the above laws is that veterans and survivors of the 
Philippine Commonwealth Army, recognized guerrilla forces, and the New 
Philippine Scouts who lawfully reside in the United States are eligible 
for disability compensation, DIC, burial benefits, and VA health care 
to the same extent as veterans and survivors of the United States Armed 
Forces.
    Veterans of the Commonwealth Army, recognized guerrilla units, and 
New Philippine Scouts are not eligible for VA pensions or readjustment 
benefits such as home loan guaranties, education benefits, vocational 
rehabilitation, adaptive housing grants, and adaptive vehicle grants. 
Survivors or dependents of veterans of the Commonwealth Army, 
recognized guerrilla units, and New Philippine Scouts are not eligible 
for death pension or education benefits.
Health Care in the Philippines
    Veterans of the United States Armed Forces and Regular Philippine 
Scouts residing in the Philippines can obtain hospital care and 
outpatient medical services if such care and services are needed for 
the treatment of a service-connected disability. Service-connected 
United States veterans and Regular Philippine Scouts can obtain 
outpatient medical services at the Manila VA Outpatient Clinic for any 
condition as long as it is within the services provided by the Clinic.
    The United States has provided assistance to the Philippines in a 
number of different ways in order to facilitate the provision of 
medical care to World War II Filipino veterans. VA has historically 
provided grants in the form of monetary support or equipment to the 
Veterans Memorial Medical Center (VMMC) in Manila. In June 2002, VA 
announced that $500,000 would be provided annually to furnish, install, 
and maintain equipment at the VMMC. In 2006, Secretary Nicholson 
provided a $500,000 grant to upgrade equipment for the VMMC. Since 
2002, VA has contributed over $3.5 million to the VMMC. VA provided the 
funding under its authority to assist the Philippine government in 
fulfilling its obligation to provide medical care for Filipino veterans 
who fought with the United States Armed Forces in World War II. VA 
worked directly with the VMMC to identify the highest equipment 
priorities. VA directly purchases the equipment and assures that it is 
properly installed and maintained.
The Manila Regional Office
    The Manila Regional Office (RO) is responsible for administering a 
wide range of benefits and services for veterans, their families, and 
their survivors residing in the Philippines, including compensation, 
pension, DIC, education benefits, and vocational rehabilitation and 
employment services. The Manila RO has jurisdiction over all cases 
involving veterans of the Commonwealth Army, recognized guerrilla 
units, and New Philippine Scouts, no matter where they reside.
    As of January 2007, the Manila RO provides disability compensation, 
pension, and DIC to approximately 17,000 veterans and survivors. This 
includes 6,400 veterans who receive disability compensation, of which 
3,500 are World War II Filipino veterans and the remaining are United 
States Armed Forces veterans from all periods of service. The Manila RO 
also provides DIC benefits to 6,700 survivors, which includes 5,150 
survivors of World War II Filipino veterans. Nearly 15,000 of the 
17,000 beneficiaries paid by the Manila RO reside in the Philippines.
    Our records indicate that about 690 Filipino veterans and 430 
survivors of Filipino veterans currently receive benefits at the full-
dollar rate based on their residence in the United States. We are very 
pleased that Congress has in recent years recognized the inequity of 
applying the payment restrictions, which were intended to reflect the 
different economic conditions between the Philippines and the United 
States, to Filipino beneficiaries residing in the United States and 
improved the benefits for those facing living expenses comparable to 
United States veterans. We believe these improvements were extremely 
important, as they allowed VA to maintain parity in the provision of 
veterans' benefits among similarly situated Filipino beneficiaries.
    Mr. Chairman, this concludes my testimony. I greatly appreciate 
being here today and look forward to answering your questions.

                                 <F-dash>
                Statement of Hon. Madeleine Z. Bordallo
        a Representative in Congress from the Territory of Guam
    Mr. Chairman, thank you for the opportunity to appear before the 
Committee today to testify in support of legislation that would provide 
for full restoration of veterans benefits to surviving World War II 
veterans of the Commonwealth Army of the Philippines, the Philippine 
Scouts, and to those individuals from the Philippines who served in 
United States Armed Forces organized resistance units. As a member of 
the Congressional Asian Pacific American Caucus and the United States-
Philippines Friendship Caucus, I strongly support H.R. 760, the 
Filipino Veterans Equity Act of 2007. I, too, commend you, Mr. 
Chairman, for championing during your distinguished service in this 
institution the restoration of benefits for Filipino veterans.
    Spain ceded the Philippines, along with Guam and despite the 
Philippine Government having declared independence, to the United 
States through the signing of the Treaty of Paris in 1898, the peace 
agreement that ended the Spanish-American War. The values of freedom, 
democratic governance and the rule of law were cherished and sought by 
the people of the Philippines in the early part of the 20<SUP>th</SUP> 
century. The extent to which these values were inherent in the 
character of the people of the Philippines was evidenced by the service 
and sacrifice of the approximately 200,000 of their countrymen that, 
upon order of President Franklin Delano Roosevelt, were inducted into 
the United States Armed Forces following the invasion of the Philippine 
Islands by the military forces of Imperial Japan in 1941.
    These Filipino soldiers--who became known as the Philippine 
Scouts--served shoulder to shoulder with American servicemen fighting 
against the Imperial Japanese Forces. General Douglas MacArthur greatly 
valued the service of these Filipino soldiers. Their skills as 
reconnaissance men and guerilla fighters were displayed as General 
MacArthur ordered his forces to retreat to Bataan Peninsula and nearby 
Corregidor Island. There the poorly-supplied American and Filipino 
troops, ably led by the Philippine Scouts, mounted a heroic, storied, 
but ultimately abortive defense against the well-equipped forces of 
Imperial Japan. Many American and Filipino soldiers were captured as a 
result of the fall of Bataan and Corregidor. Those captured were forced 
to endure the Bataan death march, confinement in concentration camps, 
forced labor, and imprisonment on ships. Those who escaped capture were 
organized into guerrilla bands to resist the Imperial Japanese 
occupation forces.
    The Filipino soldiers' abilities and commitment to the United 
States were displayed again as General MacArthur, then supreme 
commander of Allied forces in the southwest Pacific, made good on his 
vow to return to the Philippines to help them liberate their country 
from Imperial Japanese Forces. The campaign to liberate the 
Philippines, which began in earnest in late 1944, reportedly included 
some of the bloodiest fighting of the Second World War. Filipino 
soldiers, throughout the course of that bloody struggle, fought 
shoulder to shoulder with and died along with United States 
servicemembers.
    Conscripted Filipino soldiers were supposed to be entitled then to 
full veterans' benefits and they were so promised in the name of the 
good faith of the United States Government. Congress, however, withheld 
these benefits from them with the passage of the Rescission Acts of 
1946. In 1990, many of these veterans were extended the opportunity to 
become United States citizens. Reportedly, nearly 24,000 veterans chose 
to do so. Full veterans' benefits, however, have never been extended to 
them. The enactment of H.R. 760 would correct this mistake and remedy 
this injustice.
    The Congressional Research Service, in a January 10, 2006, report 
entitled, ``The Republic of the Philippines: Background and U.S. 
Relations'' states that approximately 30,000 of 200,000 Filipino 
veterans of the Second World War are still alive, of whom 7,000 reside 
in the United States. While estimates may vary what we do know to be 
fact today is that there are fewer and fewer surviving Filipino 
veterans of the Second World War with each passing year. The need for 
Congress to honor their service by enacting H.R. 760 is now more 
important than ever. If signed into law, H.R. 760 would fulfill our 
country's long overdue commitment to these loyal and honorable 
veterans. We must act now to fulfill the United States Government's 
responsibilities to those who served willingly and ably in the defense 
of freedom. Filipino veterans deserve no less than our best commitment 
to bring them equity and justice in the name of the good faith of the 
United States Government.
    I urge this Committee to favorably report your legislation Mr. 
Chairman to the full House as soon as possible. Thank you again, Mr. 
Chairman, Mr. Buyer, and Members of the Committee, for the opportunity 
to appear before you today to add my voice in support of this most 
worthy cause. It is a privilege and an honor to join our colleagues on 
this panel and to cosponsor H.R. 760.

                                 <F-dash>
                   Statement of Hon. Mazie K. Hirono
         a Representative in Congress from the State of Hawaii
    Mr. Chairman and Members of the Committee:
    Thank you for the opportunity to testify today on the matter of 
equity for Filipino veterans of World War II. This is an important 
issue for me and many families in Hawaii.
    As you know, Filipino veterans are those that honorably answered 
the call of President Franklin D. Roosevelt and served alongside our 
armed forces during World War II. They fought shoulder to shoulder with 
American servicemen; they sacrificed for the same just cause. We made a 
promise to provide full veterans' benefits to those who served with our 
troops. And while we have made appreciable progress toward fulfilling 
that promise, we have not yet achieved the full equity that the 
Filipino veterans deserve.
    I am proud to be an original cosponsor of H.R. 760, the Filipino 
Veterans Equity Act of 2007, which was introduced by the Chairman to 
provide the necessary reclassification of the service of Filipino 
veterans to make them eligible for all the veterans' benefits programs 
administered by the U.S. Department of Veterans' Affairs. In essence, 
H.R. 760 makes good on the promise our government made to these brave 
men over sixty years ago.
    Today, out of the 250,000 veterans, only 22,000 remain and of that 
number 2,000 reside in my home State of Hawaii. As Filipino veterans 
are entering the sunset years of their lives, Congress is running out 
of time to fulfill our obligations to them.
    I would also like to take this time to discuss an effort that I am 
jointly working on with Senator Daniel K. Akaka to provide for the 
expedited reunification of the families of our Filipino veterans. 
Prospective family-based immigration applicants from the Philippines 
face substantial, often decade-long waits for visas. It is our aim to 
introduce a bill that would further the recognition of the service of 
Filipino veterans by granting their children a special immigration 
status that would allow them to immigrate to the United States and be 
reunified with their aging parents.
    Mr. Chairman, thank you again for the opportunity to speak today on 
the need to fulfill our obligations to our Filipino World War II 
veterans.

                                 <F-dash>
                    Statement of Hon. Michael Honda
       a Representative in Congress from the State of California
    Chairman Filner, Ranking Member Buyer, and Members of the 
Committee, thank you for holding this critically important hearing 
concerning the injustice done to some of the bravest men to have fought 
on behalf of the United States, the Filipino WWII veterans. Mr. 
Chairman, I also commend you for your tireless leadership on efforts to 
rectify this situation and for reintroducing H.R. 760, the Filipino 
Veterans Equity Act.
    As Members of the Committee know, I have been a vocal advocate for 
the equitable treatment of Filipino WWII veterans. I consider the 
rescission of U.S. military status from approximately 250,000 Filipino 
WWII veterans who fought under U.S. command as one of the greatest 
injustices ever perpetrated by the Congress. After six decades of 
disgrace, we have the responsibility to correct this injustice and 
honor their service and sacrifice, and our window of opportunity to 
make these brave veterans whole is rapidly closing.
    In 1934, when the Philippine Islands were a U.S. territory, 
Congress enacted Public Law 73-127 requiring the Commonwealth Army of 
the Philippines to respond to the call of the U.S. President. On July 
26, 1941, with the Nation facing the threat of Japanese aggression in 
the Pacific, that call to arms came when President Franklin Roosevelt 
signed a military order for the Commonwealth Army to serve with the 
U.S. Army Forces--Far East (USAFFE), under the command of U.S. military 
leaders. These Filipino soldiers bravely fought alongside their 
American brothers in arms until the end of WWII.
    With the enactment of P.L. 79-190 in 1945, Congress recruited an 
additional 50,000 Filipino soldiers, known as the New Philippine 
Scouts, in anticipation of needing occupation forces for captured enemy 
territories. At the time of recruitment, the U.S. Government promised 
that all that responded to the call would be treated as U.S. veterans 
for the purposes of their benefits.
    In 1946, just after the conclusion of the war, Congress rescinded 
this promise, turning their backs only on the brave Filipino veterans. 
When passing the First and Second Supplemental Surplus Appropriations 
Rescission Acts, commonly referred as the Rescission Acts, Congress 
sought to reduce the amount of previously appropriated funds devoted to 
the war effort. Within these bills, however, contained specific 
provisions that declared that service by the members of the 
Commonwealth Army and the New Philippine Scouts should not be deemed to 
have been service in the U.S. military, effectively stripping the 
Filipino soldiers of their U.S. veteran status.
    Although President Harry Truman signed both Rescission Acts into 
law, he recognized the heroic contributions of the Filipino soldiers 
and requested that efforts be made to correct the injustice:

          ``The passage and approval of this legislation do not release 
        the United States from its moral obligation to provide for the 
        heroic Philippine veterans who sacrificed so much for the 
        common cause during the war.''

    Since 1946, piecemeal benefits have been hard-won by the Filipino 
WWII veterans. However, full veteran benefits are still denied. To 
correct the injustice, I have been a steadfast supporter of the 
Filipino Veterans Equity Act, which would provide the full benefits 
promised to all Filipino veterans who fought under U.S. command during 
WWII. I am encouraged by the Chairman's dedication to facilitating 
quick passage of this legislation and the large number of Members 
participating in this hearing.
    As Chairman of the Congressional Asian Pacific American Caucus, I 
can also voice the Caucus's united support on this concern. We have 
prioritized the plight of the Filipino WWII veterans as a top 
legislative goal. CAPAC will continue to work to educate and recruit 
support from our colleagues and the public.
    Other Members may cite the cost of the Filipino Veterans Equity Act 
as an obstacle, but who among us can refute the injustice that has been 
done? Congress must return the promised veteran status to the 
courageous WWII Filipino soldiers. During the war, there were nearly 
250,000 Filipino solders who had served under U.S. command. At this 
point, only an estimated 22,000 are still living. To put things in 
perspective, the funding necessary to provide these remaining Filipino 
veterans with full equity of benefits is roughly equal to what we are 
currently spending in 1 or 2 days in Iraq. Must we wait for more of 
these deserved Filipinos to pass away to justify the cost? Is this how 
we should repay our courageous veterans?
    Mr. Chairman, these WWII heroes are in the twilight of their lives, 
and time is running out for Congress to recognize their service. A 
promise made should be a promise kept, especially when it comes to 
veterans. If we are to be a legislative body dedicated to the ideals of 
justice and dignity, then it is imperative we honor the promise made to 
our Filipino veterans, and restore their benefits.
    Thank you.

                                 <F-dash>
 Statement of Lt. Col. Edwin Price Ramsey, AUS (Ret.), Los Angeles, CA
    Chairman Filner and Honorable Members of the House of 
Representatives Committee on Veterans Affairs:
    My name is Edwin Price Ramsey, I came from Los Angeles to attend 
this hearing and I thank you for the opportunity to appear before you 
here today. Having appeared before the Committee on November 5, 1993 
and again on July 2, 1998, and since I will turn 90 years of age on May 
9th of this year, I will never have another chance to contribute in 
some small way, to correcting a longstanding gross injustice to the 
Filipino Veterans of World War II.
    To do so, it is important that you be aware of why I had a unique 
position during that time and have considerable knowledge in this 
matter.
    In 1941, I was a lieutenant in the 26<SUP>th</SUP> Cavalry 
Regiment, Philippine Scouts, with whom I fought from the Japanese 
Landing in Lingayen Gulf through the Battle of Bataan. After Bataan 
surrendered on April 9, 1942, my troop commander, Capt. Joseph R. 
Barker II and I escaped and made our way to Pampanga Province in 
Central Luzon, where we met Col. Claude Thorp whom General MacArthur 
had sent out of Bataan to establish resistance behind the enemy lines. 
We joined Col. Thorp and began the Guerrilla forces in Central Luzon 
designated by Col. Thorp to be the ``East Central Luzon Guerrilla 
area'' under the ``Luzon Guerrilla Army Forces'' of Thorp. After the 
capture of both Thorp and Barker, and their later execution, in early 
January 1943, I became the commander of the ``East Central Luzon 
Guerrilla Area'' (ECLGA). By the liberation of Central Luzon, it had 
grown to approximately 45,000 guerrilla troops.
    With that background, I would like to address the question of the 
status of Filipino veterans and their treatment, especially with 
respect to the Recession Acts of 1946.
    In July of 1941, President Roosevelt authorized, through the War 
Department, the formation of the ``United States Army Forces in the Far 
East'' (USAFFE) under the command of General Douglas MacArthur and 
ordered the induction of the military forces of the Commonwealth of the 
Philippines into and as part of USAFFE. It is impossible to see how 
these Philippine troops could be federalized into the USAFFE and not be 
part of the United States Army. Further, when we inducted the Filipinos 
into the guerrilla forces, we required that they all swear an oath of 
allegiance to the United States of America and the Commonwealth of the 
Philippines. Therefore, all those guerrillas that were recognized after 
the liberation would have the same status. In that connection, I 
question why there was a difference in the treatment accorded to the 
65,000 or so Commonwealth of Puerto Rico troops and those from Hawaii 
and elsewhere, who served in the U.S. Army and were later treated the 
same as American Veterans.
    The USAFFE forces fought courageously, delaying the Japanese time 
table for several months, instead of the 6 weeks General Homma had been 
given by the Japanese High Command to conquer Bataan. Also, remember 
that only the Filipinos remained loyal to their former colonial masters 
while the Indo-Chinese turned on the French, the Indonesians the Dutch, 
and Malaya and Burma turned on the British. It was this unbelievable 
loyalty that provided the environment necessary to build the massive 
guerrilla forces that made it impossible for the Japanese to defend, in 
any serious way, against the liberating Allied Forces and ultimately 
saved thousands of American and Allied lives. General MacArthur 
personally confirmed this to me in a meeting I had with him in Tokyo in 
March of 1947. At that time, he gave me an autographed photo signed, 
``To Ramsey with the Admiration and Affection of His Old Comrade in 
Arms, Douglas MacArthur.'' My most prized memento.
    For the sake of brevity, since we have so little time today, for 
more detail, please refer to my previous testimonial letters submitted 
in the earlier hearings on November 5, 1993 and July 22, 1998 and were 
incorporated in the hearing records. I would especially call your 
attention to the paragraphs on page 4 of my letter re: the July 22, 
1998 hearing, referring to President Roosevelt's message to Congress on 
October 6, 1943, calling for our government to provide full 
rehabilitation of the Philippines at the conclusion of the war.
    In accordance with the rules of the House of Representatives' 
requirement for witnesses, I have appended hereto a copy of my 
curriculum vitae and I hereby affirm that I have had no federal grants 
or contract with the government within the current or past many years.

Edwin Price Ramsey

                                 <F-dash>
       Statement of Colonel Romeo M. Monteyro, PA (Ret.), Advisor
 Filipino World War II Veterans Federation of San Diego County, Vista, 
                                   CA
    Mr. Chairman, Members of the House Veterans Affairs Committee, 
ladies and gentlemen, good morning.
    Thank you, Mr. Chairman, for inviting me here today. In the next 5 
minutes, allow me to dwell on a particular subject--the loyalty of the 
Filipinos to America, before, during and beyond World War II.
    Private Tomas Claudio, a Filipino, was a member of the American 
Expeditionary Forces which fought in France in World War I. A mere 
footnote in history, he is unknown to Americans, but U.S. Army records 
place him as the first Filipino to die for America. He was a farmworker 
in California when America entered the First World War. He need not 
enlist, but he did, out of patriotism and love for his adoptive 
country.
    Then there was Jose Abad Santos, Chief Justice of the Supreme Court 
of the Philippine Commonwealth. He became the caretaker of the 
Commonwealth government after President Manuel L. Quezon was ordered 
out by President Roosevelt. The enemy caught up with him in Lanao, 
Mindanao and was told to publicly renounce his allegiance to America 
and pledge loyalty to the Japanese government. When he refused he was 
tried by a kangaroo court and was sentenced to die by firing squad. On 
the eve of his execution, he told his son, ``Do not cry my son. Show 
these people that you are brave. Not everyone is given a chance to die 
for his country.'' The loyal and brave Chief Justice chose to die for 
America.
    In the movie ``The Great Raid'' the loyalty of the Filipinos to 
America was depicted factually. Filipino civilians risked their lives 
by smuggling food, medicine and money to starving and sick American 
prisoners of war. Resistance fighters blocked a stronger Japanese force 
and prevented it from reinforcing the prison guards at Cabanatuan City, 
paving the way for the successful rescue of more than 500 American POWs 
by a battalion of U.S. Army Rangers.
    President Harry S. Truman said, as he reluctantly signed the 
Rescission Act of 1946, ``This does not absolve America of its moral 
obligations to the Filipino veterans.''
    President Bill Clinton commented, during the awards ceremony for 
WWII Congressional Medal of Honor recipients of Japanese and Filipino 
descents, 59 years late, ``rarely has a country been so well served by 
a people it has so ill-treated. They risked their lives above and 
beyond the call of duty, and in so doing they did more than defend 
America. In the face of painful prejudice, they helped define America 
at its best.''
    In Bataan, soldier-poet Lieutenant Henry G. Lee wrote this poem 
after he watched a haggard group of Philippine Commonwealth Army 
troops:

      Obsolete rifle without a sling
      And a bolo tied with a piece of string
      Coconut hat and canvas shoes
      And shoddy, dust white, denim blues
      These are the men who fought and fled
      And fought again and left their dead
      Who fought and died as the white man planned
      And never quite learn to understand
      Poorly officered, under fed
      Often driven but never led
      Lied to, and cheated and sent to die
      For a foreign flag in their native sky.

    Lieutenant Lee survived Bataan, the Death March and even the POW 
camp atrocities but was ironically killed by American bombs dropped on 
the ship transporting him to Japan.
    Owed a moral obligation! Served well though ill-treated, subjected 
to painful prejudice! Lied to and cheated and sent to die, for a 
foreign flag in their native sky! Yet they remained steadfastly loyal!
    Ladies and gentlemen of this Committee, isn't it high time the 
Filipino soldiers who fought for America in World War II, be rewarded, 
if only for their loyalty? I know it will probably be a question of 
money again. Former Congressman Stump who headed this Committee during 
his time in Congress, once asked, ``And where do you suggest we get the 
money to pay the Filipino veterans?'' My answer to that is, ``from the 
same source which funds the Iraq war.'' The Iraqis have not done 
anything in defense of America. In fact most of them hate us, and even 
as we speak, are trying their best to kill American soldiers. On the 
other hand, the Filipino veterans fought for America and their shabby 
treatment notwithstanding, have remained loyal and ever ready to stand 
by America.
    How loyal was the Filipino soldiers to America? Ask Col. Ramsey, 
the living testimony to their loyalty. If he had been in another 
country in World War II they would have turned him over to the enemy 
or, worse, kill him and collect the prize money on his head. Yet today, 
he is here with us because the Filipinos remained loyal to the U.S.
    Thank you Mr. Chairman and Members of this Committee. That 
concludes my testimony today.

                                 <F-dash>
Statement of Lourdes Santos Tancinco, Esq., Co-Chair, National Network 
  for Veterans Equity, and Chair, San Francisco Veterans Equity Center
    Mr. Chairman and distinguished Members of this Committee:
    My name is Lourdes Santos Tancinco, Esq. I speak on behalf of the 
Veterans Equity Center and the National Network for Veterans Equity. 
Both organizations are part of the newly formed National Alliance for 
Filipino Veterans Equity.
I. Introduction
    The Veterans Equity Center is the only nationwide service agency 
catering exclusively to the needs of the elderly Filipino World War II 
veterans. It was established in the City of San Francisco through the 
collaboration of community members and advocates concerned with the 
plight of the Filipino veterans. As of today, we have provided service 
to more than 1,000 veterans. The National Network for Veterans Equity 
is a loose coalition of different organizations including various Asian 
Pacific American organizations advocating justice and equity for our 
Filipino veterans and supporting the passage of the Full Equity Bill or 
currently the H.R. 760. The National Alliance for Filipino Veterans 
Equity is the only formalized coalition of organizations representing 
Filipino veterans in the United States and the Philippines working to 
pass the Filipino Veterans Equity Act.
II. Full Equity Now
    Ladies and gentlemen of this Committee, we strongly believe that 
only a full recognition and restoration of the full and equal benefits 
of all the Filipino World War II veterans will address this more than 
half a century of injustice brought by the Rescission Act of 1946.
    As advocates for the full equity, our mission at NNVE is a firm and 
consistent commitment to attain full equity, no more and no less.
    We face different challenges but we never shall give up. Consider 
the following factors:

    1. Factors to Consider
      a.
         The population of the World War II veterans is dwindling.
           Time is a critical element for the passage of this proposed 
legislation. It is public knowledge that the greatest generation of 
World War II veterans is diminishing at an accelerated rate. There are 
still surviving veterans waiting for full recognition of their services 
and for the receipt of the well deserved benefits. We have witnessed 
and met at the Veterans Equity Center thousands of WWII veterans and 
most of them who passed away had a dying wish unfulfilled. Questioning 
why they were treated inequitably. It is very disheartening. Time is of 
the essence.
      b.
         There is an increasing number of broad supporters from 
different organizations.
           We are engaged in an extensive public education campaign 
about the bill ensuring that there is an accurate presentation of the 
history and the relationship of the U.S.-Philippines during World War 
II.
           NNVE's public educational campaign resulted in increased 
awareness. NNVE gathered support from various individuals, 
organizations, state and local governments in support of the 
restoration of the full veterans' status to Filipino World War II 
Veterans.
      c.
         The cost of the bill.
           One of the major challenges we are forced to face is the 
issue of the cost of the bill. It is very easy to defeat the purpose of 
the bill by concluding that this is an expensive bill. But is it really 
an expensive bill? Let us examine the following:

          <bullet>  The figure used to calculate the cost of this bill 
is inaccurate. The rate that these veterans die is faster than 
projected. Hence, if there is indeed a cost, it is a diminishing cost.
          <bullet>  The Veterans Administration figures based on its 
2000 study need to be reexamined. The San Francisco Veterans Equity 
Center is actually witnessing a faster rate of dying veterans than as 
reported in the VA study.
          <bullet>  For those receiving welfare checks from Social 
Security Administration, there will only be a transfer of budget from 
this agency to the VA should the equity bill be passed resulting in 
less or no additional cost to the Federal budget.

           True, there is a dollar amount to the bill the exact figure 
of which is not accurate at this time. If indeed the cost is an issue, 
our response to this argument is a question. When is the cost of 
freedom ever free? How can the U.S. ever have a short memory of the 
sacrifices of our veterans?
      d.
         A legislation less than equity will not address the veterans' 
issue.
           Benefit improvement bills that enhance certain veteran 
benefits for certain veterans are not responsive to this issue. 
Creating disparity for those who fought equally and those who risk 
their lives together is a greater injustice to those who are excluded.
    2.  Filipino Veterans Issue an American Issue of Injustice
         The plight of the Filipino veterans is no longer just a 
Filipino issue of injustice but an American issue of injustice that has 
been clamoring for final resolution. For those of us who believe in the 
cause of freedom and democracy, for those of us who believe in fairness 
to those who had fought for us, we are challenged to do what is right 
and advocate for what they deserve.
         As previously stated, the greatest generation is fast 
diminishing. The younger generation is taking on this cause and until 
this matter is resolved it shall continue to present itself over and 
over again until we finally see the just resolution.
III. Conclusion
    Mr. Luciano Dimaano, an 85 year old veteran who lives in San 
Francisco vividly remembers his experiences 65 years ago. He said and I 
quote him ``As a soldier fighting under the U.S. flag, I never got 
tired of fighting. There was shortage of food, no medicine. When I 
fired my rifle I would stumble because my body was starving for 
nourishment. I was weak all the time. But I kept fighting to defend the 
frontline.'' Like thousands of other veterans, physical exhaustion did 
not prevent him from fighting.
    We take on the fight for them. We believe in our democratic 
idealism and have faith that this great country shall not let the 
sacrifices, courage, blood and tears of our veterans be put to waste. 
There is no better time to correct this historical error. The time is 
now. War veterans should be treated right. They deserve no less than 
equity!
    We strongly urge this Committee to support the passage of the full 
equity bill for the Filipino World War II veterans. I would like to 
thank you for the opportunity to speak.

                                 <F-dash>
      Statement of Franco Arcebal, Vice President for Membership,
             American Coalition for Filipino Veterans, Inc.
    Honorable Chairman and Members of the House Committee on Veterans 
Affairs,
    Good morning. My name is Franco Arcebal, a Filipino World War II 
veteran, and the vice president for membership of the American 
Coalition for Filipino Veterans, Inc. Our nonprofit non-partisan 
advocacy organization has more than 4,000 individual members in the 
United States. I am now 83-years-old and a retired sales executive. I 
reside in Los Angeles.
    Our president, Mr. Patrick Ganio, Sr., a Bataan and Corregidor 
defender in 1942 and a Purple Heart medal recipient, could not join us 
this morning because of his health situation. He lives in Jacksonville, 
Florida. His statement is included in our written testimony.
    Thank you for holding this early hearing on the Equity bill H.R. 
760 for Filipino World War II veterans. Never in the history of our 
long quest for full recognition benefits has a hearing been scheduled 
within 2 weeks after its introduction.
    We owe this to the Honorable Bob Filner, our undaunted and tireless 
champion in the House of Representatives. He and I were arrested along 
with 12 of my comrades for civil disobedience when we chained ourselves 
in front of the White House in July 1997. Sadly, we were unable to 
convince the Clinton Administration to support our Equity bill.
    I am honored and pleased to present the plea of my comrades. But 
allow me a brief introduction.
    During World War II, I was a guerrilla intelligence officer in 
Northern Luzon. I was caught and severely tortured by Japanese soldiers 
as a spy. I was sentenced for decapitation. Luckily for me, during a 
rainstorm at night, I was able to escape. I dug out a tunnel under the 
wall of our ``monkey house.''
    In 1987, I became a new U.S. permanent resident. Because of my age, 
I had very little income. Because I had a painful dental problem, I 
sought treatment at the Los Angeles VA clinic.
    I was terribly shocked when I was told that my services in WWII in 
the U.S. Army Forces, was by law deemed NOT ``active service for the 
purposes of any benefit administered by the U.S. VA.''
    I concluded that the United States whom I served loyally and risked 
my life, did me an injustice. I felt terribly discriminated upon.
    This incident was a result of the Rescission Act enacted on 
February 18, 1946 (now U.S. Code Title 38, Sec. 107) over the 
objections of President Harry Truman. Before this law Filipino veterans 
had U.S. veterans status with the VA.
    Today, I expect many persuasive testimonies to justify the passage 
of H.R. 760. I join them because of my duty to speak on behalf of my 
comrade veterans who are elderly, disabled and poor.
    Our Coalition leaders view the EQUITY bill in five parts. They are:

    1. U.S. recognition of our WWII service,
    2. VA burial benefits,
    3. War injury compensation,
    4. VA health care, and
    5. NON-service connected disability pension.

    Over the past decade, our coalition's mission is to restore FULL 
U.S. Government recognition and to win equitable U.S. V.A. benefits for 
our veterans. We believe that by passing the ``Filipino Veterans Equity 
Act,'' or the realistic bills of our sponsors, we can finally overcome 
the discriminatory effects of the ``Rescission Act.''
Why should Filipino veterans be officially recognized for VA benefits?
    FIRST, on July 26, 1941, President Franklin D. Roosevelt ordered 
soldiers of the Philippine Commonwealth Army who were then U.S. 
nationals into military service.
    SECOND, before the Rescission Act of February 18, 1946, the VA 
considered us as American veterans with ``active service'' status.
    THIRD, 24,000 Filipino WWII veterans were naturalized based on 
their U.S. military service under Section 405 of the Immigration and 
Naturalization Act of 1990.
    FOURTH, under Public Law 106-419, if they died, they are eligible 
for burial benefits with military honors in national cemeteries as U.S. 
veterans.
    FIFTH, under P.L. 108-170, Filipino American veterans can now be 
admitted as patients in VA hospitals, clinics and nursing homes; 
however, they are not eligible for non-war related disability pensions 
that American counterparts receive.
    We deeply appreciate the steadfast leadership of Sen. Daniel 
Inouye, Sen. Daniel Akaka, Sen. Arlen Specter, former Rep. Benjamin 
Gilman, Rep. Bob Filner, Rep. Chris Smith, Rep. Juanita Millender-
McDonald, Rep. Darrell Issa, Rep. Rob Simmons, Rep. Nancy Johnson and 
others.
    With our step-by-step strategy, your Committee and the Senate have 
passed Filipino veteran bills worth $38 Million in yearly benefits:
    We have supported several bills and budget proposals to win the 
last step of VA non-service connected pension that would provide a 
dignified income to our veterans to bring them above poverty in the 
Philippines and in the U.S. and fully recognize their U.S. military 
service. These proposals were:

    1.  $100 monthly pension 2001 proposal of Sen. Daniel Inouye's bill 
S. 68 and Rep. Juanita Millender-McDonald's ``Fairness bill.'' 
Philippine President Gloria Arroyo had officially requested this 
pension from President Bush;
    2.  $200 monthly proposal of Rep. Lane Evans $22M budget request in 
2005 for vets in the Philippines and in the U.S. (Rep. Nancy Pelosi 
endorsed); and,
    3.  $100 VA medical care monthly allowance for Filipino vets in the 
Philippines that our coalition had proposed to VA Secretary Anthony 
Principi in 2004.
                    OUR REQUESTS TO THE VA COMMITTEE
    FIRST: Pass or mark up the final authorizing language of the EQUITY 
BILL with strong bi-partisan support of the Committee.
    SECOND: Seek an estimated budget item of $18 to $22 Million from 
the Bush Administration, VA Secretary Jim Nicholson and the 
Appropriation Committees to provide an equitable monthly pension of at 
least $200 for us low-income Filipino WWII veterans.
    THIRD: Form a task force of representatives of the HVAC, the VA 
Secretary, the Philippine Ambassador and the key veteran organizations 
to determine within 45 days the current Filipino veteran populations, 
assess their economic and health needs and to provide a realistic 
budget request.
    We yearn and pray this reasonable package of benefits be authorized 
and granted within the context of H.R. 760. We trust our requests be 
favorably considered.
    Let me close by quoting President Truman on February 20, 1946 when 
he objected to the ``Rescission Act'':

          ``The Philippine Army veterans are nationals of the United 
        States and will continue in that status until July 4, 1946. 
        They fought under the American flag and under the direction of 
        our military leaders. They fought with gallantry under the most 
        difficult conditions. . . . They were commissioned by us. Their 
        official organization the army of the Philippine Commonwealth 
        was taken into the Armed Forces of the United States on July 
        26, 1941. That order has never been revoked nor amended. I 
        consider it a moral obligation of the United States to look 
        after the welfare of the Filipino veterans.''

    THANK YOU.

                               __________

[The prepared statement and attachment of Patrick G. Ganio, Sr., 
follows:]
        Statement of Patrick G. Ganio, Sr., National President,
                American Coalition for Filipino Veterans
    Mr. Chairman, Honorable Members of the Committee, Fellow Veterans 
and friends,
    Good morning. Thank you for the opportunity and privilege to 
testify once more, perhaps our last to be heard of our appeal to this 
Congress and this Administration to pass the pension benefit for 
Filipino WWII veterans in true spirit of fairness and justice.
    There should be no doubt about the strength of our bonds of 
friendship as tested in the great battles of Bataan and Corregidor as 
well as the resistance of the Filipino people during the Japanese 
occupation of the Philippines.
    After the war, time has brought changes in the lives and men and 
nations where this great country is no exception.
    For in the Philippines after the war, the United States created a 
new outlook in the 79th Congress when it passed the Rescission Act of 
1946 that stripped our Filipino veterans of their honor and benefits.
    Mr. Chairman, it is comforting to feel that America cares for those 
who bore the battle. But as we think of the supreme sacrifices we paid 
for serving under the American flag, it is shocking and painful to 
think that in our low moments to feel betrayed from a friend we trust.
    Mr. Chairman, what happened to the principles and values of right 
and justice tutored us in this democracy fathered to us by America?
    But democracy takes a long route. Hence we are still fighting for 
our rights. And in the long process, we have been able to win several 
benefits that we deserve under mutually acceptable circumstances and 
justified by our common interests.
    Mr. Chairman, pass our Equity Pension bill at the end of our 
lifetime. This testimony is our last cry for justice. Be this our 
valedictory appeal that this Congress and this Administration be 
generous enough to pass our pension bill to end once and for all our 
long struggle.
    For tomorrow, we may not pass this way again.
    Very sincerely yours, Patrick Ganio, Sr.

                               __________

                        Office of the Governor, State of California
                                               Sacramento, CA 95814
                                                   December 8, 2005

The President
The White House
Washington, DC 20500

Dear Mr. President,

    I am writing in strong support of bipartisan legislation currently 
pending in Congress that would address the inequity in current law by 
providing full veterans' benefits to Filipino veterans who served at 
the request and under the command of the U.S. military in World War II. 
The Filipino Veterans Equity Act of 2005 (H.R. 302/S. 146) has broad 
support in Congress and a similar bill considered by the last Congress 
which is sponsored by over 200 Members of the House.
    While an estimated 300,000 Filipino veterans served in the U.S. 
Armed Forces in the Far East (USAFFE) in World War II, a federal law 
was passed in 1946 that rescinded their eligibility for veteran's 
benefits. Currently, less than 30,000 Filipino veterans live in the 
United States and the Philippines. Most are not entitled to the full 
array of benefits offered to fellow American veterans--specifically 
Disability Pension benefits. These benefits were promised to and earned 
by these veterans, but the promise was not fulfilled after the war.
    This inequity exists today. The Filipino Veterans Equity Act would 
fully recognize the military service of these veterans to this nation. 
An existing budget proposal in the House of Representatives would 
provide them with a modest $200 monthly disability pension to 
complement the VA health care benefits that Congress had restored in 
2003 upon your Administration's request.
    Action is needed this Congress because the number of surviving 
Filipino veterans of World War II decreases with each passing year. I 
feel the United States Government should recognize the military service 
of these veterans and provide them the benefits they deserve. While 
Congress has adopted legislation that provides a limited number of 
benefits to some of these veterans, the Filipino Veterans Equity Act 
would eliminate gaps in coverage that remain and would ensure all 
Filipino veterans receive the same benefits available to American 
veterans of that war.
    I know that you share my commitment to our nation's veterans and 
ask that you join me in supporting efforts to give these veterans their 
long overdue recognition and the benefits they deserve.

            Sincerely,

                                              Arnold Schwarzenegger
                                                           Governor

                               __________

                        Office of the Governor, State of California
                                               Sacramento, CA 95814
                                                   October 30, 2006

The President
The White House
Washington, DC 20500

Dear Mr. President,

    During World War II, more than 200,000 Filipino soldiers fought 
beside American troops to restore liberty and democracy to their 
homeland in the war against Japan. The bravery and sacrifice of these 
Filipino veterans contributed to our victory in World War II. While the 
Immigration Act of 1990 allowed these Filipino veterans the opportunity 
to become citizens of the United States, the law did not extend this 
benefit to their adult sons and daughters, many of whom have been on 
immigration waiting lists for several years.
    With just 6,000 Filipino World War II veterans still alive in the 
United States, I ask you to join me in supporting House Resolution 901. 
This bill would give priority in the issuance of immigrant visas to the 
sons and daughters of Filipino World War II veterans who are 
naturalized citizens of the United States. Given that the youngest of 
these veterans are in their eighties, reuniting these families is 
particularly important.
    The United States has a proud tradition of recognizing the 
sacrifices made by our veterans. House Resolution 901 is our 
opportunity to recognize and reward the remarkable courage and 
dedication of the Filipino-American veterans who fought for our country 
during World War II.

            Sincerely,

                                              Arnold Schwarzenegger
                                                           Governor

                                 <F-dash>
   Statement of Susan Dilkes, Executive Director, Filipino American 
   Services Group, Inc., and Member, National Alliance for Filipino 
                            Veterans Equity
    Good Morning! First of all, I would like to thank the Veteran's 
Affairs Committee Chairman Bob Filner, Members of the Committee and 
Congressman Bob Filner's staff for allowing me to testify today.
    My name is Susan Espiritu Dilkes. I am the daughter of a Filipino 
World War II veteran and a member of the National Alliance for Filipino 
Veterans Equity. I am also the Executive Director of Filipino American 
Service Group Inc. (FASGI), a non-profit, community-based, and social 
service agency in Los Angeles County which was started in October 1981, 
when a homeless Filipino World War II veteran was found sleeping in the 
garage at the home of Mrs. Remedios Geaga, one of the founding members 
of our agency. Since then, FASGI has assisted thousands of Filipino 
American World War II veterans with temporary shelter, health and 
mental health issues, food distribution, and others. FASGI operates a 
transitional housing shelter for independent living for more than four 
hundred World War II veterans and in 1996, with the help of the 
Filipino American WWII veteran's volunteers, FASGI launched the 
FILVOTE, Filipino American Voters Mobilization, and has registered more 
than 13,000 Filipino American voters in Los Angeles County.
    Last year, 2006, the Filipino-American Service Group, Inc. (FASGI) 
obtained a grant from State of California Department of Community 
Services and Development Community Services Block to outreach Filipino-
American veterans who are still alive and living in Los Angeles. The 
goal of the outreach is to reduce the risks of poor health resulting 
from inadequate housing, and to refer homeless Filipino American WWII 
veterans to our shelter and to our Healthy Active Lifestyle Program 
(HALP) and to assist and to advocate for their benefits that were 
promised to them by the government of the U.S. in 1942 by Pres. 
Franklin Delano Roosevelt. For the past 12 months, FASGI has worked at 
this outreach program but has referred only six WWII Filipino American 
veterans to our transitional housing shelter, because there are few of 
the veterans left. These men are now in there 80's and many are in very 
poor health.
    If Congress does not act soon, there will be no one left. This is 
your last chance to correct a wrong, which is now more than half a 
century old. I believe you are men and women of good intention, and now 
it is time for those intentions to be converted into law.
    Indeed, there are benefits beyond those that are visible on the 
face of this legislation. First, the passing of H.R. 760, granting full 
equity benefits for the Filipino American WWII veterans, provides the 
United States with an opportunity to rescue its reputation as a fair, 
honest and reputable country that honors its commitment. By helping the 
remaining 5,000 Filipino American World War II veterans who are living 
in the United States, our country can take a long step toward rescuing 
its own honor.
    Second, passing H.R. 760 improves the foreign relations between the 
Philippines and the United States. It reduces the political irritation 
of an unfulfilled commitment to the 13,000 Filipino American World War 
II veterans who are living in the Philippines, and to the extent 
payments are made, it will improve flow of cash to the Philippines, a 
poor country in dire need of foreign support and liquidity.
    This is the last chance any of us will have to RESCUE both the 
Filipino American World War II Veterans and the United States from a 
broken promise.
    Thank you and please enact and promptly implement H.R. 760.

                                 <F-dash>
              Statement of Alma Q. Kerns, National Chair,
     National Federation of Filipino American Associations (NAFFAA)
    Good morning.
    I thank you, Congressman Filner and all Members of the Veterans' 
Affairs Committee, for this historic hearing on the Filipino Veterans 
Equity Bill of 2007.
    I am deeply honored to speak on behalf of the National Federation 
of Filipino American Associations. Founded 10 years ago, our Federation 
aims to empower the 2.4 million Filipinos in America to become active 
participants and leaders in all aspects of U.S. society. The Filipino 
population is among the fastest growing ethnic groups in the country 
today, with one of the highest naturalization rates and a 76 percent 
nationwide voter turn out. We have significant concentrations of 
Filipino Americans in almost every congressional district throughout 
the nation. I don't exaggerate when I say that there is a Filipino in 
every town and city in the United States--each one contributing 
significantly to the political, cultural, commercial and social life of 
this country.
    I am here before you today primarily as the daughter of a World War 
II veteran. My father and four uncles survived the brutalities of the 
war, the Bataan death march, the concentration camps, malaria, typhoid, 
and dysentery. They have now passed on, but their bravery and their 
pride as soldiers have not been forgotten by us, their children and 
grandchildren. I owe it to them and all their comrades, the valiant 
Filipinos who risked their lives for the sake of freedom and democracy 
to stand before you today and appeal to you, our honorable legislators, 
to correct a tragic error of omission, and give the Filipino veterans 
the dignity and the recognition they deserve.
    The second reason I am here today is due to a promise I made as 
NAFFAA's national chair to continue the struggle for the passage of the 
equity bill. Since NAFFAA was born 10 years ago, NAFFAA has worked 
closely with Filipino veterans groups and community advocates to press 
Congress to rescind a grievous error in judgment, a betrayal, called 
the Rescission Act of 1946, but Congress to this day, more than 60 
years after victory was won, has not responded favorably.
    I am here before you today, representing millions of Filipino 
Americans and Filipinos who believe that the veterans equity issue is a 
matter of honor and dignity not just for our veterans but for the whole 
Filipino American community! In Seattle where I live, I see our World 
War II veterans living in substandard conditions, lonely for their 
children and grandchildren and waiting patiently for the equity bill to 
pass so that they can go home. For example, Benito Valdez, 83 years old 
and Julian Nicolas, 85 years old, two of the last three remaining 
Filipinos who helped in the great raid that rescued 600 American and 
Canadian prisoners of war in the Cabanatuan garrison camp, live in my 
beloved State of Washington. These two gallant warriors, silent in 
their anguish and disappointment, cannot understand what is taking 
Congress so long to correct a broken promise.
    Together with the members of the National Alliance for Filipino 
Veterans Equity, I am asking you our legislators to search deep into 
your conscience and correct this injustice.
    NAFFAA and its partners in the national alliance for Filipino 
veterans equity will not give up the fight for justice and equity. We 
will continue year after year after year, because my generation will 
never be at peace with ourselves if we do not tell the story of a 
promise unkept. We will do it because we still believe that this great 
country called America is still the beacon of justice and fairness in 
the free world. And the time is finally here to show the whole world 
that this country does not forget the bravery of those who fought for 
its freedom.
    To the esteemed Members of the Veterans' Affairs Committee, we hope 
that you will act honorably on our message--that the Filipino World War 
II veterans have been treated unfairly by the United States during the 
past 61 years. We also ask the American people to support our veterans' 
cause as theirs is an American issue that cries out for American 
justice. I now appeal to you today as our national legislators to pass 
the Filipino Veterans Equity Bill without delay.
    Thank you!

                                 <F-dash>
           Statement of Alec S. Petkoff, Assistant Director,
    Veterans Affairs and Rehabilitation Commission, American Legion
    Mr. Chairman and Members of the Committee:
    Thank you for the opportunity to testify before you on the 
rectifying of the injustice that Filipino veterans are currently 
enduring. The American Legion applauds the Chairman's leadership in 
addressing this issue by introducing H.R. 760, the ``Filipino Veterans 
Equity Act of 2007.''
    The American Legion supports full recognition and benefits to all 
veterans, American or Filipino, who were part of the defense of the 
Philippine Islands during World War II. The American Legion has adopted 
a resolution to ``Support Legislation to Grant Filipino World War II 
Veterans Equal VA Benefits.''
    In 1941, at the outbreak of World War II, Filipinos were considered 
nationals of the United States and thousands were conscripted to serve 
with the U.S. Armed Forces in the Far East (USAFFE) under the command 
of U.S. officers headed by General Douglas MacArthur, by order of then 
President Franklin D. Roosevelt.
    These Filipino World War II soldiers served and died with courage, 
loyalty and dedication to stop the Japanese invaders in Bataan and 
Corregidor, walked the famous Death March together with their American 
comrades-in-arms and continued guerilla warfare against the Japanese 
until the U.S. Armed Forces recaptured the Philippines in 1944.
    The Department of Veterans Affairs, in VETPOP2001 revised, 
estimated that there were 60,000 surviving Filipino veterans who are 
classified as Philippine Commonwealth Army, Recognized Guerrilla and 
New Philippine Scouts veterans, of whom 45,000 reside permanently in 
the Philippines and 15,000 reside permanently in the U.S.
    Of the 45,000 residing in the Philippines, 41,000 do not receive 
any compensation or pension benefit from VA, and most are sickly, over 
70 years old and live below the poverty level. Those veterans living in 
the Philippines currently receive only 50 cents on the dollar as 
compensation for their service-connected disability medical conditions. 
Veterans of those groups who live in America and were members of the 
Regular Commonwealth Army receive their full entitlement. This is the 
only situation where the rate of a disability compensation for a 
service-connected medical condition is based solely on geographical 
location.
    The current policy has created a virtual caste system of first- and 
second-class military veterans in the Philippines. These veterans 
fought, were wounded, became ill, became prisoners of war, were subject 
to torture, deprivation and starvation and many died in the service of 
the U.S. Armed Forces at the same rates as regular U.S. soldiers, 
sailors and Marines who were isolated on those islands during the 
Japanese occupation.
    Filipino veterans have recently been somewhat successful in 
incrementally increasing benefits to parity with other U.S. veterans; 
however, the exclusion of these veterans from full benefits remains a 
fundamental unfairness in the law that has stood for too many years. As 
the numbers of these deserving veterans quickly dwindle, Congress has 
little time left to redress this injustice.
    The American Legion gives its full support to H.R. 760. Mr. 
Chairman and Members of the Subcommittee, I appreciate the opportunity 
to present The American Legion's view on this bill. This concludes my 
testimony.

                                 <F-dash>
  Statement of Richard F. Weidman, Executive Director for Policy and 
            Government Affairs, Vietnam Veterans of America
    Chairman Filner, Ranking Minority Member Buyer and other 
distinguished Members of the Subcommittee, Vietnam Veterans of America 
(VVA) is pleased to appear here today in support of amending title 38, 
United States Code which would grant pension benefits for Filipino 
veterans of World War II living in the U.S. and in the Philippines.
    Mr. Chairman, VVA strongly believes that those brave Filipino 
veterans of World War II who were drafted into service by President 
Franklin D. Roosevelt over sixty years ago are entitled to benefits 
that they were promised.
    Under the command of General Douglas MacArthur, these Filipino 
soldiers fought side-by-side with forces from the United States 
mainland, defending the American flag in the now-famous battles of 
Bataan and Corregidor. Thousands of Filipino prisoners died, both on 
the Bataan death March and in prisoner of war camps. The Philippines 
endured four long years of occupation, and after its liberation, the 
United States used the strategically located Commonwealth as a base 
from which to launch the final efforts to win the war.
    With the vital participation of Filipino soldiers so evident, VVA 
finds it hard to believe that, soon after the war ended, the Congress 
of 1946 unceremoniously deprived many of the Filipino veterans of 
benefits and veterans' status. Prior to enactment of the ``Rescission 
Act'' on February 18, 1946, Filipino veterans were considered veterans 
by VA law.
    Congress has an opportunity at this hearing today to correct a 
wrong that was perpetuated on these brave veterans almost sixty years 
ago. During World War II, Filipino nationals were called into military 
service by Executive Order of the President and fought valiantly under 
U.S. command to help achieve peace and freedom in the Pacific. After 
the war, the United States made grants to the Philippine government to 
provide for the needs of these veterans. In addition, some are eligible 
for benefits under the United States veterans system. However, many of 
these deserving veterans living in the United States are currently not 
eligible for such benefits.
    VVA recognizes the leadership of this Committee to ensure that 
these brave men who served at our side as staunch allies are treated 
properly today, correcting a wrong done in 1946. VVA particularly 
thanks and commends you Mr. Chairman, for your strong leadership and 
hard work over the years on this issue which enables us to arrive at 
this hearing today and begin to right an unjust wrong for our Filipino 
veterans.
    In 2000, Commonwealth Army veterans and veterans of Recognized 
Guerilla Forces were offered veterans disability compensation at the 
full statutory rate if they are permanent legal residents of the United 
States. Other veterans became eligible to receive VA health care if 
they are permanent U.S. residents receiving disability compensation 
from the VA Department. Also in 2000, Commonwealth Army and Recognized 
Guerrilla veterans became eligible to be buried in VA national 
cemeteries if they were permanent residents of the U.S. at the time of 
their deaths.
    In 1990 a law was passed awarding citizenship to Filipinos who had 
fought on the side of the United States in World War II. As a result of 
that legislation, about 26,000 aging veterans were naturalized as U.S. 
citizens. But there was nothing in the legislation about veterans' 
benefits. The new citizens, if they were poor, were eligible only for 
welfare payments on the same basis as non-veterans.
    VVA believes the passage of the U.S. Rescission Act of 1946, which 
stated that military work of Filipino soldiers, scouts and guerrillas 
was not considered active service in the U.S. Armed Forces, was 
incorrect and this proposed legislation will address some of the flaws 
in that law.
    Mr. Chairman, the long struggle staged by Filipino veterans 
demanding equity in their treatment by the United States has gone on 
for more than half a century. VVA strongly believes because of the 
aging population of the Filipino veterans there is an urgent need for 
this proposed legislation. Frankly, the legislation should have been 
enacted during the 109th Congress. As there are so few of these 
distinguished fighters for America's freedom left alive, the cost is 
negligible in comparison to the size of the Federal budget. While 
justice delayed has proved to be justice denied for those who have 
passed away, at least for those still alive, these aging Filipino 
soldiers who fought under the U.S. flag in World War II must be helped 
now, when it matters most, before they all die.
    Mr. Chairman, this concludes the testimony of Vietnam Veterans of 
America (VVA). I will be more than happy to answer any questions that 
the Committee may have.

                                 <F-dash>
                   Statement of Hon. Neil Abercrombie
         a Representative in Congress from the State of Hawaii
    Chairman Filner, Ranking Member Buyer, and Members of the House 
Committee on Veterans Affairs, thank you for allowing me to come before 
you today to express my deep support for H.R. 760, the ``Filipino 
Veterans' Equity Act of 2007.''
    The treatment of Filipinos who fought with the United States Armed 
Forces in World War II is a black spot in American history. The 
Philippines became a United States possession after Spain ceded it as 
part of the treaty ending the Spanish-American War in 1898. In 1934, 
Congress created a 10-year timeframe for independence through the 
``Philippine Independence Act.'' However, since the Philippines 
remained a colonial possession until 1946 the United States retained 
the right to call upon military forces organized by the Philippine 
government into the United States Armed Forces.
    On July 26, 1941, President Franklin D. Roosevelt issued a military 
order that brought the Philippine Commonwealth Forces under the control 
of the United States Armed Forces during World War II. These men 
bravely fought with our own troops during the war, and many perished or 
suffered severe wounds from the battles in the Western Pacific theater. 
After the surrender of Japan, Congress required the Philippine Forces 
to continue their service. Many helped occupy lands, many oversaw 
military operations, and many made the ultimate sacrifice to secure our 
victory in World War II. Yet, when wartime service ended formally in 
1946 they did not receive the same benefits and the same treatment as 
other American soldiers.
    Yet, for all their heroic and courageous actions, Congress passed 
the ``Rescission Act'' in February 1946. This essentially denied 
Filipino Veterans any of the benefits that their American comrades in 
arms received; including full access to veterans' health care, service-
connected disability compensation, non-service connected disability 
compensation, dependent indemnity compensation, death pension, and full 
burial benefits. No other group of veterans has been systematically 
denied these benefits.
    Congress has the opportunity to right this wrong. The bill before 
the Committee, H.R. 760, restores the benefits these brave warriors 
were denied. This legislation has been introduced since 1992. However, 
time is running out. In September 2000, the Department of Veterans 
Affairs (VA) estimated that the number of surviving Filipino veterans 
were 59,889. However, by 2010, VA estimates that their population will 
dwindle to just 20,000, because of their advanced age.
    I, along with other members of the Hawaii Delegation support this 
important piece of legislation. Congress must act now for the sake of 
justice and to show that we Americans truly appreciate the sacrifice 
these men made. These heroes cannot be forgotten; they should not be 
dishonored. I urge the Committee to consider this bill and to report it 
to the House floor.

                                 <F-dash>
          Statement of Manuel Braga, Spring Valley, California
    Mr. Chairman and distinguished Members of this Committee:
    When the war broke out, I was inducted into the United States Armed 
Forces of the Far East (USAFFE) under the command of General MacArthur. 
During the war, we suffered so much.
    There was shortage of food, no medicine to cure the wounded and the 
sick. When I fired my rifle I would stumble because my body was 
starving for nourishment and energy. I was weak all the time. My 
comrades and I fought very hard and we hardly had sleep because we had 
to defend the frontline. We ate porridge a day, many were wounded and 
dead but we had to continue to fight.
    We Filipinos have the longest fight. Until now we are still 
fighting. Since Dec. 1, 1941 up to the present all nations that joined 
the U.S. Army, the Chinese, Cambodians, Australians, Vietnamese are now 
being served their veteran benefits, but we Filipinos are not! There 
must be a reason why? Is it because of money, but there is money in the 
invasion of Iraq. Why must we veterans suffer?
    America is a generous nation giving aid to all poor nations around 
the world. But they have forgotten their obligation to the Filipino 
veterans who served for this country, who have fought side-by-side with 
Americans. Filipinos are still fighting for equity while others who 
fought with us are now receiving the fruit of their sacrifice. Without 
veterans there is no Democracy today.
    When I stepped foot in this country a bittersweet feeling came over 
me. I wondered when we, Filipino veterans, will receive the recognition 
we deserve. Right there and then I told myself I wanted to continue to 
fight for justice and equity. . . . Luckily there are Filipinos 
fighting for us. I know that the younger generations will continue to 
fight for us! Please continue fighting! So many of us are already old 
we need your voices to speak for us, to fight alongside us!! We must 
fight! Fight! Fight until their hearts and mind are touched by our 
courage and determination. . . . Do not stop until Filipino veterans 
have received FULL EQUITY!!
    Now I am 80 years old and my end is not too far ahead. We are not 
here to beg. We Filipinos are hardworking people, we are only after 
``what is due to us.''
    The promise made by Franklin D. Roosevelt. Lord help us to open 
their eyes, soften their hearts, to clear their minds, and give us the 
recognition and justice we deserve.
    I am encouraged by the leadership of Congressman Filner, Senator 
Inouye, Senator Akaka, and Congressman Honda. I know that the Veterans' 
Affairs Committee will do the right thing and the Members who walk 
these halls will help us get he justice we deserve. I urge the 
Committee to support the passage of H.R. 760, the Filipino Veterans 
Equity Act of 2007.
    Thank you.

                                 <F-dash>
           Statement of Vanessa B.M. Vergara, Esq., Co-Chair,
            Filipino Civil Rights Advocates, Chicago Chapter
    Chairman Filner and Members of the Committee:
    Thank you for this opportunity to provide testimony to the House 
Veterans' Affairs Committee concerning an issue that is near and dear 
to my heart. My name is Vanessa Vergara and I am an attorney practicing 
law in Chicago. I am the Co-Chair of the Chicago Chapter of the 
Filipino Civil Rights Advocates (``FilCRA''). FilCRA is dedicated to 
protecting and promoting the civil rights of the Filipino community and 
is a proud partner in the National Alliance for Filipino Veterans 
Equity. For over 10 years, I have studied, written about and actively 
advocated on behalf of Filipino WWII veterans who have been wrongly 
deprived of veteran benefits to which they were entitled by virtue of 
their service in the U.S. Armed Forces. In 1997, I wrote ``An 
Assessment of U.S. Veteran Benefits for Filipino WWII Veterans'' 
published by Harvard University's Asian American Policy Review--the 
first academic article to specifically analyze veteran benefits policy 
relating to Filipino WWII veterans. For your reference, I am attaching 
a copy of my article as Exhibit 1 to my testimony.
    I first learned about the issue of Filipino WWII veterans in 1996, 
when I was a senior in college majoring in political science at Hamline 
University. In the fall of 1996, my university's political science 
department selected me to come to Washington, D.C. to study at American 
University and intern at the U.S. Department of Justice, Office of 
Legislative Affairs. At the time, I was also working on my Senior 
Honor's Thesis and was desperately in search of a topic. During my 
internship at the Justice Department, I met an individual who 
recommended that I study the story of Filipino veterans who served in 
the U.S. military during WWII and were stripped of their veteran 
benefits shortly after the war ended. He told me that no one had yet 
formally researched this issue. Although I prided myself on being a 
diligent student of American history, this was the first time I had 
ever heard that Filipinos served in the U.S. Armed Forces during WWII 
and that their veteran benefits were taken away from them by Congress. 
In fact, I had never heard of any instance in which the United States 
revoked veteran benefits to soldiers who honorably served in the U.S. 
military.
    Indeed, the history books I studied from my grade school years 
through college never once told the story of Filipinos who valiantly 
served in the U.S. military during WWII and were denied their rightful 
veteran benefits. While I was aware that the Philippines became a U.S. 
Commonwealth in 1898 as a result of the Spanish-American War, I never 
realized that over 200,000 Filipinos were inducted into the U.S. Armed 
Forces of the Far East (``USAFFE'') pursuant to an Executive Order 
issued by President Roosevelt on July 26, 1941:

          As Commander-in-Chief of the Army and Navy of the United 
        States, I hereby call and order into the service of the armed 
        forces of the United States . . . and place under the command 
        of a general officer, United States Army . . . all of the 
        organized military forces of the Government of the Commonwealth 
        of the Philippines.

    On the same day, General Douglas MacArthur was designated the 
Commanding General of the newly constituted United States Armed Forces 
of the Far East. Just one day after Japan bombed Pearl Harbor, Japan 
invaded the Philippines on December 8, 1941. I was also unaware that in 
1946--immediately following the end of WWII--Congress passed the 
Rescission Act which disqualified Filipino veterans who served in the 
U.S. Armed Forces during WWII from ``active service'' status, thereby 
excluding them from qualification for veteran benefits. The Rescission 
Act is the only instance in the twentieth century where Congress drew a 
distinction between veterans with regard to veteran benefits on the 
basis of how, where or why they served in the U.S. Armed Forces.
    Upon graduating from college and returning to my hometown of 
Chicago to attend law school at Northwestern University, I continued my 
involvement in local, grassroots efforts to help pass the Equity Act. 
My first experience actively advocating for the rights of Filipino WWII 
veterans took place when I was beginning law school at Northwestern. In 
August 1997, Senator Dale Bumpers of Arkansas, a distinguished graduate 
of Northwestern University School of Law, gave the welcoming 
convocation address to a room full of bright-eyed, eager first-year law 
students. Senator Bumpers spoke about his experiences as a veteran of 
WWII and how, after the war, he availed himself of the GI Bill which 
allowed him to come to Chicago to study law at Northwestern. After his 
speech, I spoke to Senator Bumpers about his experience fighting in 
WWII and if he was aware that Filipino WWII veterans who fought in the 
U.S. military were stripped of their veteran benefits. Having spent 
time in the Pacific war theater, he told me that he fought side-by-side 
with Filipinos during WWII but was not aware that Filipino veterans who 
served in the U.S. military were unable to receive veteran benefits as 
he did. I told Senator Bumpers about my article that had been recently 
published by Harvard University and whether he would consider becoming 
a cosponsor to the Equity Act. He asked me to send him my article and 
he would most certainly look into the issue. Two weeks later, I 
received a letter from Senator Bumpers thanking me for bringing the 
Equity Act to his attention and informing me that he had become a 
Senate cosponsor to the Equity Act.
    Since my days at Northwestern, I have continued to be actively 
involved in the Filipino community trying to promote awareness for the 
plight of Filipino WWII veterans and to help pass legislation that 
would finally give Filipino WWII veterans the veteran benefits to which 
they are entitled. Through these experiences, I have also had the great 
fortune of meeting many Filipino WWII veterans and their families from 
around the country, including Washington, D.C., California, New York, 
New Jersey, Pennsylvania, Virginia and Illinois. These veterans are 
heroes. I listen to their stories about when they were brave soldiers 
in their teens and 20's, what it was like to fight fearlessly in the 
face of terrible and oppressive conditions and of all the struggles, 
pain and sacrifice they endured during the war and brutal Japanese 
occupation. Many veterans suffered through treacherous military 
endeavors, such as the Bataan Death March and did so with great honor 
and valor during the grimmest moments of WWII. Most of the Filipino 
WWII veterans are now in their 80's and unfortunately, many live in 
poverty without the much-needed health and pension benefits afforded to 
their fellow American compatriots.
    Their memories of WWII and their important role in that cause of 
freedom are so vivid. Every time I meet a Filipino veteran, I am struck 
by the deep pride they have in their military service in the U.S. Armed 
Forces, the love they have for America and the enduring hope that 
lights their eyes that before their time in this world comes to an end, 
America will finally make good on its word and recognize their service 
in the U.S. military by providing veteran benefits that are at par with 
the American counterparts with whom they fought side by side.
    I also want you to know about Antonio Constantino--a Filipino WWII 
veteran who lives in public housing in Chicago. I met Mr. Constantino 
and his wife when my mother, sister and I were delivering senior gift 
baskets to needy Filipino seniors in the Chicagoland area this past 
Christmas. From 1943 to 1944, Mr. Constantino was in the guerilla 
forces, which in 1944 were absorbed into the U.S. Armed Forces of the 
Far East--51st Infantry Regiment P.A., 24th Infantry Division U.S. 
Army. Mr. Constantino heroically served in the U.S. Armed Forces of the 
Far East until 1946 when he received his discharge papers from the U.S. 
Army. From 1946 to 1949, Mr. Constantino then went on to serve in the 
New Philippine Scouts and similarly, his discharge papers from 1949 
state that he was discharged by the Army of the United States.
    I asked him what, if anything, he had heard during the war, 
regarding whether Filipino soldiers would receive veteran benefits for 
their service in the U.S. military. Mr. Constantino told me that during 
the war, he and his fellow soldiers heard repeated broadcasts on the 
airways by President Roosevelt who encouraged Filipinos to stand strong 
and fight side-by-side with Americans and that whatever benefits and 
pay American soldiers receive, Filipinos would also receive. President 
Roosevelt also said in his broadcasts that the pensions of Filipino 
soldiers would be the same as the pensions received by American 
soldiers. Mr. Constantino further told me that General Douglas 
MacArthur also told Filipino soldiers the same message relayed by 
President Roosevelt--that Filipino soldiers would receive the same 
pension and benefits as their American counterparts. Mr. Constantino 
explained that the worst part of the war was not the battles themselves 
but that Filipino soldiers who died fighting in the war received 
nothing in terms of veteran benefits. I asked if Filipino soldiers were 
offered life insurance and Mr. Constantino said that National Life 
Insurance was offered by the U.S. military during the war--but only for 
a limited time--and therefore, very few Filipino soldiers were actually 
able to sign up for this insurance. After the war, Mr. Constantino also 
saw many injured Filipino veterans who were denied hospital and other 
veteran benefits.
    As a veteran of WWII, Mr. Constantino came to the United States 
with his wife in 1992 pursuant to an immigration law that permitted 
Filipino WWII veterans to immigrate and naturalize to the United 
States. When he arrived in the United States, Mr. Constantino applied 
for veteran benefits but was told that he needed to be injured during 
the war to be eligible. Although Mr. Constantino suffers from a range 
of medical problems, because his disabilities are not war-related, he 
is deemed ineligible to receive a non-service connected disability 
pension. For veterans like Mr. Constantino, passage of the Filipino 
Veterans Equity Act of 2007 would mean that he could finally be 
considered for and receive a disability pension for his non-service 
connected disabilities as are American veterans with whom he served in 
the U.S. military. Such a pension would no doubt make a world of 
difference for Mr. Constantino and his wife who live on an extremely 
limited income as they try to make ends meet on a daily basis. I also 
ask you to consider that unlike most legislation, the cost of 
implementing the Filipino Veterans Equity Act of 2007 will only decline 
significantly over time. This simple fact is the result of the advanced 
age of the Filipino veteran population who pass away at a rate of 10 to 
15 per day.
    Almost exactly 61 years ago to this day and shortly after the 
conclusion of WWII, Congress passed the Rescission Act which provided 
that the heroic military service of Filipino veterans who served in the 
U.S. Armed Forces did not constitute ``active service'' needed to 
qualify for veteran benefits. For over 60 years, Filipino WWII veterans 
have fought for the equal benefits they earned in the battlefield as 
members of the U.S. military. With their advanced age and death rate of 
10 to 15 per day, time is of the essence for the aging Filipino WWII 
veterans.
    In February 1946, Congress had a choice to make as do you today. 
Today, you have the opportunity to correct a grave injustice against 
veterans who sacrificed life and limb as members of the U.S. Armed 
Forces during WWII. These veterans spilled their blood and sacrificed 
their lives in the most harrowing battles of WWII. Congress should pass 
the Filipino Veterans Equity Act of 2007 to reverse a longstanding 
injustice against Filipino WWII veterans by amending Title 38 of the 
U.S. Code, to deem certain service in the organized military forces of 
the Commonwealth of the Philippines and the Philippine Scouts to have 
been active service for the purposes of conferring veteran benefits. 
Please don't turn your back on these heroic veterans who selflessly 
gave the ultimate sacrifice for the freedoms we all enjoy today.

                               __________

[The attached article by Vanessa B.M. Vergara, ``Broken Promises and 
Aging Patriots: An Assessment of U.S. Veteran Benefits Policy for 
Filipino World War II Veterans,'' Asian American Policy Review, VII 
(1997): 163-182, is being retained in the Committee files.]

                                 <F-dash>
                Statement of Teresita Bautista, Member,
          Filipino Civil Rights Advocates, Oakland, California
    Honorable Bob Filner, Chairman of the House Veterans' Affairs 
Committee, and distinguished Members of the VA Committee:
    I am Teresita Bautista, a member of Filipino Civil Rights 
Advocates, and a resident of Oakland, California and the San Francisco 
Bay Area where the Filipino population is 400,000 strong. FilCRA is a 
member of the National Network for Veterans Equity (NNVE), and NNVE is 
a member of the National Alliance Filipino Veterans Equity. Our purpose 
is to finally reverse the injustice of the Rescission Act of 1946.
    I am writing to urge your support for H.R. 760, the Filipino WWII 
Veterans Equity Act of 2007.
    I am the daughter of a World War II veteran, Eutiquio Guillermo 
Bautista. His co-workers called him Tex. He passed during the holidays 
of 1984, between Christmas and New Year, just after his 75th birthday. 
He was one of the lucky ones to return to the U.S. in 1945 after having 
fought in the Philippines under U.S. command. By then he had met and 
married his wife, Florentina Cataag. Soon after in August 1946, I was 
born in his hometown of Aringay, La Union.
    My father and scores of others belonged to the First Filipino 
Infantry of the U.S. Army and fought unconditionally under the American 
flag in the Philippines to free all from Japanese tyranny and 
occupation. He, along with countless other unsung heroes, defended and 
fought tirelessly for democracy in the U.S. and in the world.
    After the end of the war, my mother and I traveled on the USS David 
Schenk, now dry-docked in the bay near Martinez, CA, to join him 
eventually in Oakland Chinatown, CA. Since the 1950s, my family has 
been active in the Rizal Post 598 and Auxiliary.
    My father asked to be buried in his U.S. Army uniform, a great 
testament to the way he felt toward the U.S. Because he was already 
living in the U.S. when he was recruited into the army, he was afforded 
U.S. citizenship, as were my mother and I, for his valor and commitment 
to defending the U.S. in the Pacific Rim.
    His contributions are no different from those few thousand Filipino 
WWII veterans, who remain without U.S. military recognition or full 
benefits, due to the Rescission Act of 1946.
    I appeal to the VA Committee to grant these brave men and women 
their rightful place alongside the U.S. veterans they fought with. They 
gave their all to live in a free world.
     I urgently request you pass H.R. 760.

                                 <F-dash>
     Statement of Jenny L. Batongmalaque, M.D., Executive Director,
                      Filipino Veterans Foundation
    I am Dr. Jenny Batongmalaque, a practicing geriatrician and the 
Executive Director of the Filipino Veterans Foundation, a charitable, 
501(c)3 organization. I am respectfully submitting my testimony on the 
current status of the Filipino American WWII veterans residing in the 
Los Angeles County. The facts and figures have been taken from a 10-
year longitudinal study following 300 Filipino WWII veterans in the 
cohort study group residing in the Los Angeles County within the span 
of 10 years from 1996 to 2006. The report has been published in the 
Weekend Balita in December 2006.
    The instruments used in the survey were the standard questionnaire 
forms used in conducting a comprehensive geriatric assessment used by 
the GRECC program of the VAMC-UCLA Consortium which covers five 
domains:

    1. physical status
    2. mental status
    3. psycho-social status
    4. support system and environmental check
    5. the value system.

    The second instrument used was the Quality of Life Assessment.
    The conclusions to these studies are as follows:

    <bullet>  Today, less than 5 percent are currently in the cohort 
study group. A third have been known to have died and two-thirds have 
returned to the Philippines.
    <bullet>  Profile of the Filipino WWII veteran residing in Los 
Angeles County: They come from all parts of the Philippines and speak 
different dialects and sub-languages. A third of them were members of 
the Philippine Commonwealth Army, and inducted into the United States 
Armed Forces in the Far East (USAFFE). They are the fastest 
disappearing group of cohorts in the study. The largest group are 
recognized regular Guerrillas, and less than a third belong to the New 
Philippine Scouts inducted post-war and deployed to Okinawa, Guam or 
Saipan. They are the younger age group.
      <bullet>  The average is 83 years. 40% reside alone in the United 
States, due to widowhood or their spouse has remained in the 
Philippines. 40% have their spouses here in the U.S., and 20% have 
live-in companions or care-providers.
      <bullet>  Their average Supplemental Security Income is $700 
monthly.
      <bullet>  They have multiple health problems. They take an 
average of 5 medications, had been brought to the ER by paramedics at 
least once, because of dizziness or falls, heart attacks or strokes. 
They have a home health nurse visiting them weekly upon discharge from 
the hospital.
      <bullet>  Inability in applying for disability veterans benefits 
claims because of the current existing public law that negates their 
service, and their conditions today are largely due to effects of their 
advanced age rather than service-connected disabilities.
      <bullet>  Access to Healthcare referrals and resources. Their 
Medicare-Medicaid health insurance provides them better access to 
hospitals and neighborhood physicians. But they prefer to be serviced 
by the VA to add merit to their claims. However, having non-service 
connected disabilities they have low or no priority at all.
      <bullet>  Lack of access to affordable housing placements. The 
rising rents in the Los Angeles County have forced them to regroup and 
stay temporarily in the livingrooms of friends. Their homelessness is 
not apparent in skid row but their frequent change of addresses and no 
telephone contact alerts the FVF of their housing problems. The list 
for seeking an affordable, assisted living facility is getting longer 
by the day.
      <bullet>  Concerns of living alone in the U.S. and meeting end-
of-life issues.
      <bullet>  Petitioning for their children to provide care and 
safety for them while in America. Because of language and culture, they 
would rather be cared for by those whom they can articulate their 
tangible and intangible needs. ``If I only can afford to pay for my 
health care in the Philippines, I would rather go home now.''

The Filipino Veterans Foundation, an advocacy, 501(c)3 charitable 
organization has delivered the following without public assistance so 
far:

    <bullet>  Screening an average of 20 claims a week being reviewed 
by our volunteer Advocates, Facilitators and Liaisons with the Veterans 
Service Officers at the County and State Dept of VA with some success 
(25%). The rest are pending claims (75%) due to the current public law.
    <bullet>  Organized the Veterans Center Association, a membership 
organization of more than 300 members affiliated to the FVF as direct 
beneficiaries for services as needed.
    <bullet>  Arranged for an average of 10,000 food bank distributions 
a year.
    <bullet>  Facilitated the establishment of the first Post-Traumatic 
Stress Disorder Support and Therapy group in Los Angeles County, 
conducted by the Medical and Mental Health providers of the VA at the 
FVF venue.
    <bullet>  Senior assessments of health database collected over 10 
years is extensive and detailed. Chronic conditions are as follows 
rated from most frequent:

      1. Arthritis
                                      7. Diabetes
      2. Hearing Impairment
                                      8. Prostate Disease
      3. Cataracts
                                      9. Cancer
      4. Heart Disease
                                     10. Alzheimer's Disease, early 
onset
      5. Hypertension
                                     11. Ulcers and GERD
      6. Pulmonary Disease
                                     12. Miscellaneous

    <bullet>  Establishing a network of veterans service organizations 
and medical service organizations.
    <bullet>  Promoting the preservation of Historical and Cultural 
Values where the Filipino soldier fought side by side with the American 
soldier:

      Four major events in the history of WWII are observed annually:

        <bullet>  Dec. 8, 1941: Outbreak of WWII in the Philippines
        <bullet>  April 9, 1942: Day of Valor, the Fall of Bataan
        <bullet>  July 26, 1941: The Establishment of the United States 
Armed Forces in the Far East
        <bullet>  October 20, 1944: Leyte Landing and the Liberation of 
the Philippines

    <bullet>  Memorials for the death of an Unknown Soldier and a 
veteran residing alone in the U.S., and known only to God, has been 
observed by FVF and VCA with little funds and fanfare, quietly 
obtaining an American burial flag for the family as a token of their 
lifelong struggle, and giving them the final salute in America.
    <bullet>  Gathering all widows, and sons and daughters of the 
Filipino WWII veterans to keep the flame for liberty and justice going, 
so that future generations will long remember the struggles of the 
Filipino-American WWII veteran in his old age, residing in America.
               GOALS OF THE FILIPINO VETERANS FOUNDATION
                        FOR 2007 AND THEREAFTER
1. Legislative Action
     <bullet>  A push for full equity before the last Filipino WWII 
veteran dies in our midst.
     <bullet>  To include the contribution of the Filipino WWII soldier 
in the annals of American history in public school books so that no 
child is left ignorant of it.
2. Safe Haven
     <bullet>  Building the BAYANI Center, a Heroes Center, a holistic 
assisted living facility, in the City of Los Angeles, where the 
predominant number of surviving Filipino-American WWII veterans reside. 
A Heroes Hall with historical artifacts and memorabilia will add to the 
attraction of the younger generation to interact with the surviving 
heroes. This venue is open to all disadvantaged elderly individuals who 
have been exposed to an armed global conflict in their early life 
without preference to race, nationality, belief, culture, language or 
gender.
3. Raise Capital Funds
     <bullet>  Seek for Public and Private Support to continue the 
mission of the Filipino Veterans Foundation to improve the quality of 
life of disadvantaged seniors and veterans, regardless of race, 
nationality, belief, culture, language or gender.
     <bullet>  In their level of understanding in language and culture.
     <bullet>  While attending to the needs.
4. Network with the Veterans Memorial Hospital
     <bullet>  Where we can secure the continuity of care in the 
Philippines for those who have opted to return to their homeland.

                                 <F-dash>
                   Statement of Hon. Daniel K. Inouye
                a U.S. Senator from the State of Hawaii
    Thank you for your invitation to come before your Committee and to 
speak in strong support for a legislative measure that you, Mr. 
Chairman, and I have introduced for the last several Congresses. I 
deeply regret that my schedule does not allow me to be physically 
present at your hearing. However, I wish to commend you and Members of 
the Committee for holding this hearing on the Filipino Veterans Equity 
Bill. It is my sincere hope that we will be successful in the passage 
of the Equity Bill during the 110th Congress.
    Many of you are aware of my continued advocacy on the importance in 
addressing the plight of the Filipino World War II veterans. As an 
American, I believe the treatment of Filipino World War II veterans is 
bleak and shameful. The Philippines became a United States possession 
in 1898, when it was ceded by Spain, following the Spanish-American 
War. In 1934, the Congress enacted the Philippine Independence Act, 
Public Law 73-127, which provided a 10-year timeframe for the 
independence of the Philippines. Between 1934 and final independence in 
1946, the United States retained certain powers over the Philippines, 
including the right to call military forces organized by the newly 
formed Commonwealth government into the service of the United States 
Armed Forces.
    The Commonwealth Army of the Philippines was called to serve with 
the United States Armed Forces in the Far East during World War II 
under President Roosevelt's July 26, 1941 military order. The Filipinos 
who served were entitled to full veterans' benefits by reason of their 
active service with our armed forces. Hundreds were wounded in battle 
and many hundreds more died in battle. Shortly after Japan's surrender, 
the Congress enacted the Armed Forces Voluntary Recruitment Act of 1945 
for the purpose of sending Filipino troops to occupy enemy lands, and 
to oversee military installations at various overseas locations. These 
troops were authorized to receive pay and allowances for services 
performed throughout the Western Pacific. Although hostilities had 
ceased, wartime service of these troops continued as a matter of law 
until the end of 1946.
    Despite all of their sacrifices, on February 18, 1946, the Congress 
passed the Rescission Act of 1946, now codified as Section 107 of Title 
38 of the United States Code. The 1946 Act deemed that the service 
performed by these Filipino veterans would not be recognized as 
``active service'' for the purpose of any U.S. law conferring ``rights, 
privileges, or benefits.'' Accordingly, Section 107 denied Filipino 
veterans access to health care, particularly for non-service-connected 
disabilities, and pension benefits. Section 107 also limited service-
connected disability and death compensation for Filipino veterans to 50 
percent of what their American counterparts receive.
    On May 27, 1946, the Congress enacted the Second Supplemental 
Surplus Appropriations Rescission Act, which duplicated the language 
that had eliminated Filipino veterans' benefits under the First 
Rescission Act. Thus, Filipino veterans who fought in the service of 
the United States during World War II have been precluded from 
receiving most of the veterans' benefits that had been available to 
them before 1946, and that are available to all other veterans of our 
armed forces regardless of race, national origin, or citizenship 
status.
    The Filipino Veterans' Equity Act, which I introduced in the U.S. 
Senate on January 4, 2007, would restore the benefits due to these 
veterans by granting full recognition of service for the sacrifices 
they made during World War II. These benefits include veterans' health 
care, service-connected disability compensation, non-service connected 
disability compensation, dependent indemnity compensation, death 
pension, and full burial benefits.
    Throughout the years, I have sponsored several measures to rectify 
the lack of appreciation America has shown to these gallant men and 
women who stood in harm's way with our American soldiers and fought the 
common enemy during World War II. It is time that we as a Nation 
recognize our longstanding history and friendship with the Philippines. 
Of the 120,000 that served in the Commonwealth Army during World War 
II, there are approximately 60,000 Filipino veterans currently residing 
in the United States and the Philippines. According to the Department 
of Veterans Affairs, the Filipino veteran population is expected to 
decrease to approximately 20,000 or roughly one-third of the current 
population by 2010.
    Heroes should never be forgotten or ignored; let us not turn our 
backs on those who sacrificed so much. Let us instead work to repay all 
of these brave men for their sacrifices by providing them the veterans' 
benefits they deserve.

                                 <F-dash>
                     Statement of Hon. Darrell Issa
       a Representative in Congress from the State of California
    Thank you for holding this hearing here today on an issue that is 
dear to both of us. I know that you have put a lot of effort over the 
years into advocating for the Filipino veterans to achieve full equity. 
I have appreciated working with you as the fellow cochair of the U.S.-
Philippines Friendship Caucus to move this effort forward in the House.
    Today, I am here to speak in support of H.R. 760, the Filipino 
Veterans Equity Act, which the Chairman and I have sponsored over the 
last two Congresses. It is unfortunate that, 62 years after World War 
II, we are still holding hearings, debating whether we should give 
these brave men the rights and benefits that were promised by our 
government.
    The Filipino military was conscripted to fight under General 
Douglass MacArthur after the Japanese attacks on Pearl Harbor. These 
Filipino soldiers fought, and in many instances gave their lives, side 
by side with Americans against the might of the Japanese empire. In the 
Battle of Bataan, these soldiers were cut off from all sources of 
assistance, yet they stood strong against a ruthless enemy for more 
than 3 months. These men fought to protect their native land, which was 
also American soil at that time. In defense of their homeland they 
displayed a strength of spirit that was not destroyed, despite the 
fiercest effort from the enemy. In the aftermath of the Battles of 
Bataan and Corregidor many of these brave soldiers then suffered 
through the atrocity of the Bataan Death March, which took more than 
10,000 Filipino and American soldiers' lives.
    The men seeking equity today are of that great generation that 
turned back the tide of tyranny and oppression that threatened to 
overwhelm the entire world. They were promised full equity by our 
government, only to be denied it by Congress with the passage of the 
Rescission Act of 1946. In 1946, President Harry Truman stated, ``I 
consider it a moral obligation of the U.S. to look after the welfare of 
the Filipino Army veterans.''
    By passing the Filipino Veterans Equity Act, the House will go a 
long way toward finally fulfilling our stated obligation. The 
Department of Veterans Affairs estimates that there will only be 20,000 
living World War II Filipino Veterans by 2010, and only about 10,000 
that this legislation would need to cover. With the number of veterans 
growing smaller every year, time is truly of the essence.
    I look forward to continuing to work with the Chairman on this 
legislation, and I thank him for having a hearing on it so early in 
this new session.

                                 <F-dash>
                      Statement of Hon. Tom Lantos
       a Representative in Congress from the State of California
    Mr. Chairman, thank you for convening this important hearing on 
this long overdue legislation. You have long been the leading proponent 
of a bill that will bring full and fair benefits to all veterans who 
fought for our country in World War II. Filipino veterans should be no 
different than veterans who were born in the United States, if you 
fought in the defense of freedom over tyranny, you should receive all 
of the benefits afforded to you.
    Mr. Chairman, my constituents are all too aware of the egregious 
slights accorded to them since the end of WWII and are delighted that 
you are at the helm of this important committee. I have the privilege 
of representing one of the largest Filipino-American populations 
outside of Manila. I cannot count the number of times people have come 
up to me in Daly City, in Pacifica or San Mateo and told me their story 
of hardship or their family members' lack of care because of a simple 
designation that was put into law separating one class of Filipino 
veteran from another.
    The Rescission Acts of 1946 are indeed a black mark on this body 
and it is time to remedy this historic injustice. For too long, there 
have only been piecemeal attempts to overcome the Rescission Acts. Two 
years after the initial legislation denying equality to all veterans, 
there was an attempt at redemption by constructing and equipping a 
hospital in Luzon and reimbursing the Republic of the Philippines for 
care and treatment of all of those who fought. Budget concerns 
gradually diminished the payments for this hospital.
    Mr. Chairman, since you were elected in 1992, you shined the 
legislative spotlight on the full scope of this injustice. In the 109th 
Congress we passed a resolution that recognized and honored the 
Filipino World War II veterans for their defense of democratic ideals 
and their important contribution to the outcome of World War II. Now 
this Congress should bestow upon those who were ready to give the 
ultimate sacrifice the services that all other veterans enjoy. Those 
brave soldiers who served in the Commonwealth Army of the Philippines 
or the Recognized Guerrilla Forces should receive the same high quality 
care that those who served in the 101st Airborne do.
    I understand that for every benefit given there is a cost but their 
brave actions helped win a war. I recognize that the Committee faces 
many challenges to adequately provide for all veterans, but I cannot 
accept that our country does not have the resources to care for those 
who cared for us. It is our moral duty to find a way to pay for these 
necessary services.
    Mr. Chairman, I appreciate you allowing me to voice my opinion on 
this singularly important issue and all of the hard work and leadership 
you have shown. As those of us get older who can remember World War II, 
it is long past time to provide equal treatment to all veterans and 
pass the Filipino Veterans Equity Act of 2007.

                                 <F-dash>
              Statement of Hon. Juanita Millender-McDonald
       a Representative in Congress from the State of California
    Mr. Chairman,
    Thank you for giving me the privilege of addressing the Committee 
on Veterans' Affairs today. I am proud to say I have fought for this 
cause since the 104th Congress and I am delighted that Chairman Filner 
and the Committee has made it a top priority this year.
    We are here because the Committee is examining H.R. 760, 
legislation to reward World War II Filipino veterans with full benefits 
rights under the Department of Veterans Affairs. It cannot happen soon 
enough. There is a declining population of World War II Filipino 
veterans and each hero deserves the recognition they earned through 
blood and sacrifice.
    More than 100,000 Filipinos volunteered when President Roosevelt 
issued an Executive Order calling members of the Philippine 
Commonwealth Army into the service of the United States Armed Forces of 
the Far East in 1941. Under this order, Filipinos were entitled to full 
veterans' benefits.
    The United States Armed Forces of the Far East fought to reclaim 
control of the entire Western Pacific. Filipinos, under the command of 
General Douglas MacArthur, fought on the front lines of the Battle of 
Corregidor and at Bataan. They served in Okinawa, on occupied mainland 
Japan, and in Guam. They were part of what became known as the Bataan 
Death March, and were held and tortured as prisoners of war. Through 
these hardships, the men of the Philippine Commonwealth Army remained 
loyal to the United States during the Japanese occupation of the 
Philippines, and the valiant guerrilla war they waged against the 
Japanese helped delay the Japanese advance across the Pacific.
    Despite all of these sacrifices, Congress enacted the Rescission 
Act of 1946, declaring the service performed by the Philippine 
Commonwealth Army veterans as not ``active service,'' thus unjustly 
denying many benefits to which these veterans were rightfully entitled.
    For many years, Filipino veterans of World War II, who are now in 
their seventies and eighties, have sought to correct the injustice 
caused by the Rescission Act by seeking equal treatment of their 
valiant military service in our Armed Forces. They stood up to the same 
aggression that American-born soldiers did, and many Filipinos 
sacrificed their lives in the war for democracy and liberty.
    Heroes should never be forgotten, so let us not turn our backs on 
the Filipino veterans who sacrificed so much for our country. Let us 
finally pass H.R. 760 and repay all the brave Filipino veterans for 
their sacrifices by providing them with benefits that are long overdue.
    Thank you again, Mr. Chairman.

                                 <F-dash>
     Statement of Brig. Gen. Tagumpay A. Nanadiego (Ret.), Orange, 
                               California
    Mr. Chairman, Members of the Veterans' Affairs Committee, ladies 
and gentlemen, good morning:
    I am a retired general of the Armed Forces of the Philippines, now 
88 years old and a USAFFE-Guerrilla Veteran of WWII. I was a 22-year-
old enlisted man, a private in the Reserve Force of the Philippine 
Commonwealth Army when I reported for active duty at Camp Wilhelm, 
Lucena, Tayabas, Philippines on December 16, 1941, exactly 8 days after 
the bombing by Japanese planes of Pearl Harbor in Hawaii and United 
States Army Forces in the Far East (USAFFE) pursuant to the Military 
Order of President Franklin Delano Roosevelt of July 26, 1941.
    Mr. Chairman and Members of the Committee, may I state at this 
juncture that this is the 3rd time that I have been invited to the 
hearings on this important subject and I related our sad stories, the 
experience and torture that we endured in the infamous 65-mile Death 
March and the hell that was Camp O'Donnell. I related these in detail 
in my article which I wrote for the Stars and Stripes of April 1996. 
After the liberation of the Philippines, I returned to military control 
and I became a member of the Board of Review for the Chief of Staff of 
the Philippine Army on War Crimes, and let me tell you that Colonel 
Ito, the Camp Commander at Camp O'Donnell, and General Homma, who 
ordered the infamous Death March, paid for their lives by their death 
by hanging by order of the Military Commissions under the doctrine of 
command responsibility.
    In my previous testimonies before like committee, I invited and 
called attention to the injustice done to the Filipino veterans of 
World War II by the Rescission Acts of 1946. On December 8, 1941, the 
enemy bombed Pearl Harbor and the United States military and naval 
installations in the Philippines, thus bringing the war to the 
Philippine shores. Americans and Filipinos were then thrown into battle 
against numerically superior enemy forces and ``for 98 historic days 
with valor unsurpassed in world history they stood their ground against 
vastly superior forces.'' Bataan finally fell on April 9, 1942, and 
together, Americans and Filipinos went through the agony of defeat. 
They walked together in the ``65-mile Bataan March of Death'' under the 
cruel April sun suffering from thirst and hunger as they walked from 
Mariveles, Bataan to San Fernando, Pampanga.
    The war was won, the Philippines was liberated and the Americans 
enjoyed the thrill and glory of victory. The Filipino veterans, on the 
other hand, have continued to suffer. The 79th Congress of the United 
States enacted the Rescission Act of 1946 which declared that the 
services of the Filipino soldiers who fought side by side with the 
Americans and suffered the 65-mile Bataan March of Death, ``shall not 
be deemed to have been active military, naval or air service for 
purposes of any law of the United States conferring rights, privileges 
or benefits,'' except those who were killed, died or maimed or 
separated for service-connected ailments. What the Rescission Act 
declared in effect was that Filipino veterans who are alive today and 
in fairly good health at age 74 and above were not with the Americans 
in the Bataan campaign, did not walk with the Americans from starvation 
and disease--and are not, therefore, entitled to the privileges and 
benefits which the Americans and other nationals of foreign countries 
who fought under the American flag have been enjoying.
    Today, I appeal to you and hearken to the words of President 
William J. Clinton in his proclamation of October 1996, honoring the 
Filipino veterans of World War II, portions of which read:

          ``During the dark days of World War II, nearly 100,000 
        soldiers of the Philippine Commonwealth Army provided a ray of 
        hope in the Pacific as they fought alongside United States and 
        Allied forces for four long years to defend and reclaim the 
        Philippine Islands from Japanese aggression. Thousands more 
        Filipinos joined U.S. Armed Forces immediately after the war 
        and served in occupational duty throughout the Pacific Theater. 
        For their extraordinary sacrifices in defense of democracy and 
        liberty, we owe them our undying gratitude.
          Valiant Filipino soldiers fought, died, and suffered in some 
        of the bloodiest battles of World War II, defending beleaguered 
        Bataan and Corregidor, and thousands of Filipino prisoners of 
        war endured the infamous Bataan Death March and years of 
        captivity. Their many guerrilla actions slowed the Japanese 
        takeover of the Western Pacific region and allowed U.S. forces 
        the time to build and prepare for the allied counterattack on 
        Japan. Filipino troops fought side-by-side with U.S. forces to 
        secure their island nation as the strategic base from which the 
        final effort to defeat was launched.''

    Thank you!

                               __________

[The attached article by Tagumpay A. Nanadiego, ``Camp O'Donnell: A 
Four-Month Nightmare in the Philippines.'' The Stars and Stripes 14 
April 1996: 10, is being retained in the Committee files.]

                                 <F-dash>
                 Statement of Lillian Galedo, Co-Chair,
             National Alliance for Filipino Veterans Equity
    My name is Lillian Galedo. I am the Co-chair of the National 
Alliance for Filipino Veterans Equity (NAFVE) a recently formed 
national coalition of organizations and individuals who have fought for 
the past 12 years for the right of Filipino World War II veterans to 
equal status in the eyes of the U.S. Government. I am also the 
Executive Director of Filipinos for Affirmative Action, in Oakland, 
California.
    It is the National Alliance's fervent hope that the U.S. Congress 
will finally correct a 60+-year injustice, and restore to Filipino WWII 
veterans their rightful claim to U.S. veterans' status. For the past 
six decades these brave veterans have sought to end the discrimination 
they have endured and be recognized as equal to all other WWII veterans 
who fought under U.S. command.
    The Filipino community, which is now 2.5 million strong and has a 
100+ history here in the U.S., has made this issue a priority since 
these veterans were finally granted the ability to apply for U.S. 
citizenship in the early 1990's.
    Historically, WWII is remembered as ``the good war'' against the 
threat of fascism. As a nation Americans remain ignorant of the Pacific 
`theater' of WWII against Japan. In the national `minds eye' we see 
American combatants in the Pacific, and blot out the contributions of 
the thousands of Filipinos and Pacific Islanders who fought and died on 
this front.
    Americans have very little appreciation for the debt we owe the 
Filipino people. As a colony of the U.S., Filipinos were inducted into 
the U.S. military by Executive Order. They fought alongside Americans, 
under the same commander, for the same reasons. The most sustained 
campaign against Japanese tyranny was fought in the Philippines. The 
Filipino people's resistance to Japan's invasion and to the subsequent 
occupation of the Philippines provided the U.S. the `breathing room' to 
rebuild American forces after Pearl Harbor and rethink our war 
strategy. The valiant resistance by Filipinos forced the Japanese to 
maintain resources in the Philippine occupation, weakening Japanese 
ability to defend themselves in other parts of the Pacific.
    Risking everything so we in the U.S. wouldn't experience the terror 
of war on our soil, the Filipino military--regular and guerrilla--
fought against overwhelming odds to spare Americans the agony of war. 
Because Filipinos fought the Japanese so courageously in Luzon, 
Americans did not have to fight the war in Monterey, San Francisco, and 
Los Angeles.
    The cost of war for the Filipino people was 300,000 dead, a 
thoroughly damaged infrastructure, and a devastated economy. For their 
sacrifices, the U.S. Congress in 1945 legislated that the service of 
Filipinos did not constitute service in the U.S. military!
    Today Filipino WWII veterans are in their late 70's and 80's, and 
living in poverty; unappreciated for their service to preserving 
democracy in the U.S. Their substandard living conditions are 
compounded by separation from a supportive family network, poor health, 
and in some cases depression.
    What price freedom?
    The Filipino community's struggle to correct this injustice has 
been met year after year with false-concerns for the financial impact 
of `doing the right thing.' How do we place a price tag on our freedom? 
How in a period of patriotism, and increased military spending, can 
Americans turn our backs on Filipino soldiers who displayed supreme 
patriotism? Surely, a government that appreciates the fact that America 
remained a free country after WWII will find the resources to 
compensate those who helped make it possible. Given the advanced age of 
the veterans and the high rate of deaths that is occurring, we are 
anxious to correct this injustice while there is a significant number 
of veterans to realize this victory.
    We urge the 110th Congress to grant full military status, 
entitlement to the same benefits that other U.S. veterans receive, and 
the recognition of the role Filipinos played in preserving American 
democracy, by passing H.R. 760.

                                 <F-dash>
                 Statement of Ernesto G. Ramos, Chair,
    National Federation of Filipino American Association, Region IV
    I am thankful to be able to provide this testimony--as the proud 
son of the late Teofilo Ramos, a WWII veteran and Prisoner of War. The 
following is a recollection from the memoirs of my mom and my uncles--
and the soldiers who fought with my dad. Ironically, my dad seldom 
talked about his ordeal during that war. It may have been because his 
story was too cruel and too agonizing to be told to us, his children.
    My dad was born on December 28, 1903. But on July 28, 1941--as a 
strapping 37-year head schoolteacher in the province of Pangasinan--my 
dad pledged allegiance to the flag of the United States of America upon 
orders of a certain Major Lapham, who called to duty thousands of 
Filipinos across the central Luzon under the aegis of then-General 
Douglas MacArthur, who was designated by the U.S. War Department as 
Commander of the U.S. Armed Forces in the Far East (USAFFE).
    General MacArthur and Captain Lapham sworn-in my dad and hundreds 
of his students into the U.S. Armed Forces to implement the Executive 
Order handed down by then-President Franklin Delano Roosevelt on July 
26, 1941 with these words:

          ``As Commander-in-Chief of the Army and Navy of the United 
        States, I hereby call and order into the service of the Armed 
        Forces of the United States . . . all organized military forces 
        of the Government of the Commonwealth of the Philippines.''

    That fateful day--July 28, 1941--my dad and about 120 of his 18-
year-old students became soldiers of the United States Armed Forces--
with all the rights and privileges accruing thereto. He led this band 
of young soldiers--fighting side by side with their American comrades-
in-arms across the hills and dales, rivers and rice fields of Central 
Luzon--and into Bataan and Corregidor.
    Having fought courageously all over Central Luzon, my father was 
captured--along with two of his bodyguard soldiers--on June 17, 1943, 
when he furtively visited our family in the barrio of our town. The 
three were incarcerated under the Japanese Kempetai (the Japanese 
torture army)--and subjected to extreme conditions for some nine (9) 
months--with water torture, floggings and beatings and unimaginable 
sufferings and deprived of food, except water and soupy rice. The 
Japanese intelligence officers and Kempetai interrogators wanted to 
extricate from my dad the whereabouts and names of American officers 
(Col. Tucket, Col. King and Major Lapham--among them) and of his 
Philippine Scouts, who escaped from the Fall of Bataan and Corregidor 
to continue the fight.
    On March 15, 1944--the Japanese Kempetai brought my dad and his two 
soldiers on a carabao-driven cart to the town cemetery. At dusk that 
day, these two soldiers were beheaded in front of my dad--most 
assuredly, to goad him into confessing the names and whereabouts of 
American officers and members of his Philippines Scouts contingent. 
Though emaciated and reduced to a mere 82-pound weakling, my dad made 
his peace with God, prepared to meet his imminent death and yet 
determined that he was not going to give in and divulge anything about 
his comrades-in-arms. Then--as if by an act of Divine Intervention--
severe thunder and lightning ensued followed by torrential rains--and 
the Kempetai were forced to bring my dad back to his prison-dungeon, 
leaving the severed heads and mutilated bodies of his two soldiers 
strewn on the cemetery grounds.
    Unable to draw from my dad the confession they thought they'd get--
and troubled by his seeming uselessness, the Japanese doctor and his 
assistants diagnosed my dad's health that he was going to die anyway. 
They called my mom to pick him up from his prison--either to prepare 
him for his eventual death or perhaps nurse him back to health, which 
was then unlikely. My mom and my uncles gingerly picked my dad from 
prison--and because our hamlet was swarming with many Japanese soldiers 
and their collaborators, they went straight for the hills under cover 
of darkness, dodging everything through thickets of tall grass across 
farmlands for two nights. They settled some 60 miles west of our town 
in a nondescript wooded hamlet. Shortly thereafter all of his children 
were fetched by my uncles, following the same hideous routes. There in 
those hills we lived to await war's end--with the kindness of folks in 
that hamlet.
    Amidst those harrowing times, my dad was raring to join his 
soldiers and his willpower was strong enough. Then one night a platoon 
of Philippine scouts/guerrillas picked him up and brought him to the 
camp of Major Lapham to make his report on the strength of the Japanese 
Army in Pangasinan--particularly in the towns of Binalonan, Pozzurubio 
and Asingan where remnants of General Tojo's Japanese Elite Brigade 
remained--not too far from the prison camp in a nearby Nueva Ecija town 
where some 500 American soldiers from Bataan and Corregidor were 
imprisoned, and were being readied for transfer to the factories in 
Japan.
    He was nursed back to health--and continued to fight and lead his 
soldiers in countless skirmishes against the vastly armed Japanese 
soldiers. He served under the command of Major Lapham for many days and 
many months then--until my dad was ordered to pull together a special 
contingent of American and Filipino soldiers to pave the way for the 
eventual landing of General MacArthur on Pangasinan's Lingayen Gulf on 
January 9, 1945.
    While doing his duty as a soldier under the American flag, my dad 
remained ever optimistic. He also believed in the genuine character of 
America as a nation, firm in his faith that President Roosevelt would 
make good his promise to recognize the service of my dad and thousands 
of other Filipino soldiers, who like him served willingly and 
courageously--above and beyond the call of duty.
    My dad never lost faith in America. In fact, he came to America 
many times at a time when his three children immigrated to America as 
professionals. And in 1982 he was very proud indeed to be sworn in as a 
U.S. citizen, along with my mom, by none other than then-U.S. Senior 
District Court Judge Abraham Lincoln Marovitz at Chicago's Dirksen 
Federal Building. Judge Marovitz was a fellow soldier, who held the 
rank of a U.S. Army corporal, and accompanied General MacArthur when he 
landed on Lingayen Gulf.
    Needless to say, the reunion of these two soldiers in Judge 
Marovitz's chambers was a sight to behold! And my mom and we their 
children couldn't have been any prouder when they embraced each other--
grateful that together they came out of that horrible war alive--with 
their humanity intact and a greater appreciation that their friendship 
was again revisited.
    Even while he was dying on January 20, 1993, my dad was hopeful 
that America will do right by his fellow comrades-in-arms with these 
words: ``I just hope that before I die, the injustice suffered by my 
fellow soldiers will be corrected.'' But he died January 25, 1993--a 
broken man, deeply saddened because America reneged on its promise to 
him and thousands of his fellow soldiers--with the grim specter of the 
1946 Rescission Act still hanging over the heads of the remaining WWII 
veterans fading away at a fast clip of 8 to 10 soldiers a day.
    Accordingly, thanks to you, Mr. Chairman--the passage of the WWII 
Veterans Equity Act evoked by your H.R. 760 and S. 57, its companion 
bill filed by Senator Inouye in the Senate, will truly hasten the day 
of redemption that will right the wrong perpetrated against my dad's 
fellow soldiers--and their comrades who have passed on--when the 79th 
U.S. Congress passed that infamous Rescission Act of 1946, virtually 
eliminating benefits for our WWII Filipino veterans, shaming their 
years of service as if they were all expendable and bereft of the honor 
and gratitude with which brave soldiers are usually acknowledged and 
honored.
    Leaving no wrong impression upon America and the world about the 
untold casualty unleashed upon the Philippines for being then a 
territorial commonwealth of the United States of America, President 
Roosevelt nobly recognized the loyalty and heroism of Filipino soldiers 
and their countrymen when he signed on June 15, 1944, the Senate Joint 
Resolution #93 with the following words:

          ``We are ever mindful of the heroic role of the Philippines, 
        their people and their soldiers in the present conflict. Theirs 
        is the only substantial population under the American flag to 
        suffer lengthy invasion of the enemy.''

    Against this backdrop, therefore, there is no reasonable doubt for 
the current 110<SUP>th</SUP> Congress to abrogate its responsibility 
and lose a historic opportunity to right the wrong perpetrated against 
our WWII Filipino veterans. These remaining soldiers are in the 
twilight of their years. In a few short years, they will just be a 
fading memory.
    To me--the proud son of the late Teofilo Ramos, a brave warrior of 
WWII and a braver POW, and to all the sons and daughters and 
compatriots of these veterans--we cannot and we will not ignore this 
grave injustice that America had done to them. We ask of you, 
therefore, Mr. Chairman and distinguished Members of this august 
Veterans' Committee, to help us remind and sear America's collective 
memory once again with the sacrifices of these brave soldiers, who at 
the prime of their lives put themselves in harm's way so that America's 
quest for peace and the triumph of American democracy would reign 
supreme.
    With history as our judge--and the quest for simple justice our 
guide--our WWII Filipino veterans are no less deserving than any group 
of U.S. veterans, who fought and served and died under the glorious 
flag of the United States of America.
    I urge you--Mr. Chairman--to right this wrong. I pray that, under 
your leadership, the 110th Congress will finally pass the WWII Filipino 
Veterans Equity Act.
    Thank you--Mr. Chairman and Members of the Committee. God bless 
you!

                                 <F-dash>
              Statement of Hon. Robert C. ``Bobby'' Scott
        a Representative in Congress from the State of Virginia
    Mr. Chairman, Ranking Member Buyer, I am truly pleased that you 
have taken the initiative to hold hearings on this important issue. As 
the only Member of Congress of Filipino ancestry, I am honored to come 
before this Committee to present my views on this ongoing injustice. 
President John F. Kennedy once said, ``A nation reveals itself not only 
by the men it produces, but also by the men it honors, the men it 
remembers.'' H.R. 760, the Filipino Veterans Equity Act of 2007, will 
finally honor the veterans of World War II that have up to this point 
been forgotten.
    Filipino veterans of World War II have for too long been denied the 
benefits that were promised them by the United States. Based on 
estimates from the U.S. Department of Veterans Affairs and the 
government of the Philippines, there will be less than 20,000 Filipino 
veterans of World War II living in the United States and in the 
Philippines this year. Speedy passage of H.R. 760 is critical because 
we are losing more and more Filipino veterans of World War II to the 
advances of age each day.
    On July 26, 1941, as it became increasingly likely that the United 
States would enter World War II, President Franklin D. Roosevelt issued 
an order to draft some 120,000 soldiers of the Philippine Commonwealth 
Army, who at the time were U.S. nationals, into the U.S. Armed Forces. 
These drafted Filipino soldiers fought on our behalf with the 
expectation that they would be entitled to the same benefits as any 
other member of the U.S. Armed Forces. These soldiers showed extreme 
courage at the battles of Bataan and Corregidor, fighting side-by-side 
with American soldiers. In 1946, President Harry S. Truman cited that 
during the War, Philippine Army veterans ``fought with gallantry and 
courage under the most difficult conditions.'' President Truman 
declared that it was a ``moral obligation of the United States to look 
after the welfare of the Philippine Army veterans.'' Unfortunately, 
President Truman's promise remains unfulfilled. In 1946, Congress 
withdrew full benefits for Filipino veterans when the Philippines 
became an independent nation. Now, 60 years later, our Filipino 
veterans are still waiting to see those promises fulfilled.
    We saw some progress in 2003 when we passed the Veterans Benefits 
Act, which finally extended V.A. medical care to 8,000 Filipino 
veterans living in the United States and made the New Philippine Scouts 
living in the U.S. eligible for burial in V.A. national cemeteries. But 
this was only the first step.
    The people and the Federal Government of our great nation are 
indebted to the nearly 120,000 Filipinos who fought against tyranny in 
the Pacific in World War II for their extraordinary sacrifices. We are 
now approaching 62 years since the War in the Pacific ended and the 
Filipinos who fought under the command of U.S. generals and alongside 
American soldiers are still waiting to receive their rightfully 
deserved benefits.
    I commend this Committee for holding hearings on this important 
piece of legislation that has been introduced in the last several 
Congresses. I would like to personally acknowledge Chairman Filner, 
Congressman Darrell Issa, the Chairman of the Congressional Asian and 
Pacific Islanders Caucus Congressman Mike Honda, and all the other 
cosponsors of H.R. 760 for their diligence--not only in this Congress, 
but in the previous Congresses--in building support for and educating 
our colleagues about the importance of this legislation to right this 
terrible injustice.
    I hope that this Committee will soon favorably report on H.R. 760 
so that this Congress can finally provide the long awaited benefits 
that our Filipino veterans rightly deserve. Thank you again for 
inviting me here this morning to testify before this distinguished 
Committee.

                                 <F-dash>
  Statement of Jaymee Faith Sagisi, Student Action for Veterans Equity
    Greetings to you Chair Filner and the Members of the Veterans' 
Affairs Committee.
    Thank you for the opportunity to testify today and for your 
astounding leadership, Representative Filner, in continuing to move 
this significant issue forward.
    I am here to testify about the one thing that brings us all 
together today for this momentous, yet long overdue event--that one 
common thread that binds us all together is service.
    As you have heard the remarkable stories of our Filipino WWII 
veterans, they shared their individual recollections of their service. 
It was their service that stopped the Japanese imperialist and 
guaranteed victory in the Philippines, a then-existing territory of the 
United States. It is their service that still goes unrecognized.
    And today, it is your sense of civil service to listen to us 
constituents and do what is right. I urge you to reflect on the values 
that brought you to become civil servants and vote your conscience.
    In this same spirit of service, I am here on behalf of the students 
and youth, to testify to the youth's relentless service to this cause 
of winning equity for our brave elders--both men and women, who took it 
upon themselves to defend the islands against violent occupation when 
they were our same age.
    As many of you already know, youth and students have played crucial 
roles in advancing social justice and fighting for civil rights. The 
voting block from the past election shows a galvanizing younger voting 
base with greater interests toward politics. As part of this base, the 
Student Action for Veterans Equity, also known as SAVE, has tried to 
mobilize youth in high schools, colleges and universities around the 
issue of full equity.
    In 2002, SAVE was established and started as the youth sector of 
the National Network for Veterans Equity. Later, we became our own 
independent coalition (a sister coalition to NNVE) to focus solely on 
raising awareness among youth and students. At our height, we had 
member colleges from all over the nation, including but not limited to 
colleges in New York, Texas, Illinois, Washington, Hawaii, Virginia, 
Maryland and California. We have been able to accomplish many things to 
advance the fight for equity. We established the Brown Ribbon Campaign, 
a national campaign for veterans' equity, which we launched in 2003. We 
hosted a West Coast Summit for high school and college students 
primarily concentrated in institutions all over California, in Nevada 
and in Washington. We host national vigils and every year since our 
establishment, we host a week of action, commemorating the military 
order of President Roosevelt dated July 26, 1941, in which over 200,000 
Filipino WWII soldiers were inducted under U.S. forces.
    Just this past 109th Congress, we launched a national letter-
writing campaign, where hundreds of letters were sent daily to the 
chairs of both the house Veterans' Affairs Committee and Senate Affairs 
Committee. Each letter highlighted the story and service of a Filipino 
WWII veteran, many of whom have already passed but we still keep alive 
through this fight for justice. And in building off of these efforts, 
today I am submitting to you another hundred letters from students 
around this nation, in support of cause.
    I want to leave you with some final thoughts. The fight for full 
veterans' equity was the first issue that brought me to work in my 
community, almost a decade ago. It is a close issue to me since my lolo 
Celedonia R. Cadiz was a Filipino guerrilla, who became MIA and later 
was declared dead, during World War II. I learned through this campaign 
that there are two groups of people in this world: those who are born 
with rights and those who have to fight for their rights. I stand 
before you as a member of a community that had to fight for every right 
we have. And with the issue; we stand in the same position. We as the 
members of SAVE, understand this fight, and stand ready. We will not 
waiver for anything less than equity. We will continue this fight for 
their rights and only you can redeem their courageous service. Support 
the Filipino Veterans Equity Act of 2007 and recognize their service 
once and for all.

                                 <F-dash>
         Statement of Gil P. Zulueta, Virginia Beach, Virginia
    Congressman Bob Filner and Members of the House Veterans' 
Committee, my name is Virgilio Zulueta. My friends call me Gil. I am a 
resident of Virginia Beach, Virginia and I am a citizen of the United 
States.
    In a nutshell, the ultimate goals are to obtain monetary 
compensation and secure preferential treatment for immigration to this 
country for the Filipino veterans of World War II. Those are the main 
reasons why my friends and I want to amend the so called Rescission Act 
of 1946. The simple truth, however, is that even though my father was 
one of those veterans, none of these reasons apply to him, to mother, 
to me or to any of my siblings.
    So what is in it for me? It will help me explain if you allow me to 
tell a little more about myself, my family and where I came from.
    I was born during World War II in the little town of Morong in the 
province of Bataan, the Philippines. For those who are familiar with 
the events and places related to the said war, the place is where the 
U.S. Armed Forces held its last stand against the Japanese Imperial 
Army. The Fall of Bataan is commemorated every year on April 9. One 
will find these facts in history books. Of course, not about my being 
born--there are way too many much more significant ``world events'' to 
write about than that.
    Also in the history books are the gallantry and many sacrifices of 
both the American and Filipino soldiers. While still very young and not 
yet able to read, I was fortunate to know some of the war stories 
without the aid of the history books. Countless times, I listened to 
the stories as they were told so vividly and firsthand by the former 
soldiers and by the members of the guerrilla forces. ``Story telling'' 
was just about the pastime among the populace in the small town where I 
grew up. People will group together in no particular place and share 
stories. Because the war had just recently ended at the time, the 
grown-ups frequently talked about their war experiences or those of 
their friends and relatives. There was no movie house, no bowling alley 
or any form of recreation--``story telling'' is the only thing.
    One such story is about four brothers who were in a particular 
gathering. Two of the brothers were among about a dozen or so men that 
were being beaten by Japanese soldiers near the town plaza. The men 
have their hands tied behind their back and are unable to defend 
themselves from the blows. The choice of weapon was branches of guava 
plant with the diameter about the size of a man's wrist. Guava wood is 
known for being sturdy and not easy to break. As the two brothers 
continue to receive the blows, two of their younger brothers were among 
the onlookers who helplessly watch the beatings. They were helplessly 
watching because they were prevented to cross a perimeter of Japanese 
soldiers with bayonets mounted on their rifles.
    The pain must have been so unbearable not only for the two brothers 
receiving the actual blows but also for the two brothers who were 
witnessing the beatings. They suffered such brutality because they were 
members of an organized guerrilla force and were known to have given 
comfort to American soldiers who were able to evade capture by the 
enemies. By the way, the four brothers were my father and three of his 
siblings.
    The trauma suffered from the brutal beatings plus the sufferings 
from the physical and emotional stress of the war must have taken their 
toll. Their immune systems deteriorated to the point that they became 
sickly. Both of them died shortly after the war. They were in their 30s 
when they died of disease. Had they been able to avail themselves with 
better healthcare maybe they could have lived longer. My two uncles and 
thousands of men like them should have been provided with healthcare by 
the U.S. Government for their services in the U.S. Armed Forces. This 
was not to be the case because of the so-called Rescission Act of 1946.
    To complete the story of the four brothers, one of them, my father, 
died at age 45. He enjoyed at least for a short period the benefits of 
his wartime services. The benefits were from the Philippine government 
and not from the United States. Again, this is so because of the 
Rescission Act of 1946. The fourth brother survived the Bataan Death 
March. He took advantage of the GI Bill given to members of the USAFFE 
and went back to school after the war. He has since immigrated to the 
United States together with his family. He is still alive and proudly 
drives his car with a POW license plate issued by the State of Nevada. 
He is the only living sibling of my father; his name is Nestro Zulueta.
    Two years ago, I was home in the Philippines during the 
commemoration of the Fall of Bataan in Mt. Samat. I met some of my 
Uncle Nestro's contemporaries. They are old now--very old. Among their 
ranks, a few of them die each day. For most of them, they have yet to 
receive a single cent for their services performed more than half a 
century ago in the United States Armed Forces.
    Gentlemen and gentle ladies of the Committee, I submit to you that 
this is wrong. You have the power to undo a great injustice. You have 
the power to amend the Rescission Act of 1946. I am asking you to do 
the right thing. Thank you all very much for listening.
          POST-HEARING QUESTIONS AND RESPONSES FOR THE RECORD
Questions from Hon. Bob Filner, Chairman, Committee on Veterans' Affairs
 , to Hon. R. James Nicholson, Secretary, U.S. Department of Veterans 
                                Affairs

                                     Committee on Veterans' Affairs
                                               Washington, DC 20515
                                                  February 21, 2007

Honorable R. James Nicholson
Secretary
Department of Veterans Affairs
Washington, DC 20420

Dear Mr. Secretary:

    In reference to our full Committee hearing on Full Equity for 
Filipino veterans on February 15, 2007, I would appreciate it if you 
could answer the enclosed hearing questions by the close of business on 
March 28, 2007.
    In an effort to reduce printing costs, the Committee on Veterans' 
Affairs, in cooperation with the Joint Committee on Printing, is 
implementing some formatting changes for materials for all full 
Committee and Subcommittee hearings. Therefore, it would be appreciated 
if you could provide your answers consecutively on letter size paper, 
single-spaced. In addition, please restate the question in its entirety 
before the answer.

            Sincerely,

                                                         BOB FILNER
                                                           Chairman

    Question 1: Can you tell me how many World War II era Filipino 
veterans are now presently living in both the United States and in the 
Philippines? Do you have those numbers by category, i.e., New Scouts, 
Old Scouts, Commonwealth Army and Recognized Guerrillas?

    Response: The Department of Veterans Affairs (VA) does not have any 
statistics on the total number of World War II-era Filipino veterans 
living in both the United States and in the Philippines. VA only has 
statistics on those Filipino veterans and claimants who are currently 
receiving VA compensation or dependency and indemnity compensation 
(DIC). The following table shows the breakdown of Filipino veterans and 
claimants who are currently receiving VA benefit payments.


----------------------------------------------------------------------------------------------------------------
                                                              Live in the       Live in the       Live in Other
                                                              Philippines      United States        Countries
----------------------------------------------------------------------------------------------------------------
Filipino Veterans Receiving Disability Payments                      2,726                683                32
----------------------------------------------------------------------------------------------------------------
Filipino Claimants Receiving DIC                                     4,649                435                35
----------------------------------------------------------------------------------------------------------------
    Total                                                            7,375              1,118                67
----------------------------------------------------------------------------------------------------------------


    Question 2: Does the VA currently provide funds to the Veterans 
Medical Memorial Center in the Philippines? If yes, under what 
authority? Has that authority been reauthorized by Congress?

    Response: VA provides grants of equipment, not money, and does this 
under the authority of 38 U.S.C. section 1731. This authority is not 
time-limited and thus does not need to be reauthorized by Congress.

    Question 3: Are the children of the New Scouts, Commonwealth Army 
and Recognized Guerrillas eligible for education benefits? If yes, at 
what rate?

    Response: Children of veterans of the New Philippine Scouts, 
Commonwealth Army, and recognized guerrilla forces are eligible for 
Chapter 35 Dependents' Educational Assistance benefits at the rate of 
$0.50 for each dollar. To be eligible for Dependents' Educational 
Assistance benefits, the individual must be a child of a service-member 
who died on active duty or a child of a veteran who is permanently and 
totally disabled or who died from any cause while such service-
connected disability was in existence. Generally, children may use the 
benefit while they are between the ages of 18 and 26.

    Question 4: Are Old Scouts, New Scouts, Commonwealth Army, and 
Recognized Guerrillas regardless of citizenship eligible for burial 
flags?

    Response: Veterans of the Regular Philippine Scouts, New Philippine 
Scouts, Commonwealth Army, or recognized guerrilla forces who are 
United States citizens or lawfully residing in the United States are 
eligible to receive a burial flag.

    Question 5: Is the Manila outpatient clinic operating at full 
capacity? Can it handle more patients?

    Response: The Manila clinic is operating at full capacity--the 
budget is committed and primary care panels are full. The clinic is 
able to handle the current demand. Increasing patient workload would 
require an increase in current clinical personnel and associated 
resources (e.g., administrative support and space). The existing clinic 
space would allow for no more than a 20-percent increase in patient 
workload.

    Question 6: Are New Scouts, Commonwealth Army and Recognized 
Guerillas eligible for the same medical care in the U.S. as other 
veterans of the U.S. Armed Services?

    Response: Title 38, Code of Federal Regulations, Sec. 17.39 
provides that ``Any Filipino Commonwealth Army veteran, including one 
who was recognized by authority of the U.S. Army as belonging to 
organized Filipino guerrilla forces, or any New Philippine Scout is 
eligible for hospital care, nursing home care, and outpatient medical 
services within the United States in the same manner and subject to the 
same terms and conditions as apply to U.S. veterans, if such veteran or 
scout resides in the United States and is a citizen or lawfully 
admitted to the United States for permanent residence.''

    Question 7: What steps has the VA taken, if any, against fraud in 
the VA regional office in Manila? What is the rate of fraud, if any, in 
the VA regional office in Manila?

    Response: The Manila Regional Office (RO) uses a variety of anti-
fraud measures to ensure that VA benefits are paid to the rightful 
beneficiary. The Manila RO employs ten full-time field investigators 
who verify the identity of the VA beneficiary. In addition, the Manila 
RO uses an identification verification system and the Office of 
Inspector General's Forensic Services. VA is unable to provide the rate 
of fraud.

    Question 8: What is the projected death rate of Filipino World War 
II era veterans receiving VA benefits?

    Response: VA does not have a projected death rate for Filipino 
World War II veterans.

    Question 9: Pursuant to 38 U.S.C. Sec. 109(a), the VA may furnish 
discharged members of allied forces, upon request of the allied 
governments, various benefits, based on reciprocity. Are there any 
veterans from allied countries still receiving benefits based on the 
aforementioned statute? If yes, what type of benefits do they receive?

    Response: VA may furnish medical, surgical, dental treatment, 
hospital care, transportation and traveling expenses, prosthetic 
appliances, education, training, or similar benefits to veterans of any 
nation allied or associated with the United States in World War I 
(except any nation that was an enemy of the U.S. during World War II) 
or World War II under agreements requiring reimbursement. Currently, VA 
provides such services to veterans authorized by the United Kingdom and 
Canada. This statute also authorizes care to World War I and World War 
II era Polish and Czechoslovakian veterans who have been citizens of 
the United States for at least 10 years. These veterans are eligible 
for VA health care benefits in the same manner as veterans of the Armed 
Forces of the United States. VBA is not currently providing benefits to 
veterans of allied governments.

                                 <F-dash>
      Questions from Hon. Steve Buyer, Ranking Republican Member,
 Committee on Veterans' Affairs, to Hon. R. James Nicholson, Secretary,
                  U.S. Department of Veterans Affairs
                                     Committee on Veterans' Affairs
                                                     Washington, DC
                                                        May 1, 2007
Honorable R. James Nicholson
Secretary
Department of Veterans Affairs
810 Vermont Avenue, NW
Washington, DC 20420

Dear Mr. Secretary:

    In reference to our Committee hearing of February 15, 2007, on 
Veterans Benefits for Filipino Veterans, I am attaching with this 
letter some additional questions to be included in the hearing record. 
I would appreciate a response to the enclosed questions for the record 
by close of business Wednesday, May 30, 2007.
    It would be appreciated if you could provide your answers 
consecutively on letter size paper, single spaced. Please restate the 
question in its entirety before providing the answer.
    Thank you for your cooperation in this matter.

            Sincerely,
                                                        Steve Buyer
                                          Ranking Republican Member

    Question 1: What do you believe the implementation and mandatory 
costs for 1 year and over 10 years for H.R. 760, the Filipino Veterans 
Equity Act of 2007 would be?

    Response: The total compensation and pension mandatory costs are 
estimated to be $441.2 million during the first year and nearly $3.7 
billion over 10 years. The costs associated with additional full time 
employees (FTE) are estimated to be $8.8 million the first year and $27 
million over 10 years.

    Question 2: Is it your understanding that if H.R. 760 was made into 
law it would authorize members of the new scouts, Commonwealth Army, 
and Recognized Guerrillas to receive compensation at the full rates as 
specified in title 38?

    Response: Yes, this legislation would authorize members of the new 
scouts, Commonwealth Army, and recognized guerrillas to receive 
compensation at the full rates as specified in title 38. The law as 
proposed would have five major ramifications:

    <bullet>  Payment of the full rate of compensation for veterans 
residing outside of the United States
    <bullet>  Payment of the full rate of dependency and indemnity 
compensation (Ole) for surviving spouses residing outside of the United 
States
    <bullet>  Entitlement to veterans pension benefits
    <bullet>  Entitlement to death pension for surviving spouses
    <bullet>  Entitlement to the burial benefit and plot allowance for 
veterans who do not reside in the United States
    <bullet>  Entitlement to health care

    Question 3: What reductions in other mandatory funding programs 
within the VA would need to be made to offset the mandatory funding 
that is authorized by H.R. 760?

    Response: The Veterans Benefit Administration (VBA) does not 
recommend reducing other mandatory programs to offset the cost of H.R. 
760.

    Question 4: What is VA's current and proposed FY2008 spending for 
Filipino old scouts, new scouts, members of the Commonwealth Army, and 
recognized guerrillas?

    Response: As of February 2007, there were 3,441 Filipino veterans 
receiving compensation. This number excludes old scouts who qualify for 
the full range of benefits and services as veterans of the United 
States Armed Forces. During the month of February 2007, Filipino new 
scouts, members of the Commonwealth Army, and recognized guerrillas 
received total monthly payments of $2,791,532. We do not have budgetary 
projections for these groups of Filipino disability compensation 
recipients.

    Question 5: What steps will be taken to prevent potential fraud 
should pension benefits be granted to Philippine veterans?

    Response: The Manila Regional Office (RO) uses a variety of anti-
fraud measures to ensure that the Department of Veterans Affairs (VA) 
benefits are paid to the rightful beneficiary. The Manila RO employs 10 
full-time field investigators who verify the identity of the VA 
beneficiary. In addition, the Manila RO uses an identification 
verification system and the Office of Inspector General's forensic 
services.
    However, a major component of our administration of the VA pension 
programs involves income verification and other computer matching 
programs with agencies such as the Internal Revenue Service and the 
Social Security Administration. Through these matching programs, we are 
able to verify pensioners' reported income and employment status. These 
programs are also important in identifying and deterring fraud. We 
would not have access to these types of external data sources in the 
Philippines, making administration of the pension programs in the 
Philippines much more difficult and increasing the potential for fraud.

                                 <F-dash>
      Questions from Hon. Steve Buyer, Ranking Republican Member,
     Committee on Veterans' Affairs, to Carlos D. Sorreta, Charge 
                              d'Affaires,
 Embassy of the Philippines, and Response from His Excellency Willy C. 
                                  Gaa,
                 Ambassador, Embassy of the Philippines
                                     Committee on Veterans' Affairs
                                               Washington, DC 20515
                                                        May 1, 2007
Mr. Carlos D. Sorreta
Charge d'Affaires ad interim of the Philippines
Embassy of the Philippines
1600 Massachusetts Avenue, NW
Washington, DC 20036

Dear Mr. Charge d'Affaires,

    Thank you for testifying before the House Committee on Veterans' 
Affairs at the Committee's hearing on Veterans Benefits for Filipino 
Veterans, held on February 15, 2007.
    I am attaching with this letter some additional questions to be 
included in the hearing record. I would appreciate your response to the 
enclosed additional questions for the record by close of business 
Wednesday, May 30, 2007.
    It would be appreciated if you could provide your answers 
consecutively on letter size paper, single spaced. Please restate the 
question in its entirety before providing the answer.
    Thank you for your cooperation in this matter.

            Sincerely,
                                                        Steve Buyer
                                          Ranking Republican Member

                               __________

                                         Embassy of the Philippines
                                               Washington, DC 20036
                                                        29 May 2007
The Honorable Steve Buyer
Congressman
335 Cannon House Office Building
Washington, DC 20515  (202-225-2267)

Dear Congressman Buyer,

    I would like to thank you for your letter dated 1 May 2007 
requesting Mr. Carlos Sorreta, who was the Charge d'Affaires of the 
Embassy when he testified before the House Committee on Veterans' 
Affairs at the Committee's hearing for Filipino Veterans on 15 February 
2007, to reply to additional questions, to be included in the hearing 
record.
    I am pleased to submit our official reply (enclosed) to the 
questions attached to your letter.
    I deeply appreciate the opportunity to answer these questions and 
hope that we were able to address your concerns.
    I would also like to assure you that we remain ready to address, 
personally or through our respective staff, any other concerns you may 
have.

            Sincerely,
                                                       Willy C. Gaa
                                                         Ambassador

    Question 1. According to your own census bureau, the average per 
capita income is around $1400. How is it equitable to Americans and 
non-veteran Filipinos that these veterans will be making seven and a 
half times this number under H.R. 760?

    Answer: We appreciate the concerns that have been expressed over 
the issue of the difference in the standards of living between the 
United States and the Philippines in the context of the implementation 
of H.R. 760.
    We believe that it is equitable to provide a fair non-service 
connected pension to poor Filipino WWII veterans in their eighties and 
nineties who served honorably in the U.S. Army.
    However, these concerns could be addressed by adjusting the pension 
to be given to veterans in the Philippines to an amount that would 
allow them to live in dignity and that would cover their out-of-pocket 
medical expenses in their few remaining years.
    We also believe that the base amount should not be the per capita 
income of Filipinos but the median family income. This reflects more 
accurately the social and economic realities in the Philippines, where 
segments of the population are not of employment age while other 
segments are not employed at all. The equitable standard should be 
median Filipino household income, which is $3800.

    Question 2: Are you concerned that if this bill goes through that 
it will make a new class of veterans that may cause a sense of 
unfairness by other groups of veterans in your country?

    Answer: We believe that if this bill goes through, there would be 
no issue of creating a new class of veterans or a sense of unfairness.
    Providing U.S. veterans pension benefits to Filipinos in the 
Philippines is not new. Currently, the U.S. Veterans Administration 
already provides war-related compensation and pension benefits to 
thousands of Filipino WWII ``Old Scouts.''
    According to the VA Regional Director in Manila, Jon Skelly, he 
disburses about $14M monthly to these veterans.

    Question 3: How would the tax code in the Philippines apply to 
benefits paid by the U.S. Government? Would this money be tax free and 
if not please provide us the actual take-home pay for a Filipino 
veteran for both H.R. 760 and the $200 per month proposal?

    Answer: Pension benefits in any form are not taxed under Philippine 
law. The benefits currently being given by the U.S. Veterans 
Administration to Filipino veterans in the Philippines are not taxed. 
Benefits to be given under H.R. 760 will not be taxed.

    Question 4: Would your government support a proposal of $200 a 
month for each veteran paid by the U.S. Government plus the $100 per 
month paid by your government?

    Answer: For the Philippine Government, while the amount is a matter 
of importance, the primary issue is that of correcting a 60-year-old 
grave injustice through the passage of H.R. 760. In terms of the 
amount, we are for a fair and equitable pension. We are aware that a 
number of veterans themselves are willing to accept this amount. We are 
certainly open to discussion on the issue of amount, based on our 
desire for a fair and reasonable amount, but also keenly aware of the 
duty of the U.S. Congress to act with fiscal responsibility.

    Question 5: What steps would your government immediately take to 
show to the U.S. Government that the law banning double payment by your 
government and the U.S. will be rescinded?

    Answer: We are glad to inform that President Gloria Macapagal 
Arroyo, in her letter to President Bush on 5 April 2007, gave her 
assurance that the $100 old-age pension that the Filipino WWII veterans 
are currently receiving will continue even after the passage of the 
H.R. 760.

    Question 6: Instances of past fraud in payments to Filipino 
veterans residing in the Philippines are well documented. What steps 
will the government of the Philippines and VA take to prevent a 
recurrence of such fraud should pension benefits be granted to 
Philippine veterans?

    Answer: In terms of the basic list of veterans, only those listed 
by the St. Louis, Missouri Army Personnel Record Center and the loyalty 
board records will be included. Those not listed will be excluded. For 
both the Philippine and the U.S. Governments, strict and rigorous 
methods will be applied to prevent fraud. There will be stringent 
requirements for proof of identity, to prevent identity theft. There 
will be regular checks to ensure that the beneficiary is still alive.

                                 <all>

</pre></body></html>
